<html>
<title> - EXAMINING THE PREVALENCE OF AND SOLUTIONS TO STOPPING VIOLENCE AGAINST INDIAN WOMEN</title>
<body><pre>[Senate Hearing 110-196]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-196
 
EXAMINING THE PREVALENCE OF AND SOLUTIONS TO STOPPING VIOLENCE AGAINST 
                              INDIAN WOMEN

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2007

                               __________

         Printed for the use of the Committee on Indian Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
39-355                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            TOM COBURN, M.D., Oklahoma
DANIEL K. AKAKA, Hawaii              JOHN BARRASSO, Wyoming
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARIA CANTWELL, Washington           GORDON H. SMITH, Oregon
CLAIRE McCASKILL, Missouri           RICHARD BURR, North Carolina
JON TESTER, Montana
                Sara G. Garland, Majority Staff Director
              David A. Mullon Jr. Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 27, 2007...............................     1
Statement of Senator Barrasso....................................     4
Statement of Senator Dorgan......................................     1
Statement of Senator Johnson.....................................     5
Statement of Senator Murkowski...................................     3
Statement of Senator Tester......................................    67
    Prepared statement...........................................    70

                               Witnesses

Arriaga, Alexandria, Director of Government Relations, Amnesty 
  International U.S.A............................................     6
    Prepared statement...........................................     9
Artichoker, Karen, Director, Sacred Circle National Resource 
  Center to End Violence Against Native Women....................    34
    Prepared statement...........................................    36
Kanji, Riyaz A., Kanji and Katzen................................    41
    Prepared statement...........................................    43
Rozell, Jami, Educator, Cherokee Nation, Oklahoma................    21
    Prepared statement...........................................    22
Young, Tammy M., Director, Alaska Native Women's Coalition.......    23
    Prepared statement...........................................    25

                                Appendix

Alaska Justice Forum (Vol. 24, No. 1)............................   219
Alaska Rural Justice and Law Enforcement Commission 2006 Initial 
  Report and Recommendations.....................................    88
Asetoyer, Charon, M.A. (Comanche Nation); Executive Director, 
  Native American Women's Health Education Resource Center, 
  prepared statement.............................................    73
Parisien, Helen, Shelter Manager, Bridges Against Domestic 
  Violence, prepared statement...................................    77
Sahneyah, Dorma L., Chief Prosecutor, Hopi Tribe, prepared 
  statement......................................................    74
Salt River Pima-Maricopa Indian Community (SRPMIC), prepared 
  statement......................................................    79
U.S. Department of Justice, prepared statement...................    81


                    EXAMINING THE PREVALENCE OF AND 
          SOLUTIONS TO STOPPING VIOLENCE AGAINST INDIAN WOMEN

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2007

                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:10 a.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. With respect to the hearing that we are 
holding today, let me make a couple of comments, because I 
think it is important to describe what it is we are doing and 
why.
    Today the Committee will hold its third hearing to take a 
look at tribal justice systems and the growing problem of 
violent crime in Indian Country. The first two hearings showed 
that we are facing a severe public safety crisis in Indian 
Country. And today's hearing will focus specifically on the 
issue of sexual violence against Indian women.
    An April 2007 Amnesty International report found that 34 
percent of Indian women will be raped or sexually assaulted 
during their lifetimes. I commend Amnesty International for 
bringing added public attention to what I think is a very 
serious issue. However, as the report notes, this is 
unfortunately not breaking news to women who live on Indian 
reservations. The problem has existed for a decade and more.
    The title of the Amnesty report is ``Maze of Injustice,'' 
and it refers to the complexity and the maze of jurisdiction 
that exists on Indian lands today. However, this was not always 
the case. Indian tribes historically exercised authority over 
anyone who entered their lands, regardless of whether the 
perpetrator was Indian or not.
    The confusion that exists today is the result of outdated 
Federal laws and court decisions that were passed during a time 
when paternalism was this Nation's Indian policy. These laws 
directly conflict with the policy of Indian self-determination 
and they strike at the very heart of tribal sovereignty. As a 
result, victims in Indian Country rely solely on the Federal 
Government, specifically the FBI and the United States 
Attorneys Offices, to investigate and prosecute sexual violence 
in Indian Country. It is clear to me that the Federal 
Government is not meeting its obligation.
    For a number of reasons, many victims of sexual violence 
are unable to bring their attackers to justice or even gain 
access to the legal system. And that is intolerable. In North 
and South Dakota, we have four police officers patrolling 2.3 
million acres on the Standing Rock Sioux Reservation. Survivors 
of violent crimes report waiting hours, in some cases days for 
a police car to respond to an emergency request. When the 
police do show up, the survivors sometimes have to travel 
hundreds of miles to receive treatment. In the end, too many 
women see their cases thrown out of court and worse, they often 
never get an explanation from the officer or the prosecutor.
    This year, NPR ran a series of stories on violence against 
women in Indian Country. One involved cases on the Standing 
Rock Reservation. The title of the report was ``Rape Cases on 
Indian Lands Go Uninvestigated.'' In the report, a retired BIA 
police officer described the grim situation. He said, ``We all 
knew they only take the cases with a confession. We were forced 
to triage our cases.''
    When this type of violence becomes so commonplace the 
police have to triage rape cases, something is dreadfully wrong 
and someone needs to take action. Today, we are going to hear 
first-hand from a courageous young woman about her struggle to 
obtain justice under this broken system. I hope her story will 
motivate all of those of us in Congress to fix a system that 
desperately needs fixing.
    The fallout from these heinous crimes is often devastating 
to the victim. We have seen these crimes against Indian women 
have a demoralizing and long-term effect on the fabric of an 
entire community. Tribal leaders have in some cases described 
reservations as a war zone. There is a growing perception among 
criminals that Indian lands are a safe haven. I read a report 
this week of a U.S. Attorney from Colorado, Troy Eid, who was 
involved in stopping a drug organization that was set up on an 
Indian reservation. He said ``Indian reservations are being 
used as business development tools by large drug trafficking 
organizations.'' It confirms our earlier reports that Indian 
Country is a target.
    Yesterday, I met with Judge Mukasey, the President's 
nominee for Attorney General. I met with him specifically, I am 
going to support his nomination, I am going to vote for him, 
but I asked to meet with him specifically because I wanted to 
review with him the circumstances on Indian reservations and 
the difficulties we have in connecting adequate law enforcement 
between State, local and Federal law enforcement authorities. I 
wanted his commitment that he was going to understand this and 
work hard to try to correct it.
    So there is much to be concerned about. And I also 
recognize it is very sensitive to be talking about this. I 
don't want in some pejorative way to suggest that there is 
something dreadfully wrong with a group of people in this 
Country. That is not the case. Indian reservations in many 
cases are remote areas, they have inadequate law enforcement, 
in many cases very substantial poverty and other issues. And 
they have too often, I think, been targeted by criminal 
enterprises, targeted by drug dealers. We now see report after 
report that there are very serious sexual crimes and crimes of 
violence committed, particularly against women, not 
exclusively, but particularly against Indian women, that often 
go unreported and in many cases go unpunished. And there is 
something wrong with that and we intend to find ways to fix it.
    Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate a 
great deal, in fact, that the Committee is holding this hearing 
this morning. It is a very important topic, probably one of the 
most serious problems facing our Indian and Alaska Native 
communities, and this is the violence against women.
    I want to welcome all of the witnesses, but particularly 
Ms. Tammy Young, who has made a long trip back from Alaska to 
testify before the Committee today.
    Mr. Chairman, you know that we had scheduled a field 
hearing in Alaska in June to discuss the Amnesty International 
report on sexual violence. We canceled that hearing at the very 
last minute out of respect for the passing of our colleague, 
Senator Craig Thomas. I know it was certainly one of Senator 
Thomas' priorities to improve law enforcement in Indian Country 
and in part because of the violence against women and children 
in our Indian communities. So this Committee taking up this 
issue today again is certainly most timely.
    As so many are aware, Alaska received national and even 
global attention because of the Amnesty report. And while I 
have heard from members of the Alaska Native community 
expressing concerns about what they saw and read in the Amnesty 
report, I view this report as a wake-up call that the Federal 
Government has not been listening carefully enough to the 
advocates for our Native women who experience these despicable 
acts of violence. And I am deeply troubled when I hear that the 
Amnesty report was not news, just as you have indicated in your 
comments.
    No one should have to face domestic violence or sexual 
assault. And yet our Native women are at least two and a half 
times more likely to be raped or sexually assaulted than their 
non-Native counterparts. And in too many places, they have 
nowhere to turn, absolutely nowhere to turn, no one to go to. I 
am very troubled when I see the faces, listen to the stories, 
very heart-breaking stories of these women who have experienced 
the most appalling of assaults, and understanding the obstacles 
that they face. But I am also very inspired by their strength 
and by their courage. I too note the great sensitivity of this 
issue.
    But we can't continue to not talk about it. We cannot 
continue to pretend that these statistics belong to somebody 
else. Even though it is difficult, we must expose this for what 
it is.
    I am very disturbed to hear of the systemic shortcomings 
that preclude the successful prosecution of these violent acts. 
These shortcomings, such as the law enforcement, the 
inadequacies of the IHS forensic processes needed to support 
the prosecutions, they contribute to a haven of lawlessness in 
Native communities. And they have to be addressed. And they can 
be addressed immediately.
    I have hope that this hearing will reveal some solutions to 
this issue. I am certain that we can do a better job of 
providing the resources necessary to ensure that Alaska Native 
and Indian women are safe in their communities. I was a proud 
sponsor of the Violence Against Women Act of 2005. I look 
forward to hearing perspectives from the DOJ Tribal 
Consultation held last week on that.
    But I know that government alone can't get rid of the 
violence that we see within our Native communities. It is going 
to take a partnership of our Native leaders, of our Native 
people, of law enforcement agencies, of social service 
providers, to carry these solutions to fruition.
    I note that we have many witnesses here today from 
different areas, different parts of the Country with different 
stories. I look forward to hearing form them, from their 
perspective, but also to understand what they might propose to 
be some of the solutions to this very, very difficult issue. 
With that, Mr. Chairman, I thank you.
    The Chairman. Senator Murkowski, thank you very much.
    Senator Barrasso?

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. First, 
I applaud the leadership of the Committee for bringing this 
hearing on this important topic to us today. I want to thank 
the incredible individuals who are going to be here today to 
testify, because it does require courage and strength and 
fortitude to come and tell these stories. It is remarkable.
    As an orthopedic surgeon, I take care of women who have 
been the subject of crimes of violence, and it is difficult as 
a treating physician and it is difficult for the families, it 
is difficult for the women. I think it is wonderful that we are 
doing this, Mr. Chairman.
    I need to apologize in advance, I have another committee 
that is starting soon where I need to be. But I want to 
carefully watch and listen to what has been said and will read 
all the testimony.
    We have a current vacancy, Mr. Chairman, in our U.S. 
Attorney in Wyoming. Our last U.S. Attorney prosecuted an 
incredible drug ring on our Indian reservation and has done 
some significant work to help the other people who are living 
there in this time of crime. We need to have that vacancy 
filled so we can help with prosecutions there of horrible 
crimes and violent acts like we are going to hear about today. 
So any help that I could get from other members of the 
Committee in getting that U.S. Attorney position filled in 
Wyoming would be helpful to all of the people of Wyoming, and 
specifically on our Indian reservations.
    Thank you, Mr. Chairman.
    The Chairman. Senator Barrasso, thank you very much.
    I must say, our Committee is excited to be rejoined by 
Senator Johnson. Senator Johnson has long been a very important 
part of the Indian Affairs Committee and an unbelievable 
champion of the issues that really matter. So Senator Johnson, 
glad to see you back. Do you have an opening comment?

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Chairman Dorgan, Vice Chair 
Murkowski. I thank you for holding this hearing.
    I particularly want to thank Karen Artichoker for her 
presence today, her insights on the circumstances facing the 
Oglala Sioux Tribe and for her testimony today and her 
leadership on the issue. Thank you.
    The Chairman. Senator Johnson, thank you very much.
    Before I call the five witnesses, I want to make one 
additional comment. There is a chart up here that quotes Ron 
His Horse Is Thunder, who is chairman of the Standing Rock 
Sioux Tribe. That is an Indian reservation that Senator 
Johnson's State and my State share on both sides of the border. 
He says, ``As long as the Tribe must depend on the Federal 
Government to police and prosecute people on their own land, 
anyone who comes here may well be able to rape or assault 
women, like Leslie Iron Road, and get away with it.'' He was 
making those comments in a story that was published. But this 
is from a chairman of a tribe, a very astute, really a terrific 
chairman. We have worked long with Ron His Horse Is Thunder. 
And that is a startling statement but one that I respect him 
making.
    I want to make one other point. I referred to Troy Eid, the 
U.S. Attorney in Colorado. I want to tell you fully what he 
said. He said, ``Indian reservations are being used as business 
development tools by the large drug trafficking 
organizations.'' In a drug bust in Wyoming's Wind River Indian 
Reservation, occupied by Northern Arapaho and Eastern Shoshone 
Tribes, U.S. Attorney Eid talked about a business plan seized 
by authorities that outlined how the drug organization wanted 
to replace alcohol abuse with meth abuse. It described in 
graphic terms how they planned to establish romantic 
relationships with women, get them hooked and get them to deal. 
Establishing relationships with them was designed to gain 
access into the Indian community.
    That is frightening stuff. I appreciate the work that U.S. 
Attorney Eid has done. He has some very terrific, really 
competent work. We really appreciate that work.
    So let me call forward the witnesses, and as I do, thank 
them very much for being willing to appear today.
    Ms. Alexandra Arriaga is the Director of Government 
Relations for Amnesty International in Washington, D.C. Ms. 
Jami Rozell, Educator and a Survivor in Oklahoma. Tammy Young, 
Co-Director, Alaska Native Women's Coalition Against Domestic 
Violence and Sexual Assault in Sitka, Alaska. Ms. Karen 
Artichoker, the Director of the Sacred Circle in Rapid City, 
South Dakota. And Riyaz Kanji, Kanji and Katzen, in Ann Arbor, 
Michigan.
    I want to thank all of you for being willing to come and 
testify. As Senator Murkowski and I have both indicated, this 
is a very sensitive topic. I recall the first acquaintance with 
violence on Indian reservations, sitting with a young girl 
named Tamara and her grandfather, Reginald. I went to see them 
because I read about something that had happened to this little 
girl. Her nose was broken, her arm was broken, her hair pulled 
out at the roots. She was placed in a foster home as a young 
child without anyone checking whether the foster home was safe. 
In a drunken party, this girl was savagely abused. She will 
have those scars for her life, I supposed, her entire life.
    But it reminds me that this subject is not about some 
ethereal debate. It is about real people's lives, and about a 
law enforcement system that is now not working and as a result, 
violence against women and abuse of women exists that ought to 
be obliterated. We hope through this hearing and through your 
testimony and through other approaches that we can work 
together to achieve, we hope to make some significant progress. 
So let me thank all of you.
    Alexandra Arriaga, one of the, not the only, but one of the 
things that prompted us to hold a hearing was a number of 
articles including the study that was released by Amnesty 
International. We appreciate your being here, and you may 
proceed. The entire statements made by all of you will be made 
a part of the permanent record and you are welcome to summarize 
your testimony.

    STATEMENT OF ALEXANDRIA ARRIAGA, DIRECTOR OF GOVERNMENT 
            RELATIONS, AMNESTY INTERNATIONAL U.S.A.

    Ms. Arriaga. Thank you very much, Mr. Chairman, thank you, 
Madam Vice Chairman and Senator Johnson, it is very good to see 
you here. Thank you.
    I am honored to be here to speak about the issue today. 
Amnesty International, as you know, is a worldwide human rights 
organization. We have $2.2 million people around the world who 
are supporters in 150 countries and territories. We learned 
about the startling statistics of the sexual violence that is 
plaguing Indian Country and that is victimizing and creating 
survivors, very courageous women as well, among Native American 
and Alaska Native women.
    Amnesty, as you said, has recently released a report 
entitled ``Maze of Injustice: the Failure to Protect Indigenous 
Women from Sexual Violence in the United States.'' It focuses 
on this crisis, but as you have stated, Mr. Chairman and Madam 
Vice Chair, this is simply a report that has added public 
attention and has served as a wake-up call. This is a report 
that has really simply brought attention to an issue that has 
been occurring for a very long time and that Native advocates 
have been speaking about for decades.
    We launched this investigation after learning of a U.S. 
Department of Justice's own statistics that are quite shocking. 
As many of you may have heard, the DOJ suggests that Native 
women are more than two and a half times more likely than other 
women in the United States to be raped; that more than one in 
three Native American and Alaska Native women is likely to be 
raped in her lifetime; and that 86 percent of the perpetrators 
of these crimes are non-Native men. These statistics are 
shocking and yet Amnesty International believes that they 
severely underestimate the crisis.
    In preparing this report, Amnesty International worked 
closely with Native American and Alaska Native individuals and 
organizations, with law enforcement and health service 
personnel, with Government officials. We conducted detailed 
research into specifically three locations that have very 
different jurisdictional considerations. One was the Standing 
Rock Reservation in North and South Dakota. another was the 
State of Oklahoma and then also the State of Alaska. Many 
courageous women came forward to share their stories. As you 
have said, Mr. Chairman, this is about real people's lives.
    I would like to just begin in order to bring that home, as 
you have, to tell very briefly one of the stories that we 
heard. Della Brown, a 33 year old Alaska Native woman, was 
raped, mutilated and murdered. Her body was discovered in an 
abandoned shed in Anchorage, and that was in September 2000. 
Her skull was so pulverized the coroner compared her head to a 
bag of ice. Reportedly a number of people walked through the 
shed lighting matches in order to view her battered remains, 
but did not report the murder to the Anchorage police. To date, 
no one has been brought to justice for the rape and murder of 
Della Brown.
    This is one of countless stories, and I know that you have 
heard many more.
    Amnesty International found what Native women have already 
known and said for decades: many survivors of attacks may never 
get a police response, they may never have access to a sexual 
assault forensic examination and they may never see their case 
prosecuted. Barriers include jurisdictional maze and a chronic 
lack of resources for law enforcement and health services.
    Perpetrators of sexual violence are rarely being brought to 
justice. Prosecutions for crimes of sexual violence against 
indigenous women are rare in Federal, State and tribal courts. 
The high levels of impunity can become an incentive for 
perpetrators to commit further crimes. As one interviewee told 
Amnesty, it feels as though the reservation has become lawless.
    Several factors contribute to this crisis. More data is 
urgently needed. Available data underestimates the rates of 
violence. Many women in the Standing Rock Reservation, for 
example, said they could not think of a single woman who had 
not suffered some form of sexual violence.
    No official statistics exist specifically on sexual 
violence in Indian Country or Alaska villages. That needs to 
change.
    Amnesty International received numerous reports that 
complicated jurisdictional issues significantly delay and 
prolong the process of investigating and prosecuting crimes of 
sexual violence. As you are aware, three main factors determine 
where jurisdictional authorities lies: whether the victim is a 
member of a federally recognized Indian tribe or not; whether 
the accused is a member of a federally recognized Indian tribe 
or not; and whether the alleged offense took place on tribal 
land or not.
    The answers to these questions are quite complicated and 
not always self-evident. Some tribal, State and Federal law 
enforcement agencies have addressed these jurisdictional 
complexities by entering into cooperation agreements. The 
experience here is quite mixed, but it is something to explore. 
Chronic under-funding also contributes to the inadequate law 
enforcement response. According to the Department of Justice, 
tribes only have between 55 and 75 percent of the law 
enforcement resources available comparable to non-Native rural 
communities. There are many places where there is no accessible 
road and no law enforcement process at all, such as you know, 
Senator, is the case in some locations in Alaska.
    Training, communication and plans of action are necessary. 
It is essential that training occur in order to have better 
understanding of the surrounding jurisdictional issues, but 
also knowledge of the cultural norms and practices. And these 
must be determined in conjunction with Native advocates. It has 
to be developed in consultation. There should also be plans of 
action that are developed with advocates in order to be able to 
address these issues preventably as well.
    I will touch quickly on just a few other areas. Forensic 
examinations, as you have already noted, is a very important 
area. The forensic exams are essential to ensuring the 
possibility of adequate treatment but also prosecutions. There 
are severe limitations right now with the IHS facilities and 
their contract facilities. This is an area perhaps we can 
explore further in the Q&A.
    One important area here is the need for standardized 
protocols. Also the need for sexual assault nurse examiners. 
And also the need to clarify who covers the cost and expense of 
the exams and the transportation. Certainly the victim should 
not be covering these real costs. That does occur.
    There is also an issue of law enforcement agencies that 
lack sufficient funds to ensure the timely processing of 
evidence, and this is due to cuts in funding that have happened 
at the Federal level.
    Resourcing for the programs that are run by Native women is 
also critically important, especially under such dire 
circumstances. Very quickly, the barriers that exist in Federal 
law that prevent the tribal nations from being able to carry 
out justice are severe. As citizens of particular tribal 
nations, the welfare and safety of American Indian and Alaska 
Native women is directly linked to the authority and capacity 
of their nations to address such violence. A series of U.S. 
Federal laws and Supreme Court decisions have had a devastating 
impact. In particular, the Major Crimes Act, Public Law 280, 
the Indian Civil Rights Act, and of course, the case of 
Oliphant. Among the egregious consequences of these laws and 
court decisions, the tribes are limited to handing down 
custodial sentencing to only 1 year per offense, and tribal 
courts are prohibited from prosecuting non-Indian suspects.
    At the Federal and State level there is a failure to pursue 
cases of sexual violence against indigenous women. The extent 
to which these cases are dropped before they even reach a 
Federal court is difficult to quantify, as the U.S. Attorney's 
office appears not to compile statistics. When Federal 
prosecutors decline to prosecute cases involving non-Native 
perpetrators, there is no further recourse for indigenous 
survivors under criminal law within the United States.
    Tribal courts are the most appropriate for adjudicating 
these cases that arise on tribal land. Despite severe 
restrictions and obstacles and severe under-funding, the tribal 
systems have been addressing some of these cases for decades. 
Some tribal courts seek to overcome these limitations by 
handing down sequential sentences on a variety of crimes, for 
example.
    International law is clear: sexual violence against women 
is not a criminal act or social issue alone, it is a human 
rights abuse. The United States has ratified many international 
treaties that address this, but has yet to ratify the treaty 
for the rights of women which can help discrimination and 
violence against women worldwide.
    The next steps Congress takes must be determined in close 
consultation and cooperation with indigenous leaders. But all 
women have the right to be safe and free from violence. Thank 
you very much.
    [The prepared statement of Ms. Arriaga follows:]

    Prepared Statement of Alexandra Arriaga, Director of Government 
                Relations, Amnesty International U.S.A.
         Della Brown, a 33-year-old Alaska Native woman was raped, 
        mutilated and murdered. Her body was discovered in an abandoned 
        shed in Anchorage in September 2000. Her skull was so 
        pulverized the coroner compared her head to a ``bag of ice''. 
        Reportedly, a number of people walked through the shed, 
        lighting matches in order to view her battered remains, but did 
        not report the murder to the Anchorage police. To date, no-one 
        has been brought to justice for the rape and murder of Della 
        Brown.

Introduction
    Mr. Chairman and members of the Committee, thank you for inviting 
Amnesty International to testify on an issue that significantly impacts 
the human rights of American Indian and Alaska Native women. Amnesty is 
a worldwide human rights movement with more than 2.2 million members. 
Our mission is to conduct research and take action to prevent and end 
grave abuses of all human rights. I will focus my remarks on the 
findings of Amnesty's recent report ``Maze of Injustice: The failure to 
protect Indigenous women from sexual violence in the USA.''
    Amnesty International is a worldwide human rights movement with 
more than 2.2 million members and supporters in more than 150 countries 
and territories. Amnesty International's vision is for every person to 
enjoy all of the human rights enshrined in the Universal Declaration of 
Human Rights and other international human rights standards. Amnesty 
International's mission is to conduct research and take action to 
prevent and end grave abuses of all human rights. Amnesty International 
is independent of any government, political ideology, economic interest 
or religion. The organization is funded by individual members; no funds 
are sought or accepted from governments for investigating and 
campaigning against human rights abuses.
``Maze of Injustice'' Report
    On April 24, 2007, Amnesty International released the findings of 
over 2 years of investigation into the problem of sexual violence 
against Native American and Alaska Native Women. The report is part of 
a worldwide campaign to Stop Violence Against Women launched by Amnesty 
International in March 2004. Since then AI has published reports on 
aspects of violence against women in 40 countries.
    Amnesty International launched an investigation after learning that 
U.S. Department of Justice's own statistics indicate that Native 
American and Alaska Native women are more than 2.5 times more likely 
than other women in the U.S. to be raped. According to Department of 
Justice statistics, more than 1 in 3 Native American and Alaska Native 
women will be raped at some point during their lives and 86 percent of 
perpetrators of these crimes are non-Native men.
    Amnesty International's report examines some of the reasons why 
Indigenous women in the U.S. are at such risk of sexual violence and 
why survivors are so frequently denied justice. The report is based on 
research carried out during 2005 and 2006 in consultation with Native 
American and Alaska Native individuals and organizations. In the course 
of this research, Amnesty International's interviewed survivors of 
sexual violence and their families, activists, support workers, service 
providers, and health workers. Amnesty International also interviewed 
officials across the U.S., including tribal, state and Federal law 
enforcement officials and prosecutors, as well as tribal judges. 
Amnesty International also met representatives from the Federal 
agencies which share responsibility with tribal authorities for 
addressing or responding to crimes in Indian Country.
    Amnesty International conducted detailed research in three 
locations with different policing and judicial arrangements: the 
Standing Rock Reservation in North and South Dakota, the State of 
Oklahoma, and the State of Alaska. While this report presents a 
national overview of sexual violence against Indigenous women, it 
primarily presents our specific findings in these key areas of 
research.
    Each location was selected for its specific jurisdictional 
characteristics. The Standing Rock Reservation illustrates the 
challenges involved in policing a vast, rural reservation where tribal 
and Federal authorities have jurisdiction. Oklahoma is composed for the 
most part of parcels of tribal lands intersected by state land where 
tribal, state or Federal authorities may have jurisdiction. In Alaska, 
Federal authorities have transferred their jurisdiction to state 
authorities so that only tribal and state authorities have 
jurisdiction.
    This report attempts to represent the stories of survivors of 
sexual violence as many survivors courageously came forward to share 
their stories. For example:

         One Native American woman living on the Standing Rock 
        Reservation told Amnesty that in 2005 her partner raped her and 
        beat her so severely that she had to be hospitalized. An arrest 
        warrant was issued after he failed to appear in court but he 
        was not arrested. One morning she woke up to find him standing 
        by her couch looking at her.

    The perspectives of survivors, as well as the Native women at the 
forefront of efforts to protect Indigenous women must inform all 
actions taken to end sexual violence.
    Amnesty International is indebted to all the survivors of sexual 
violence who courageously came forward to share their stories and to 
those who provided support to survivors before and after they spoke 
with Amnesty International and to the Native American and Alaska Native 
organizations, experts and individuals who provided advice and guidance 
on research methodology and on the report itself. Amnesty International 
hopes that ``Maze of Injustice'' can contribute to and support the work 
of the many Native American and Alaska Native women's organizations and 
activists who have been at the forefront of efforts to protect and 
serve women.
    Amnesty International's research confirmed what Native American and 
Alaska Native advocates have long known: that sexual violence against 
women from Indian nations is at epidemic proportions and that Indian 
women face considerable barriers to accessing justice. Native American 
and Alaska Native women may never get a police response, may never have 
access to a sexual assault forensic examination and, even if they do, 
they may never see their case prosecuted. As a result of barriers, 
including a complex jurisdictional maze and a chronic lack of resources 
for law enforcement and health services, perpetrators of sexual 
violence are not being brought to justice.
High Levels of Sexual Violence
    Amnesty International's interviews suggest that available 
statistics on sexual violence greatly underestimate the severity of the 
problem and fail to paint a comprehensive picture of the abuses. No 
statistics exist specifically on sexual violence in Indian Country or 
Alaska Native villages; more data is urgently needed to establish the 
prevalence of violence against Indigenous women. In the Standing Rock 
Sioux Reservation, for example, many of the women who agreed to be 
interviewed could not think of any Native women within their community 
who had not been subjected to sexual violence.
Issues of Jurisdiction
         Support workers told Amnesty International about the rapes of 
        two Native American women in 2005 in Oklahoma. In both cases 
        the women were raped by three non-Native men. Other 
        similarities between the crimes were reported: the alleged 
        perpetrators, who wore condoms, blindfolded the victims and 
        made them take a bath. Because the women were blindfolded, 
        support workers were concerned that the women would be unable 
        to say whether the rapes took place on Federal, state or tribal 
        land. There was concern that, because of the jurisdictional 
        complexities in Oklahoma, uncertainty about exactly where these 
        crimes took place might affect the ability of these women to 
        obtain justice.

         Interviews with support workers (details withheld), May 2005

    Amnesty International received numerous reports that complicated 
jurisdictional issues can significantly delay and prolong the process 
of investigating and prosecuting crimes of sexual violence.
    Three main factors determine where jurisdictional authority lies: 
whether the victim is a member of a federally recognized Indian tribe 
or not; whether the accused is a member of a federally recognized 
Indian tribe or not; and whether the alleged offense took place on 
tribal land or not. The answers to these questions are often not self-
evident. However, they determine whether a crime should be investigated 
by tribal, Federal or state police, whether it should be prosecuted by 
a tribal prosecutor, a state prosecutor (District Attorney) or a 
Federal prosecutor (U.S. Attorney) and whether it should be tried at 
tribal, state or Federal level. Last, this determination dictates the 
body of law to be applied to the case: tribal, Federal or state.
    The jurisdiction of these different authorities often overlaps, 
resulting in confusion and uncertainty. In many areas there may be dual 
jurisdiction. The end result can sometimes be so confusing that no one 
intervenes, leaving victims without legal protection or redress and 
resulting in impunity for the perpetrators, especially non-Native 
offenders who commit crimes on tribal land.
    As citizens of particular tribal nations, the welfare and safety of 
American Indian and Alaska Native women are directly linked to the 
authority and capacity of their nations to address such violence. A 
series of Federal laws and U.S. Supreme Court decisions over the years 
have increasingly restricted the authority of American Indian and 
Alaska Native Nations to exercise jurisdiction over crimes committed on 
tribal land. The undermining of tribal authority has occurred over time 
and in many ways. However, four laws have had a particularly 
significant impact: the Major Crimes Act, Public Law 280, and the 
Indian Civil Rights Act along with the case law of Oliphant v 
Suquamish.

  <bullet> The Major Crimes Act (1885) granted the Federal authorities 
        jurisdiction over certain serious crimes committed by Indian 
        perpetrators, including rape and murder, committed in Indian 
        Country. There has been a widespread misconception that under 
        the Act only the Federal authorities have the authority to 
        prosecute major crimes. In fact, tribal authorities retain 
        concurrent jurisdiction over perpetrators that are Indian. 
        Nevertheless, the impact of the Act in practice has been that 
        fewer major crimes have been pursued through the tribal justice 
        systems.

  <bullet> State authorities do not generally have the authority to 
        exercise criminal jurisdiction over American Indians/Alaska 
        Natives on tribal land. Public Law 280 (1953), however, 
        transferred Federal criminal jurisdiction over many offenses 
        involving members of federally recognized Indian tribes on 
        designated tribal lands to state governments in some states. 
        The U.S. Congress gave six states--California, Minnesota, 
        Nebraska, Oregon, Wisconsin and Alaska upon statehood--
        extensive criminal and civil jurisdiction over Indian Country. 
        Public Law 280 also permitted additional states-currently 
        exercised in varying degrees by Arizona, Florida, Idaho, Iowa, 
        Montana, Nevada, North Dakota, South Dakota, Utah and 
        Washington--to acquire jurisdiction if they wished, and while a 
        number of states originally opted to do so, currently only 
        Florida exercises full Public Law 280 jurisdiction. Where 
        Public Law 280 is applied, both tribal and state authorities 
        have concurrent jurisdiction over crimes committed on tribal 
        land by American Indians or Alaska Natives. Public Law 280 is 
        seen by many Indigenous peoples as an affront to tribal 
        sovereignty, not least because states have the option to assume 
        and to relinquish jurisdiction, a power not extended to the 
        tribal governments affected. In addition, Congress failed to 
        provide additional funds to Public Law 280 states to support 
        the law enforcement activities they had assumed. The BIA, 
        however, reduced funding to tribal authorities as a result of 
        the shift in jurisdiction. This has led to a situation where 
        tribal and state authorities have not received sufficient funds 
        to assume their respective law enforcement responsibilities, 
        resulting in a perception of ``lawlessness'' in some 
        communities and difficult relations between tribal and state 
        officials.

  <bullet> The Indian Civil Rights Act (1968) limited the criminal 
        sentence which can be imposed by tribal courts for any 
        offence--including murder or rape--to a maximum of 1 year's 
        imprisonment and a U.S. $5,000 fine. No such limits exist for 
        tribal civil jurisdiction. The message sent by this law is 
        that, in practice, tribal justice systems are only equipped to 
        handle less serious crimes. While this limitation on the 
        custodial sentencing powers of tribes (and resource 
        limitations) substantially limits the ability of tribal justice 
        systems to hold offenders accountable, an increasing number of 
        tribal courts are prosecuting sexual assault cases due to the 
        inadequate rate of Federal and state prosecutions of sexual 
        assault cases.

    In 1978, the Supreme Court ruled that tribal courts could not 
exercise criminal jurisdiction over non-Indian U.S. citizens. This 
ruling in the case of Oliphant v. Suquamish effectively strips tribal 
authorities of the power to prosecute crimes committed by non-Indian 
perpetrators on tribal land. This situation is of particular concern 
given the number of reported crimes of sexual violence against American 
Indian women involving non-Indian men. In such situations, either 
Federal or state authorities have the authority to intervene. 
Reportedly, the apparent gap in jurisdiction or enforcement has 
encouraged non-Indian individuals to pursue criminal activities of 
various kinds in Indian Country. Tribal police do have limited powers 
of arrest over non-Indian suspects in some states and they also retain 
the power to detain non-Indian suspects in Indian Country in order to 
transfer them to either Federal or state authorities, but this is not 
generally understood by state or Federal officials.

    Each location Amnesty International selected has specific 
jurisdictional characteristics. Tribal and Federal authorities have 
concurrent jurisdiction on all Standing Rock Reservation lands over 
crimes where the suspected perpetrator is American Indian. In instances 
in which the suspected perpetrator is non-Indian, Federal officials 
have exclusive jurisdiction. Neither North nor South Dakota state 
police have jurisdiction over sexual violence against Native American 
women on the Standing Rock Reservation. State police do however have 
jurisdiction over crimes of sexual violence committed on tribal land in 
instances where the victim and the perpetrator are both non-Indian. 
Amnesty International received reports that perpetrators seek to evade 
law enforcement by fleeing to another jurisdiction. According to a 
state prosecutor in South Dakota, the confusing and complicated 
jurisdiction over crime on and around reservations in South Dakota, 
means that some crimes just ``fall through the cracks.''

         ``[N]on-Native perpetrators often seek out a reservation place 
        because they know they can inflict violence without much 
        happening to them.''

         Andrea Smith, University of Michigan, Assistant Professor of 
        Native Studies

    Amnesty International found that jurisdictional issues in Oklahoma 
are a constant concern since police officers responding to a crime have 
difficulties determining whether or not the land in question is state, 
tribal or Federal. Oklahoma is a geographical patchwork where non-
contiguous parcels of tribal land are often intersected by state land. 
Both Indian and non-Indian people frequently cross between different 
jurisdictions several times a day. One support worker told AI that, in 
responding to an emergency call, arguments over jurisdiction between 
tribal and state police are not always resolved, resulting in 
inadequate investigation and evidence collection.
    In Alaska, the Alaska Rural Justice and Law Enforcement Commission 
(2006) found that ``There is no doubt that reduction in state/tribal 
conflict over jurisdictional issues, and increased cooperation, 
coordination and collaboration between state and tribal courts and 
agencies, would greatly improve life in rural Alaska and better serve 
all Alaskans.''
    Jurisdictional authority has been the subject of considerable 
debate in Alaska. Upon statehood, Alaska was included as one of the 
original states in which Public Law 280 applied, giving the state (in 
place of Federal authorities) concurrent criminal jurisdiction with 
tribes to prosecute crimes committed by and against Alaska Native 
peoples on tribal land throughout much of Alaska. The state of Alaska, 
however, took the position that statehood had extinguished the Alaska 
Native village's criminal law enforcement authority and reportedly 
threatened councils with criminal prosecution ``should they attempt to 
enforce their village laws.''
    The situation in Alaska is further complicated because of issues 
around how tribal lands are designated. A combination of Federal 
legislation and U.S. Supreme Court decisions about the definition and 
status of tribal lands has resulted in considerable confusion and 
debate over jurisdiction within the state. This debate arises from the 
unique way in which Indigenous land claims in Alaska were settled. 
Following the Alaska Native Claims Settlement Act (ANCSA), passed by 
the U.S. Congress in 1971, there has been considerable debate about 
whether the land to which Alaska Native title was recognized qualifies 
as Indian Country. In 1998 the Supreme Court ruled that ANCSA lands 
were not Indian Country. It is important to note that the Court also 
found that ANCSA did not intend to terminate tribal sovereignty, but 
that it left Alaska tribes ``sovereigns without territorial reach.'' 
This issue is important because criminal jurisdiction normally has a 
territorial element.

         ``Federally recognized tribes have a local government presence 
        but have disputed jurisdiction. The state has jurisdiction, but 
        often lacks an effective local government presence. The result 
        is a gap that leaves many villages without effective law 
        enforcement.''

         Initial Report and Recommendations of the Alaska Rural Justice 
        and Law Enforcement Commission (2006).

    While the State has sought to limit the exercise of tribal 
authority and traditional justice methods for keeping the peace in 
villages, it has at the same time failed to provide state law 
enforcement services. The result is that many villages have been left 
without law enforcement protection. It is important to note that it was 
never the intent of the Federal Government for Public Law 280 to 
extinguish tribal jurisdiction over criminal offenses. Furthermore, 
over 200 Alaska Native entities remain federally recognized 
governmental bodies.
    Amnesty International is concerned that jurisdictional issues not 
only cause confusion and uncertainty for survivors of sexual violence, 
but also result in uneven and inconsistent access to justice and 
accountability. This leaves victims without legal protection or redress 
and allows impunity for the perpetrators, especially non-Indian 
offenders who commit crimes on tribal land.
Inter-agency Cooperation

         ``It's only about a mile from town to the bridge. Once they 
        cross the bridge [to the Standing Rock Sioux Reservation], 
        there's not much we can do. We've had people actually stop 
        after they've crossed and laugh at us. We couldn't do 
        anything.''

         Walworth County Sheriff Duane Mohr, The Rapid City Journal, 
        December 21, 2005.

    Some tribal, state and Federal law enforcement agencies address the 
jurisdictional complexities by entering into cooperation agreements. 
These may take the form of cross-deputization agreements, which allow 
law enforcement officials to respond to crimes that would otherwise be 
outside their jurisdiction. A second form of agreement addresses 
extradition in situations in which a perpetrator seeks to escape 
prosecution by fleeing to another jurisdiction. Across the U.S., 
experiences of such inter-agency cooperation agreements vary greatly. 
Where they are entered into on the basis of mutual respect, cooperation 
agreements can have the potential to smooth jurisdictional 
uncertainties and allow improved access to justice for victims of 
sexual violence.
Problems of Policing
    Amnesty International found that police response to sexual violence 
against American Indian and Alaska Native women at all levels is 
inadequate. Although jurisdictional issues present some of the biggest 
problems in law enforcement response, other factors also have a 
significant impact including lack of resources.
Lack of Resources: Delays and Failure to Respond

         In an Alaska Native village in 2005, an Alaska Native man 
        became violent, beating his wife with a shotgun and attempting 
        to fire it at her; he then barricaded himself in a house with 
        four children. As the village had no law enforcement presence, 
        residents called State Troopers 150 miles away. It took the 
        troopers more than 4 hours to reach the village and, in that 
        time period, the man had raped a 13-year-old Alaska Native girl 
        on a bed, with an infant crying beside her, as her 5-year-old 
        brother and 7-year-old cousin watched helplessly.

    Law enforcement in Indian Country and Alaska Native villages is 
chronically underfunded. The U.S. Departments of Justice and Interior 
have both confirmed that there is inadequate law enforcement in Indian 
Country and identified underfunding as a central cause. According to 
the U.S. Department of Justice, tribes only have between 55 and 75 
percent of the law enforcement resources available to comparable non-
Native rural communities. AI also found that a very small number of 
officers usually cover large territories and face difficult decisions 
about how to prioritize their initial responses.
    The Standing Rock Police Department in February 2006 consisted of 
six or seven patrol officers to patrol 2.3 million acres of land, with 
only two officers usually on duty during the day. Amnesty International 
documented lengthy delays in responding to reports of sexual violence 
against Indigenous women. Women on the reservation who report sexual 
violence often have to wait for hours or even days before receiving a 
response from the police department, if they receive a response at all.

         ``It feels as though the reservation has become lawless.''

         Roundtable interview, Standing Rock Reservation (name 
        withheld) February 22, 2006.

    Sometimes suspects are not arrested for weeks or months after an 
arrest warrant has been issued. Amnesty International was told that on 
the Standing Rock Reservation there are on average 600-700 outstanding 
tribal court warrants for arrest of individuals charged with criminal 
offenses. Failure to apprehend suspects in cases of sexual violence can 
put survivors at risk, especially where the alleged perpetrator is an 
acquaintance or intimate partner and there is a threat of retaliation.
    In Alaska the low numbers of officers in rural outposts, combined 
with the vast expanses and the harsh weather, present major barriers to 
prompt responses by police to reports of sexual violence. Law 
enforcement services in Alaska range from the larger, municipal police 
departments found in cities such as Anchorage, to the State Troopers 
(state police officers), who police the outlying rural areas, to 
Village Public Safety Officers (VPSO) and Village Police Officers 
(VPO), which often consist of one or two individuals working in smaller 
villages. Neither VPSOs nor VPOs are ``certified'' by the Alaska Police 
Standard Council because they do not meet training and qualification 
requirements. Over 80 percent of those in Alaska who are not afforded 
trained and certified law enforcement protection are Alaska Native. At 
least one-third of all Alaska Native villages that are not accessible 
by road have no law enforcement presence at all.
    Those living in rural villages that do not have local or city 
police departments may receive law enforcement services from the 
state's 240 State Troopers. In more inaccessible communities, State 
Troopers tend to respond only to more serious crimes. It can take State 
Troopers from 1 day to 6 weeks to respond to crimes including sexual 
violence in villages, if they respond at all. Because of delays in 
response by State Troopers, VPSOs and VPOs are often the first to 
respond to reports of crimes, including crimes of sexual violence. 
VPSOs are relatively few in number and have additional responsibilities 
outside of law enforcement, for example they may act as harbor masters. 
Although they may be the first or only officers to respond, VPSOs 
cannot serve arrest warrants or investigate serious crimes such as rape 
without the approval of State Troopers.

         ``Most [VPOs and VPSOs] are ill-equipped. Many have to use 
        their home for office space as well as a holding facility for 
        detainees, and must walk or run to the scene of a crime because 
        they lack essential transportation such as snow-machines, four-
        wheelers and boats, as well as essential equipment such as rape 
        kits [for evidence collection].''

         Complaint for Declaratory and Injunctive Relief, Alaska Inter-
        Tribal Council, et al., v State, et al, 25th October 1999.

    Amnesty International found that in cases where both tribal and 
Federal authorities have jurisdiction, FBI involvement in 
investigations of reports of sexual violence against Indigenous women 
is rare and even in those cases that are pursued by the FBI, there can 
be lengthy delays before investigations start.
    Amnesty International's research also revealed a worrying lack of 
communication by all levels of law enforcement with survivors. In a 
number of cases, survivors were not informed about the status of 
investigations, the results of sexual assault forensic examinations, 
the arrest or failure to arrest the suspect, or the status of the case 
before tribal, Federal or state courts.
Detention in Indian Country
    Another issue that must be considered is the detention needs in 
Indian Country. The Department of Interior Inspector General found in 
its 2004 report, ``Neither Safe nor Secure'' that there has been a 
failure to provide safe and secure detention facilities throughout 
Indian Country. Funding for detention in Indian Country has been 
inconsistent and inadequate. For example, the Department of Justice 
Office of Justice Programs provided $44 million for incarceration on 
tribal lands in 2002 and only $14 million in 2006.
Training
    AI is concerned that Federal, state and tribal training programs 
for law enforcement officials are not equipping officers to respond 
adequately and appropriately to crimes of rape and other forms of 
sexual violence against Indigenous women. Basic training of law 
enforcement officers varies from agency to agency. For example, an 
officer in the Standing Rock Police Department reported that training 
on interviewing survivors of sexual violence is not available unless it 
is hosted or paid for by another organization. He noted that, given the 
limited number of officers on the force, the Standing Rock Police 
Department cannot provide them all with training opportunities.
    Officers need training on cultural norms and practices to enable 
them to respond appropriately, taking into account differences between 
tribes. This may have implications for how police approach and speak to 
victims, witnesses and suspects, including, for example, greater 
awareness of potential language barriers.
    Training on jurisdiction also appears to be inadequate. For 
example, law enforcement officials in Oklahoma face a jurisdictional 
maze of different tribal, Federal and state areas of authority, yet the 
Council on Law Enforcement Education and Training reportedly provides 
state police officers with almost no training on jurisdiction.
Inadequate Forensic Examinations and Related Health Services
         Every effort should be made to facilitate treatment and 
        evidence collection (if the patient agrees), regardless of 
        whether the decision to report has been made at the time of the 
        exam.''

         U.S. National Protocol for Sexual Assault Forensic 
        Examinations.

    Another factor that Amnesty found significantly impacts law 
enforcement and access to justice is the lack of access to forensic 
exams--critical evidence in a prosecution--often due to the severe 
underfunding of the IHS. If the authorities fail to provide the 
examination, this can jeopardize prosecutions and result in those 
responsible for rape not being brought to justice.
    The examination, which is performed by a health professional, 
involves the collection of physical evidence and an examination of any 
injuries. Samples collected in the evidence kit include vaginal, anal 
and oral swabs, finger-nail clippings, clothing and hair. Reports to AI 
indicate that many IHS facilities lack personnel to provide 
examinations, haven't prioritized development of sexual assault nurse 
examiner programs and lack protocols for treating victims of sexual 
violence.
    A 2005 survey conducted by the Native American Women's Health 
Education Resource Center found that 44 percent of Indian Health 
Service facilities lacked personnel trained to provide emergency 
services in the event of sexual violence. More specifically, there is 
generally a severe lack of available Sexual Assault Nurse Examiners 
(SANEs), registered nurses with advanced education and clinical 
preparation in forensic examination of victims of sexual violence. 
Amnesty International understands that there may be challenges to fully 
staffing all facilities with SANE personnel, but we are concerned that 
the IHS has not prioritized the implementation of SANE programs 
throughout its facilities.
    Amnesty International is also concerned that IHS facilities lack 
clear and standardized protocols for treating victims of sexual 
violence. A 2005 survey conducted by the Native American Women's Health 
Education Resource Center of IHS facilities found that 30 percent of 
responding facilities did not have a protocol in place for emergency 
services in cases of sexual violence. The standardized protocols are 
essential to help ensure adequate treatment of women who have suffered 
sexual assault. The National Congress of American Indians (NCAI) is the 
oldest and largest national organization of American Indian and Alaska 
Native tribal governments passed a resolution in 2005 that the NCAI 
``will urge the adoption and implementation of [a] national policy and 
protocols on rape and sexual assault within the Indian Health Service 
Unit emergency rooms and Contract Health Care facilities/providers.''
    The person who carries out the sexual assault forensic examination 
may later be called upon to testify in court during a prosecution. A 
high turnover of staff, many of whom are on short-term contracts, means 
that it may be difficult to locate the person who performed the 
examination when they are needed to provide testimony. Furthermore, 
Amnesty International understands that Federal, tribal and state 
prosecutors face significant challenges in ensuring that the IHS 
personnel who were responsible for the collection of the forensic 
evidence testify in court. Amnesty International strongly encourages 
efforts to eliminate bureaucratic obstacles and facilitate 
participation by local personnel so that valuable evidence of sexual 
assault can be submitted successfully in court.

         Jami Rozell, a Cherokee woman living in Tahlequah, Oklahoma, 
        told AI that she decided to seek prosecution 5 months after she 
        was raped in 2003. She attended a preliminary hearing, but her 
        sexual assault forensic examination--which had been performed 
        immediately after the rape and included the sexual assault 
        nurse examiner's report, photographs, and the clothing she had 
        been wearing--had been destroyed. She was told by the police 
        department that as she had not pressed charges at the time, the 
        evidence had been destroyed as a routine part of cleaning their 
        evidence storage room. Because the evidence had been destroyed, 
        the District Attorney advised her to drop the complaint.

    Furthermore, as the first to respond to reports of sexual assault, 
law enforcement officials have a critical role to play in ensuring that 
women can get to a hospital or clinic where their injuries can be 
assessed and the forensic examination can be done. This is particularly 
important where women have to travel long distances to access a medical 
facility and may not have any way of getting there themselves. AI 
received reports of confusion and disagreements over who should pay for 
examinations or transport costs--the IHS, other medical providers, law 
enforcement agencies or the survivors themselves. Amnesty International 
believes that costs relating to sexual assault forensic examinations 
should be the responsibility of law enforcement agencies since the 
evidence gathered is an essential part of an investigation into a 
report of sexual violence. In any event, survivors should not have to 
pay the costs themselves.
    It is important to ensure that evidence collected during a forensic 
examination is processed. On or about June of 2000, the FBI partnered 
with the State of Arizona Laboratory to process evidence from Indian 
Country crimes, by allocating $450,000 a year to the State laboratory. 
This program was the result of a realization that crimes in Indian 
Country needed timely evidence processing, and the FBI lab was 
overwhelmed. Support from the State lab was a logical and cost 
effective answer.
    Amnesty International recently received a report from a tribal law 
enforcement officer/Director of Public Safety for the Tohono O'odham 
Nation that, in October of 2005 the FBI discontinued this vital 
program. The result is a delay and on occasion dismissal of cases 
because of the lack of evidence analysis, this is particularly critical 
in sexual assault crimes. This has severely impacted Tribal Police's 
ability to ensure the processing of forensic examination in cases of 
rape and sexual assault.
    All survivors of sexual violence should be offered a forensic 
examination, without charge, regardless of whether or not they have 
decided to report the case to the police. Indigenous women in the USA 
are being effectively denied access to these examinations either 
because there is no facility nearby equipped to carry them out, the 
facility is understaffed by individuals trained in the forensic exams 
or because staff are not adequately trained on how to respond to 
survivors of sexual violence and how to do so in a culturally 
appropriate manner.
Prosecutions
         ``In Oklahoma, prosecution of sexual assault is last, least 
        and left behind.''

         Jennifer McLaughlin, Sexual Assault Specialist, Oklahoma 
        Coalition Against Domestic Violence and Sexual Assault, 
        September 2005.

         ``To a sexual predator, the failure to prosecute sex crimes 
        against American Indian women is an invitation to prey with 
        impunity.''

         Dr. David Lisak, Associate Professor of Psychology, University 
        of Massachusetts, 29 September 2003.

    A key contributory factor identified in AI's research for the 
continuing high levels of violence is that all too often those 
responsible are able to get away with it. Survivors of sexual abuse, 
activists, support workers and officials told AI that prosecutions for 
crimes of sexual violence against Indigenous women are rare in Federal, 
state and tribal courts. For example, a health official responsible for 
carrying out sexual assault forensic examinations reported that in 
about 90 percent of cases, she is not contacted again by police or 
prosecutors about examinations she has performed, although she is 
available as an expert witness for trials.
    Sexual violence against Native American or Alaska Native women can 
be prosecuted by tribal, Federal or state authorities, or a combination 
of these. The U.S. Federal Government has created a complex 
interrelation between these three jurisdictions that often allows 
perpetrators to evade justice.
    The perpetrator of sexual violence is the person liable under 
criminal law for this act and should be brought to justice. However, 
the state also bears a responsibility if it fails to prevent or 
investigate and address the crime appropriately. U.S. authorities are 
failing to exercise due diligence when it comes to sexual violence 
against Native American and Alaska Native women.
Tribal Courts
    Tribal courts vary greatly both in the statutes and criminal codes 
which they enforce and their procedures. A common factor, however, is 
that they face a number of limitations imposed at Federal level that 
interfere with their ability to provide justice for Native American and 
Alaska Native survivors of sexual violence. For example, Federal law 
prevents tribal courts from prosecuting non-Indian or non-Alaska Native 
offenders or imposing a custodial sentence of more than 1 year for each 
offense.
    Federal funding of tribal courts is inadequate. The U.S. Commission 
on Civil Rights stated in 2003 that tribal courts have been under 
funded for decades. Inadequate funding by the Federal authorities 
affects many aspects of the functioning of tribal courts, including the 
ability to proceed with prosecutions promptly. Nevertheless, 
prosecutions for sexual violence do occur in tribal courts and some 
courts are able to overcome limitations on the sentences they can hand 
down by imposing consecutive sentences for several offenses. Some 
tribal courts also work with sanctions other than imprisonment, 
including restitution, community service and probation.
    Tribal prosecutors sometimes decline to prosecute crimes of sexual 
violence because they expect that Federal prosecutors will do so. 
Although some tribal prosecutors may choose to take up a case if it is 
declined for Federal prosecution, as often happens, this can result in 
delays of up to a year and sometimes even longer. Often the net result 
is that perpetrators are not prosecuted at either level.
Federal Courts
    There is a failure at Federal level to pursue cases of sexual 
violence against Indigenous women. The extent to which cases involving 
American Indian women are dropped before they even reach a Federal 
court is difficult to quantify as the U.S. Attorney's Office does not 
compile such statistics. However, the evidence gathered by AI suggests 
that in a considerable number of instances the authorities decide not 
to prosecute reported cases of sexual violence against Native women.
    Federal prosecutors have broad discretion in deciding which cases 
to prosecute, and decisions not to prosecute are rarely reviewed. AI is 
concerned that the difficulties involved in prosecuting rape cases, 
combined with the particular jurisdictional and practical challenges of 
pursuing cases where the crime took place on tribal land, can deter 
Federal prosecutors from taking the case. When Federal prosecutors 
decline to prosecute cases involving non-Native perpetrators, there is 
no further recourse for Indigenous survivors under criminal law within 
the USA.
State Courts
    In some states, such as Alaska, state rather than Federal 
prosecutors have jurisdiction. However, the same pattern of failing to 
pursue cases of sexual violence against Indigenous women emerged. 
Health workers in Alaska told AI that there is no prosecution in 
approximately 90 percent of cases where Indigenous women undergo a 
sexual assault forensic examination in Anchorage.
    In addition, Native American and Alaska Native survivors of sexual 
violence often face prejudice and discrimination at all stages and 
levels of Federal and state prosecution.

         Amnesty International learned of the case of a Native American 
        woman who in 2003 accepted a ride home from two white men who 
        raped and beat her and then threw her off a bridge. A support 
        worker for victims of sexual violence described how, ``People 
        said she was asking for it because she was hitchhiking late at 
        night.'' The case went to trial in a state court, but the 
        jurors were unable to agree on whether the suspects were 
        guilty. A juror who was asked why replied: ``She was just 
        another drunk Indian.'' Because the jury failed to reach a 
        verdict, the case was retried. The second trial resulted in 
        custodial sentence for both perpetrators.

Communicating With Survivors
    Amnesty International received a number of reports that prosecutors 
at all levels fail to provide information consistently to Indigenous 
victims of sexual violence about the progress of their cases. Survivors 
are frequently not informed whether their cases will proceed to trial 
or not.

         ``One [Native American] woman I work with told me that she 
        reported her sexual assault 2 years ago and that she didn't 
        know if the case had been investigated or prosecuted. I 
        researched the case and discovered it had been declined [for 
        prosecution], but no one had told the woman.''

         Support worker for Native American survivors of sexual 
        violence (identity withheld), January 2006.

Inadequate Resources for Indigenous Support Initiatives
    Programs run by Native American and Alaska Native women are vital 
in ensuring the protection and long-term support of Indigenous women 
who have experienced sexual violence. However, lack of funding is a 
widespread problem. Programs run by Indigenous women often operate with 
a mix of Federal, state, and tribal funds, as well as private 
donations. However such funding in often limited.
    In 2005, the non-governmental organization South Dakota Coalition 
against Domestic Violence and Sexual Assault contributed to the 
founding of Pretty Bird Woman House, a domestic violence program on the 
Standing Rock Reservation. The program, which is named after Ivy 
Archambault (Pretty Bird Woman), a Standing Rock woman who was raped 
and murdered in 2001, operates a shelter in a temporary location and at 
the time of Amnesty International's report in April 2007 did not have 
funding for direct services for its clients, but helps women to access 
services off the Reservation. Given the rates of violence against women 
on the Standing Rock Reservation, it is imperative that the Reservation 
have its own permanent shelter.
International Law
    Sexual violence against women is not only a criminal or social 
issue; it is a human rights abuse. While the perpetrator is ultimately 
responsible for his crime, authorities also bear a legal responsibility 
to ensure protection of the rights and well-being of American Indian 
and Alaska Native peoples. They are responsible as well if they fail to 
prevent, investigate and address the crime appropriately.
    The United States has ratified many of the key international human 
rights treaties that guarantee Indigenous women's protection against 
such abuses, including the right not to be tortured or ill-treated; the 
right to liberty and security of the person; and the right to the 
highest attainable standard of physical and mental health. The United 
States should ratify the Treaty for the Rights of Women (CEDAW) which 
can help end discrimination and violence against women worldwide. The 
next steps Congress takes must be determined in close consultation and 
cooperation with Indigenous leaders. All women have the right to be 
safe and free from violence.
    International law is clear: governments are obliged not only to 
ensure that their own officials comply with human rights standards, but 
also to adopt effective measures to guard against acts by private 
individuals that result in human rights abuses. This duty-often termed 
``due diligence''--means that states must take reasonable steps to 
prevent human rights violations and, when they occur, use the means at 
their disposal to carry out effective investigations, identify and 
bring to justice those responsible, and ensure that the victim receives 
adequate reparation. Amnesty International's research shows that the 
United States is currently failing to act with due diligence to 
prevent, investigate and punish sexual violence against Native American 
and Alaska Native women. The erosion of tribal governmental authority 
and resources to protect Indigenous women from crimes of sexual 
violence is inconsistent with international standards on the rights of 
Indigenous peoples.
    The U.N. Declaration on the Rights of Indigenous Peoples, adopted 
by the U.N. Human Rights Council in June 2006, elaborates minimum 
standards for the recognition and protection of the rights of 
Indigenous peoples in diverse contexts around the world. Provisions of 
the Declaration include that Indigenous peoples have the right of self 
determination. By virtue of that right they freely determine their 
political status and freely pursue their economic, social and cultural 
development (Article 3); that States shall take measures, in 
conjunction with indigenous peoples, to ensure that indigenous women. 
enjoy the full protection and guarantees against all forms of violence 
and discrimination. (Article 22(2)); and the right of Indigenous 
peoples ``to promote, develop and maintain their institutional 
structures and their distinctive customs, spirituality, traditions, 
procedures, practices and, where they exist, juridical systems or 
customs, in accordance with international human rights standards'' 
(Article 34).

Key Recommendations
    Amnesty International wants to highlight that on September 13th, 
2007 the U.N. General Assembly adopted the U.N. Declaration on the 
Rights of Indigenous Peoples which calls on states to ``consult and 
cooperate in good faith with the indigenous peoples concerned through 
their own representative institutions in order to obtain their free, 
prior and informed consent before adopting and implementing legislative 
or administrative measures that may affect them.'' (Article 19)
    We respectfully refer you to ``Maze of Injustice: The failure to 
protect Indigenous women from sexual violence in the USA'' for more 
detailed information and recommendations, briefly however the following 
steps need to be taken:

Develop Comprehensive Plans of Action to Stop Violence Against 
        Indigenous Women
  <bullet> Federal and state governments should consult and cooperate 
        with Indigenous nations and Indigenous women to institute plans 
        of action to stop violence against Indigenous women.

         For instance, the Safety for Indian Women Demonstration 
        Initiative is an effort by the U.S. Department of Justice 
        Office on Violence Against Women (OVW) to enhance the response 
        of tribal and Federal agencies to the high rates of sexual 
        assault committed against Native American women. Under the 
        initiative, OVW awarded over $900,000 to four tribes to achieve 
        such goals as: enhance the response of tribal and Federal 
        agencies to sexual assault of Native American women; build upon 
        an existing coordinated community response to sexual assault of 
        Native American women; strengthen the capacity of tribal 
        justice systems to respond to sexual assault of Native American 
        women; enhance and increase advocacy and services for Native 
        American victims of sexual assault; strengthen coordination 
        between tribal and Federal agencies responding to crimes of 
        sexual assault against Native American women; and expand 
        current responses to crimes of sexual assault against Native 
        American women. Adequate and consistent funding should be 
        provided for such initiatives. At present, AI has been unable 
        to establish whether or not this initiative continues to be 
        funded.

  <bullet> Federal, state and tribal authorities should, in 
        consultation with Indigenous peoples, collect and publish 
        detailed and comprehensive data on rape and other sexual 
        violence that shows the Indigenous or other status of victims 
        and perpetrators and the localities where such offenses take 
        place, the number of cases referred for prosecution, the number 
        declined by prosecutors and the reasons why.

Ensure Appropriate, Effective Policing
  <bullet> Congress and Federal authorities must take urgent steps to 
        make available adequate resources to police forces in Indian 
        and Alaska Native villages. Particular attention should be paid 
        to improving coverage in rural areas with poor transport and 
        communications infrastructure.

  <bullet> All law enforcement officials should respond promptly to 
        reports of sexual violence, take effective steps to protect 
        survivors from further abuse, and undertake thorough 
        investigations.

  <bullet> Law enforcement agencies should recognize in policy and 
        practice that all police officers have the authority to take 
        action in response to reports of sexual violence, including 
        rape, within their jurisdiction and to apprehend the alleged 
        perpetrators in order to transfer them to the appropriate 
        authorities for investigation and prosecution. In particular, 
        where sexual violence in committed in Indian Country and in 
        Alaska Native villages, tribal law enforcement officials must 
        be recognized as having authority to apprehend both Native and 
        non-Native suspects.

  <bullet> All law enforcement agencies should cooperate with, and 
        expect cooperation from, neighboring law enforcement bodies on 
        the basis of mutual respect and genuine collaboration to ensure 
        protection of survivors and those at risk of sexual violence, 
        including rape, and to ensure that perpetrators are brought to 
        justice. These may take the form of:

        -- Cross-deputization agreements, which allow law enforcement 
        officials to respond to crimes that would otherwise be outside 
        their jurisdiction. In addition authorities.

        -- Extradition agreements address situations in which a 
        perpetrator seeks to escape prosecution by fleeing to another 
        jurisdiction. Tribal and state authorities may enter into 
        extradition agreements, in which each agrees to allow the other 
        to return fleeing perpetrators to the jurisdiction of the 
        crime.

  <bullet> In states where criminal jurisdiction on tribal land has 
        been transferred from Federal to state authorities (including 
        Public Law 280 states), Congress should ensure that tribal 
        governments, like state governments, have the option to 
        transfer jurisdiction back from the state to the Federal 
        authorities.

  <bullet> In order to fulfil their responsibilities effectively, all 
        police forces should work closely with Indigenous women's 
        organizations to develop and implement appropriate 
        investigation protocols for dealing with cases of sexual 
        violence.

Ensure Access to Sexual Assault Forensic Examinations
  <bullet> Law enforcement agencies and health service providers should 
        ensure that all Indigenous women survivors of sexual violence 
        have access to adequate and timely sexual assault forensic 
        examinations without charge to the survivor and at a facility 
        within a reasonable distance.

  <bullet> Congress and the Federal Government should permanently 
        increase funding for the Indian Health Service to improve and 
        further develop facilities and services, and increase permanent 
        staffing in both urban and rural areas in order ensure adequate 
        levels of medical attention.

  <bullet> The Indian Health Service and other health service providers 
        should develop standardized policies and protocols, which are 
        made publicly available and posted within health facilities in 
        view of the public, on responding to reports of sexual 
        violence.

  <bullet> The Indian Health Service and other health service providers 
        should prioritize the creation of sexual assault nurse examiner 
        programs and explore other ways of addressing the shortage and 
        retention of qualified Sexual Assault Nurse Examiners.

  <bullet> The Indian Health Service and other health service providers 
        should facilitate the availability at trial of forensic 
        evidence of sexual assault by eliminating bureaucratic 
        obstacles and encouraging participation of appropriate medical 
        personnel.

    Law enforcement agencies in Indian Country should receive 
sufficient funding to ensure the timely processing of evidence 
collected from sexual assault forensic examinations.

Ensure That Prosecution and Judicial Practices Deliver Justice

  <bullet> Congress should recognize the concurrent jurisdiction of 
        tribal courts (meaning that tribal courts, and/or the state or 
        Federal courts, could try suspects) regardless of the 
        Indigenous or other identity of the accused.

  <bullet> Congress should amend the Indian Civil Rights Act to 
        recognize the authority of tribal courts to impose penalties 
        proportionate to the offences they try.

  <bullet> Prosecutors should vigorously prosecute cases of sexual 
        violence against Indigenous women and should be sufficiently 
        resourced to ensure that the cases are treated with the 
        appropriate priority and processes without undue delay. Any 
        decision not to proceed with a case, together with the 
        rationale for the decision, should be promptly communicated to 
        the survivor of sexual violence and any other prosecutor with 
        jurisdiction.

  <bullet> All U.S. Attorneys should begin immediately to collect and 
        publish publicly data on the number of cases of sexual violence 
        of Native American and Alaska Native women referred for Federal 
        prosecution, the number declined and reasons for decline.

  <bullet> Congress should recognize that tribal authorities have 
        jurisdiction over all offenders who commit crimes on tribal 
        land, regardless of their Indigenous or other identity and the 
        authority to impose sentences commensurate with the crime that 
        are consistent with international human rights standards.

  <bullet> Congress and Federal authorities should make available the 
        necessary funding and resources to tribal governments to 
        develop and maintain tribal courts and legal systems which 
        comply with international human rights standards, while also 
        reflecting the cultural and social norms of their peoples.

Ensure Availability of Support Services for Survivors

  <bullet> All governments should support and ensure adequate funding 
        for support services, including shelters, for American Indian 
        and Alaska Native survivors of sexual violence.

Additional Recommendations

  <bullet> Congress should fully fund and implement the Violence 
        Against Women Act--and in particular Tribal Title (Title IX), 
        the first-ever effort within VAWA to fight violence against 
        Native American and Alaska Native women. This includes a 
        national baseline study on sexual violence against Native 
        women, a study on the incidence of injury from sexual violence 
        against Native women and a Tribal Registry to track sex 
        offenders and orders of protection.

  <bullet> The Senate should ratify the Treaty for the Rights of Women, 
        officially the Convention on the Elimination of All Forms of 
        Discrimination Against Women (CEDAW). Although the United 
        States played a key role in drafting this treaty, it remains 
        one of eight countries yet to ratify. This treaty can help end 
        discrimination and violence against women worldwide.

  <bullet> The next steps Congress takes must be determined in close 
        consultation and cooperation with Indigenous leaders.

    Thank you for the opportunity to testify on this important human 
rights topic.

    The Chairman. Ms. Arriaga, thank you very much for being 
here, and thank you for the work that Amnesty International has 
done.
    Next we will hear from Ms. Jami Rozell, who is an educator 
from Oklahoma. Ms. Rozell.

 STATEMENT OF JAMI ROZELL, EDUCATOR, CHEROKEE NATION, OKLAHOMA

    Ms. Rozell. Mr. Chairman and members of the Committee, 
thank you for inviting me to testify today. I would like to 
submit my full testimony for the record.
    My name is Jami Rozell, and I am a member of the Cherokee 
Nation and a school teacher from Oklahoma. I will always 
remember the date, Friday, May 9th, 2003, I was 21 years old in 
my home town of Tahlequah, Oklahoma and raped by a non-Native 
man I have known since junior high. I was accompanied that same 
night to the Indian Health Services hospital at Hastings by my 
brother, who called the city police. The Hastings hospital was 
not equipped to do rape exams, so we were taken then to the 
Tahlequah City Hospital next door.
    At the city hospital, we waited a couple of hours for the 
sexual assault nurse examiner to arrive. The hospital had 
called an advocate from the local sexual assault service 
provider, Help in Crisis, to be there with me during the exam. 
The nurse finally arrived and so did the rest of my family. I 
know that I was fortunate to have my family and an advocate 
with me at this difficult and scary time. This is not the case 
for all Native American women going through an exam or police 
questioning.
    It was horribly uncomfortable to have a camera inside of 
me, and I was grateful to have my family with me at the 
hospital. The nurse took photos of all the bruises, blisters 
and abrasions inside of me and kept my underwear as evidence. 
My mom asked the nurse if she could clearly tell that I had 
been raped, and she told my mom that I had definitely been 
raped. I bled for the next 3 days.
    At the hospital, there had been a detective, a man that I 
had known my entire life, through my family. He told me that I 
had up to 7 years to decide if I wanted to press charges, 
because the city police had their own full police report, the 
nurse's exam with photos and all the evidence. The detective 
told my dad that if his own daughter had been raped, he 
wouldn't press charges. The detective said that he would just 
deal with it and move on because it wouldn't get anywhere. The 
detective told me to think about it.
    Soon after, I rejected a meeting that our church attempted 
between me and the man who raped me and grew depressed. I was 
also scared that this man would stalk me around town in an 
attempt to intimidate me. My dad spoke with a friend of the 
family who is still a defense attorney in town, and he told my 
dad not to go through with pressing charges. The attorney said 
that I had already been raped once and the State court system 
would just rape me again.
    With everyone I respected and trusted telling me not to 
press charges, I decided to wait. By October, 5 months had 
passed and I was no longer feeling scared. I decided to move 
ahead with the charges in March 2004. I was subpoenaed to State 
court for the preliminary hearing. I was the one that had to 
sit up on the witness stand for two and a half hours, while the 
defense attorney questioned me and my character. It was me up 
there on the stand and not the man who raped me. That was yet 
again another horrible ordeal in this whole experience. It was 
a courtroom full of my family and his, and once again, a bunch 
of people from my town that I had known my whole life, and I 
was the one made to feel ashamed.
    During the trial I had to sit, and we had to make sure that 
it was on State land, we had to determine for a fact that it 
was State land and not tribal land, because in Oklahoma there 
is no reservation. So you could be, one side of the street is 
State land and the other side is tribal land, so the 
jurisdiction was an issue that we had to determine before the 
case could even begin.
    A few weeks after the preliminary hearing I was contacted 
for a meeting with the district attorney's office. They told me 
that in a routine State police cleanup, all of my evidence had 
been destroyed, so it was now a he said/she said case, and they 
were advising me to drop the charges. I asked them what 
happened, since they told me that I had up to 7 years to change 
my mind. The district attorney said that because I had 
initially decided not to press charges, everything had been 
destroyed.
    I have not been able to stand up for myself until now. 
Amnesty International has given me support and the opportunity 
to speak up, not only for myself but also in some way for many 
Native American sexual assault survivors who cannot be here 
today to share their stories. There are many discriminatory and 
jurisdictional barriers to effective law enforcement response, 
getting rape kits and prosecution in Oklahoma. My story is just 
one of many.
    I urge you to learn more about stopping sexual assault 
against Native American women. Thank you.
    [The prepared statement of Ms. Rozell follows:]

 Prepared Statement of Jami Rozell, Educator, Cherokee Nation, Oklahoma

    Mr. Chairman and members of the Committee, thank you for inviting 
me to testify today. I would like to submit my full testimony for the 
record.
    My name is Jami Rozell and I am a Cherokee school teacher from 
Oklahoma.
    I will always remember the date, Friday May 9th, 2003. I was 
twenty-one years old, in my hometown of Tahlequah Oklahoma and raped by 
a non Native man I had known since junior high.
    I was accompanied that same night to the Indian Health Service 
hospital in Hastings, Oklahoma by my brother, who had called the city 
police. The Hastings hospital was not equipped to do rape exams, so we 
were then taken to the Tahlequah City hospital next door.
    At the Tahlequah City hospital we waited a couple of hours for the 
Sexual Assault Nurse Examiner to arrive. The hospital had called an 
advocate from the local sexual assault service provider, Help-In-
Crisis, to be there with me during the exam. The nurse finally arrived 
and so did the rest of my family. I know that I was fortunate to have 
my family and an advocate with me at this difficult and scary time. 
This is not the case for all Native American women going through an 
exam or police questioning. It was horribly uncomfortable to have a 
camera inside of me and I was grateful to have my family with me at the 
hospital. The nurse took photos of all the bruises, blisters and 
abrasions inside of me and kept my underwear as evidence. My mom asked 
the nurse if she could clearly tell that I had been raped and she told 
my mom I had definitely been raped. I bled for the next 3 days.
    At the hospital, there had been a detective, a man that I had known 
my entire life through my family. He told me that I had up to 7 years 
to decide if I wanted to press charges because the city police had 
their own full police report, the nurse's exam with the photos and all 
the evidence. The detective told my dad that if his own daughter had 
been raped, he wouldn't press charges. The detective said that he would 
just deal with it and move on because it wouldn't get anywhere. The 
detective told me to think about it.
    Soon after, I rejected a meeting that our church attempted between 
me and the man who raped me and grew depressed. I was also scared, as 
this man would stalk me around town in an attempt to intimidate.
    My dad spoke with a friend of the family who is still a defense 
attorney in town and he told my dad not to go through with pressing 
charges. The attorney said that I had already been raped once and that 
the state court system would just rape me again.
    With everyone I respected and trusted telling me not to press 
charges, I decided to wait.
    By October, 5 months had passed and I was no longer feeling scared 
. I decided to move ahead with the charges. In March 2004, I was 
subpoenaed to state court for the preliminary hearing. I was the one 
that had to sit up on the witness stand for two and a half hours while 
the defense attorney questioned me and my character. It was me up there 
on the stand and not the man who raped me. That was yet again another 
horrible ordeal in this whole experience. It was a courtroom full of my 
family and his, and once again a bunch of people from town I had known 
my whole life. I was made to feel ashamed.
    A few weeks after the preliminary hearing, I was contacted for a 
meeting at the District Attorney's office. They told me that in a 
routine state police clean-up, all of my evidence had been destroyed so 
it was now a he-said, she-said case and they were advising me to drop 
the charges. I asked them what had happened since they told me that I 
had up to 7 years to change my mind. The District Attorney said that 
because I had initially decided not to press charges, everything had 
been destroyed.
    I have not been able to stand up for myself-until now. Amnesty 
International has given me support and the opportunity to speak up not 
only for myself but also in some way for many Native American sexual 
assault survivors, who can not be here today to share their stories. 
There are many discriminatory and jurisdictional barriers to effective 
law enforcement response, getting rape kits and prosecution in 
Oklahoma. My story is just one of many. I urge you to learn more about 
stopping sexual assault against Native American women.
    Thank you.

    The Chairman. Ms. Rozell, thank you very much. That is not 
easy testimony to offer, but our Committee deeply appreciates 
your being here and participating in this important discussion 
about a very serious issue.
    Next we will hear from Ms. Tammy Young, Co-Director of the 
Alaska Native Women's Coalition Against Domestic Violence and 
Sexual Assault. Ms. Young, thank you. You have traveled a long 
way and we very much appreciate your being here.
    Senator Murkowski, would you like to say a word about Ms. 
Young?
    Senator Murkowski. I would join in the welcome of Ms. 
Young, and note that when it comes to community advocates that 
are making a difference, we are very proud of the efforts that 
Tammy has made in her community and working with so many of the 
women and families that have been afflicted with some very 
horrible incidents in their lives. I appreciate all that you 
do, Tammy. Thank you, and we are glad that you are here.
    The Chairman. Ms. Young, you may proceed.

 STATEMENT OF TAMMY M. YOUNG, DIRECTOR, ALASKA NATIVE WOMEN'S 
                           COALITION

    Ms. Young. Thank you. I am very happy to be here this 
morning. Thank you for inviting me.
    I have submitted written testimony and I just would like to 
summarize for you. I work with the Alaska Native Women's 
Coalition. We came into existence in 2001. Since we have been 
in existence, we have been gathering many Alaska Native people 
and service providers all across the State of Alaska. We have 
had the good fortune to take part in some of the studies that 
have taken place in Alaska, one of them being the Rural Justice 
and Law Enforcement Commission, then later taking part in the 
Domestic Violence Summit that was held in Anchorage.
    Through many of these meetings we have been able to have 
the dialogue to get to what is important to us, those of us 
that live in the very small, rural communities. We have had the 
good fortune of working with the Alaska Naive Justice Center, 
and Tribal Law and Policy Institute in Anchorage to reach into 
some of those areas of concern for us. We have looked at how 
forensic evidence is gathered, both in hub communities and some 
of the attempts in village communities.
    We would offer as a suggestion to the Committee that there 
is technology available to us now on a more far-reaching range 
than previously the tele-medicine project. In some communities, 
they are using this for mental health concerns. When you have a 
women or a child that is affected by sexual violence, these are 
long-term medical issues. So we are very interested in seeking 
solutions that address not only the immediate concern, the 
medical concerns such as emergency contraceptives, screening 
for sexually transmitted diseases, but we are also interested 
in seeking solutions for the long-term health care that is 
needed.
    We also feel that this would be an avenue that we could 
help our men, possibly through the Batterers Reeducation 
Program. Many people in small communities don't have access to 
the Batterers Reeducation. In our view, in our customary and 
traditional ways, we are hoping that all of our family members 
will have the opportunity to be provided services. This is what 
in some ways sets us apart from non-Native agencies or non-
Native communities.
    We are not necessarily seeking that our tribal members be 
cast off into jail or places like that, although there are some 
tribes that are seeking banishment as an option. What we are 
hoping for is healing, because we believe that domestic 
violence and sexual assault came into our communities as an 
effective of colonization and oppression.
    When you look at our very small communities, they are still 
very dependent on subsistence. It is very much a part of our 
lifestyle to gather and be close to the earth. But we also are 
faced with the challenges of not being able to receive the 
transportation needed to go in for exams. Oftentimes the 
weather will keep law enforcement from responding to very 
critical situations. As part of our testimony, we did submit 
all of the newspaper articles for the last several years that 
document who our perpetrators are. In many instances they are 
the very people that we are told to call upon for help.
    Not too long ago, a young woman was shot in the back of her 
head up in the Nome area. It later turned out that she was shot 
by an Alaska State trooper. Many of our women are dependent 
upon their very small community response that could happen. 
Sometimes this does involve going to clergy. And if you review 
these articles, you will see that in many situations clergy 
have been a part of the problem as well.
    The Alaska Native Women's Coalition has been trying to meet 
with tribal leaders to discuss further options. Many times they 
are suggesting to us that not only law enforcement, to be able 
to come out, but also they are talking about solutions through 
tribal court. In our small villages, tribal court sometimes 
consists of our tribal councils. In other situations, it is 
just a small body of elders.
    So these are some of the areas that we are looking to for 
solutions. Thank you.
    [The prepared statement of Ms. Young follows:]

 Prepared Statement of Tammy M. Young, Director, Alaska Native Women's 
                               Coalition

    On behalf of Alaska Native Women and children that are in need of 
safety, we would like to thank you for your leadership in the 
reauthorization of the Violence Against Women Act (VAWA). We believe 
that it is imperative that the implementation of VAWA is achieved 
specifically, we seek your full support and advocacy for the Tribal 
Title IX--Safety for Indian Women.
    The Alaska Native Women's Coalition (ANWC) is a statewide non-
profit grassroots coalition whose goal is to provide a unified voice 
for Alaskan Natives against domestic violence, sexual assault and 
stalking. Our membership is comprised of Alaska Native women who are 
both survivors of violence and advocates for safety from such violence. 
The coalition members include men and women from around the state in 
rural communities--we are first responders, health care workers, tribal 
chiefs and administrators, shelter workers, and other concerned 
community members. ANWC provides direct victim services, court 
advocacy, shelter services, and training for tribal specific issues, 
among other things. Over the last several years the Alaska Native 
Women's Coalition has worked to increase the safety of Alaska Native 
women through gatherings on the regional and statewide level, including 
local resources and state resources to dialog potential solutions and 
enhance current systemic responses.
    The danger Alaska Native women face is disproportionately higher 
than any other population in the United States.

                                  STATISTICS

  <bullet> Alaska reported 83.5 rapes per 100,000 females compared to a 
        U.S. average of 31.7 rapes per 100,000.

  <bullet> Reported cases of domestic violence in Anchorage alone 
        increased by 120 percent.

  <bullet> Alaska Natives make up 8 percent of the total population of 
        Anchorage yet the percentage of Alaska Native victims was 24 
        percent.

  <bullet> Alaska has one of the highest per capita rates of physical 
        and sexual abuse in the Nation.

  <bullet> In an informal poll taken in one of the off road 
        communities, 100 percent of the women there are or have been a 
        victim of domestic violence, sexual assault, or stalking.

    The underlying issues for this rate of victimization are extremely 
complex. In light of this we greatly appreciate your concern for and 
support of Alaska Native Women.
    The VAWA 1994 and 2000 recognized the importance of addressing the 
unique circumstances of Native women. This historic legislation has not 
only saved lives but has restored hope for hundreds of our Sisters 
seeking safety from perpetrators of domestic violence, sexual assault, 
and stalking. Unfortunately, we also must face the reality that many 
women lost their lives to such violence over the last several years. 
The 2005 VAWA legislation contained specific sections addressing the 
safety of American Indian and Alaska Native women primarily providing a 
tribal set aside. The Tribal Title addresses specific issues impacting 
the safety of Native women. Each component represents an essential step 
forward in enhancing the safety of American Indian and Alaska Native 
Women.

         In reviewing the Bureau of Justice Statistics report titled 
        ``American Indians and Crime 1992-2002'' the findings reveal a 
        disturbing picture of the victimization of American Indians and 
        Alaska Natives. The rate of violent crime estimated from self 
        reported victimizations for American Indians is well above that 
        of other U.S. racial or ethnic groups and is more than twice 
        the national average. This disparity in the rates of exposure 
        to violence affecting American Indians occurs across age 
        groups, housing locations, and by gender. American Indians are 
        more likely than people of other races to experience violence 
        at the hands of someone of a different race, and the criminal 
        victimizer is more likely to have consumed alcohol preceding 
        the offense. Among American Indian victims of violence, the 
        offender was more likely to be a stranger than an intimate 
        partner, family member, or acquaintance. Strangers committed 42 
        percent of the violent crimes against American Indians during 
        1992-2001. An acquaintance committed about 1 in 3 of the 
        violent victimizations against American Indians. About 1 in 5 
        violent victimizations among American Indians involved an 
        offender who was an intimate or family member of the victim. 
        \1\
---------------------------------------------------------------------------
    \1\ Bureau of Justice Statistics--``American Indians and Crime 
1992-2002.''

  <bullet> Rates of violent victimization for both males and females 
---------------------------------------------------------------------------
        were higher for American Indians than for all races.

  <bullet> American Indian females were less likely to be victims 
        compared to American Indian males.

  <bullet> The rate of violent victimization among American Indian 
        women was more than double that among all women.

  <bullet> American Indians were more likely to be victims of assault 
        and rape/sexual assault committed by a stranger or acquaintance 
        rather than an intimate partner or family member.

  <bullet> Approximately 60 percent of American Indian victims of 
        violence, about the same percentage as of all victims of 
        violence, described the offender as white.

    Under Title II, Improving Services for Victims of Domestic 
Violence, Sexual Assault and Stalking, there are new opportunities 
through the Sexual Assault Services Program that ANWC is in full 
support of. These new provisions will improve the lives of women and 
children across the nation, and create new opportunities for women to 
access services. Because of the rates of rape and sexual assault in 
Alaska these services are essential from a health care perspective.
    There are many obstacles that we face in our attempts to create a 
coordinated community response (CCR) that is Alaskan Native specific. 
The primary obstacle is the lack of resources at the village level. 
While our Lower '48 and urban counterparts are considering non-profit 
victim advocacy agencies, health care, social services, and criminal 
justice systems in their development of a CCR, most Native Alaskan 
communities do not have the luxury of these resources. In many villages 
to have a health aide practitioner and the tribal councils who act as 
the tribal court, are the community resources, additionally 75 of the 
229 villages have an on-site Village Public Safety Officer or Village 
Peace Officer. The Village Public Safety Officer (VPSO) has limited 
authority and no place for detention of perpetrators in most 
situations. Approximately 40 percent of these 229 villages have no form 
of local law enforcement present in their community. The challenge for 
these communities lies in getting together a team of people who can be 
as impartial as possible while dealing with relatives, friends, and 
acquaintances in incidents of violence against women and children. 
Community members need to set the standard of behavior and create 
community based solutions that restore their customary and traditional 
means of living in non-violence.
    Violence against women and children are being perpetuated in 
communities where there exists no form of law enforcement and no local 
infrastructure to address these incidents. These facts create the 
dangerous reality that frequently the only people standing between 
women in need of protection from a batterer or rapist is the local 
community. Consequently, the life of a woman depends largely on the 
local community's ability to provide immediate assistance. Given the 
extreme danger created by such abusers and the remote isolation of 
women, communities must develop their own village specific program 
utilizing their existing local resources. The development of this local 
response is the only assurance that women and often times their 
children in rural Alaska are provided with the basic human right to 
safety.
    Although reporting has increased, victim safety, batterer 
accountability and stalking still remains a big problem. Just last year 
in one of our smaller villages where there exists no form of law 
enforcement and where there exists no infrastructure to provide for the 
basic safety of women and children, a woman was shot and killed by her 
partner in a domestic abuse incident. In yet another incident in yet 
another off road community, a woman was shot and killed while her 
children stood helplessly by and watched. This is becoming an all too 
common scenario for rural Alaska.
    When an incident is reported and no one responds, this sends a 
clear message to the perpetrator and the community that violence 
against women is both tolerated and accepted. While there can be many 
reasons that law enforcement doesn't respond, such as weather, funding, 
man power and other reasons, the bottom line for women and children in 
rural Alaska is they are not safe in their own homes and communities.
    ANWC have been hosting conferences, meetings and teleconferencing 
through which we have had many conversations with villages on what 
challenges and issues they perceive as being prevalent. Through these 
consistent dialogues we have ascertained that the unique issues 
encountered in rural Native villages in Alaska are not being addressed. 
Amongst the key challenges are the fact that ninety of the 229 
communities across the state are without any form of law enforcement 
and no basic infrastructure to address the incidents of violence that 
is happening in their community. When there has been a perpetrator that 
has been through the legal justice system in the community this creates 
other, as of yet unresolved issues that overflow, into the community. 
Perpetrators that are directed to Batterer's Re-Education as a part of 
their sentence, often in rural communities don't have a program 
available to them and the costs of living in another community and 
maintaining their home and family, result in many non-compliant 
offenders. ANWC is working toward several distance delivery methods and 
hope to be a part of the solution for access to services for our rural 
communities.
    Victims are being re victimized at an alarming rate mostly due to 
the fact that Native women from remote Alaskan villages have no 
knowledge of the westernized judiciary system. They are losing their 
children, their jobs, their homes, and forced to leave their villages 
and culture due to the fact that they choose to leave an abusive 
relationship or because they are in one.
    We are aware of how much time and effort has gone into each of the 
sections of the reauthorization language and rather than try to seek 
specific sections that we support, we choose to limit our comments 
because each section will improve areas of need for different parts of 
the U.S., including Indian Country. We do have a couple of comments 
that we hope will contribute further to improvements for Alaska Native 
victims of domestic violence and sexual assault. Emergency services are 
only one area of need.
1. Title VI--Housing Opportunities and Safety for Battered Women and 
        Children.
Title VI, Sec. 602. Request for more shelters for Alaska Native victims 
        of domestic violence and sexual assault.
    While the rate of victimization is higher than any other population 
of women in the United States, funding for essential life saving 
services are inadequate. One example of this is the lack of crisis 
services, such as shelters and rape crisis services which serve the 
disproportionately large population of Alaska Native women victimized 
(see statistics above.) And, there are only two Native run shelter 
programs within the State of Alaska-one in Emmonak and ANWC's Interior 
Alaska based shelter, ``Denaa Tsoo Yuh'' (Koyukon Athabascan for Our 
Grandma's House), opened in January 2005.
    Very few rape crisis/sexual assault services programs operate to 
serve specifically Alaska Native women. Culturally specific services 
are essential because we know that generally Alaska Native women prefer 
and frequently will not use services that are not designed to address 
their beliefs, customs and traditions.
2. Title I--Enhancing Judicial and Law Enforcement Tools to Combat 
        Violence Against Women.
    ANWC fully supports Title I, Sec. 101 (f)(i)(2), ensuring that 
training and technical assistance will be developed and provided by 
entities having expertise in tribal law and culture. This same message 
was echoed at our Statewide conference in Anchorage May 24-26, 2005 and 
again in June of 2006. Such grassroots participation is what makes a 
community's efforts successful and ultimately protects women and 
children from domestic violence and sexual assault.
    We request your full support for the provision of technical 
assistance, as mentioned throughout the Bill, and ask that the 
technical assistance be provided by those with culturally specific 
knowledge. There are many excellent additions to the reauthorization of 
VAWA 2005 that will benefit women across the country. ANWC fully 
supports the Tribal Title IX, which includes vital provisions that will 
ensure that all perpetrators of violent crimes committed against Indian 
women are held accountable for their crimes; increase research on 
violence against Indian women; and establishes a national tribal sex 
offender registry, as well as ensuring that tribes have an opportunity 
to address violence in their communities through the 10 percent tribal 
set aside. In order to continue the progress of the past thirteen years 
since the initial passage of VAWA, we must continue to dedicate our 
resources to addressing the issues, most especially for those that are 
still affected by violence each day. We appreciate that the Tribal 
Title IX--Safety for Indian Women was included in the reauthorization 
of VAWA. For small communities to have access to Federal funding is 
imperative to providing for all women and children to have the basic 
human right to safety. Thank you for all your support and dedication to 
seek resources and resolutions for the ``Backbone of our Nations'' our 
women.
    Please feel free to contact Tammy Young, Director if the Alaska 
Native Women's Coalition can be of any assistance.
Attachments
    Thank you for the opportunity to offer comments on the work being 
accomplished by tribes across the country. The Native Village of Anvik 
has throughout the years been responsibly addressing issues that are of 
concern for many villages and tribes including the safety and wellbeing 
of our women and children. We are a village of approximately 800 with 
only a small handful (25) from outside, but coexisting within the 
confines of village life. We live on the Yukon River, which is our main 
source of food and transportation to other villages. Our nearest 
village is blank miles, with such and so services. We are neighbors 
with blank villages and rely on each other in times of need. Village 
life is cyclical in tune with nature; we survive in the ways of our 
ancestors, from generation to generation. We can trace back in history 
and pinpoint the intrusion of violence into our communities and the 
methods that have held strong to facilitate the ongoing destruction of 
healthy lives and families. We are part of a much larger picture as 
well, below you will see that there are many other villages and urban 
relatives that need time and attention for their unique needs and 
barriers. Alaska covers an area of 586,412 square miles in the northern 
part of the United States. The total population of the state is 622,000 
of which approximately 98,043 are Alaska Natives living in either the 
urban areas or the in the 229 tribal communities across the state. In 
the most recent studies conducted by service providers in Alaska, 
violence against women and children ranked amongst the highest in the 
social problems that currently plagues our native communities. Alaska 
has the highest rates of sexual abuse nationally and one of the highest 
per capita rates of physical abuse in the nation. In Anchorage alone 
from 1989 to 1998, reported cases of domestic violence increased by 120 
percent. The percentage of Alaska Native victims in Anchorage was 24 
percent, which is extremely high when one takes into consideration that 
Alaska Natives comprise only 8 percent of the Anchorage population. 
Alaska is home to 229 tribes. Of these 229 tribes, 165 are off road 
communities meaning that the only way in and out is by air. Ninety-five 
of these off road communities also do not have any form of law 
enforcement. Violence against women and children are being perpetuated 
in communities where there exists no form of law enforcement and no 
local infrastructure to address these incidents. These facts create the 
dangerous reality that frequently the only people standing between 
women in need of protection from a batterer or rapist is the local 
community. Consequently, the life of a woman depends largely on the 
local communities ability to provide immediate assistance. Given the 
extreme danger created by such abusers and the remote isolation of 
women, communities must develop their own village specific program 
utilizing their existing local resources. The development of this local 
response is the only assurance that women and often times their 
children in rural Alaska are provided with the basic human right to 
safety.
    Although reporting has increased, victim safety, batterer 
accountability and stalking still remains a big problem. This same time 
last year in one of our smaller villages where there exists no form of 
law enforcement and where there is no infrastructure on site to provide 
for the basic safety of women and children, a woman was shot and killed 
by her partner in a domestic violence incident. This is becoming an all 
too common scenario for rural Alaska. Murder and Suicide are very 
serious situations that any prevention efforts would undoubtably save 
lives. When an incident is reported and no one responds, this sends a 
clear message to the perpetrator and the community that violence 
against women is both tolerated and accepted.

         1 of 3 American Indian and Alaskan Native women are raped in 
        their lifetime, and American Indian and Alaska Native women 
        experience 7 sexual assaults per 1,000 compared to 4 per 1,000 
        among Black Americans, 3 per 1,000 among Caucasians, 2 per 
        1,000 among Hispanic women and 1 per 1,000 among Asian 
        Americans.

         According to the November 2000 National Institute of Justice 
        Report.

         About 8 in 10 American Indian and Alaska Native victims of 
        rape or sexual assault were estimated to have assailants who 
        were White or Black.

         According to the U.S. Department of Justice--American Indians 
        and Crime Report from 1999.

    The Village of Anvik is thankful for the unique legal relationship 
between the U.S. and Indian Tribes and trusts that the federal trust 
responsibility to safeguard the lives of American Indian and Alaska 
Native women through collaborative efforts between the Federal 
Government and small tribes like Anvik will continue. That continued 
support of sovereign efforts to provide for the basic necessity of 
safety for women fleeing life threatening situations through grants 
will be a continued effort of safeguarding the future of Indigenous 
nations.
    Anvik will continue to build their capacity to preserve the safety, 
integrity, and well being of its members, especially the sacred status 
of our women to live in an environment free of violence and sexual 
assault.
                                 ______
                                 
 Survivor Stories From Alaska Located in Tribal Communities--Presented 
as Oral Testimony to the Senate Committee on Indian Affairs--September 
                                25, 2007

    Two adult tribal women, who wish to remain anonymous, have agreed 
to share their experiences with the understanding that their locations 
and identities will be kept confidential. Each live in one of the 95 
villages in Alaska that have no immediate form of law enforcement. 
These women have entrusted their stories here for the benefit of 
understanding the level of danger and the circumstances that exists. 
Surviving the event with minimal support from outside of their village. 
These women entrusted the telling of their reality, with Tami Jerue of 
Alaska Native Women's Coalition.
    The first woman is married with several children between the ages 
of 5 and 13; she was visiting in a nearby community from her home. She 
was asleep, when the perpetrator broke into her family's home. She knew 
this person; he raped her and threatened her family if she did not keep 
quiet. After a few days she told her husband and other family members. 
They told her to call the Troopers. There is a Trooper post some 100 to 
200 air miles away from the village. She did call and reported this 
incident, in detail also told Troopers who had attacked her. They did 
not come out to interview her, and there has been no follow up. The 
perpetrator is still walking around in the village. This incident 
happened over one year ago.
    The second woman, had been drinking in her home with her partner, 
there were other people drinking with them. She passed out, and woke up 
to find one of the men who had been drinking in the house with them, 
was trying to take down her pants. She jumped up and started screaming, 
she then woke up her partner, who refused or was incapable of doing 
anything to respond. She called someone she considered to be safe that 
was in the community to help her. She was picked up and taken to that 
person's house. They called the Troopers, again in a hub community a 
few hundred miles away to report the incident. This perpetrator has 
been known to do this type of thing around the community, however has 
never been convicted. Troopers did not come to investigate and the 
perpetrator still walks around free.
    The woman now says ``why bother to call, nothing ever happens.''
    In the following statement from a mental health professional in 
rural Alaska.
    A number of studies regarding sexual assault in the United Sates 
indicate that one in three females and one in five males are sexual 
assaulted before they are eighteen years of age. Although generally not 
identified as such this rate of sexual assault has serious and long 
lasting mental and physical health ramifications.
    A recent report by the Alaska Council on Domestic Violence and 
Sexual Assault indicates that the Alaska rate of sexual abuse of 
children is six times that of the lower forty-eight, a statistic which 
should receive the alarming attention of both governmental and health 
officials because of its epidemic proportions.
    I have been a mental health professional in rural Alaska for more 
than five years. Personal observations and discussions with various 
clinicians around the State of Alaska has led me to believe that many 
of the serious issues put forth in the Amnesty International report 
have actually been minimized. From my own experience the response time 
of the State Troopers or even OCS to an incident of reported child 
abuse, domestic violence and sexual assault has been slow or in some 
cases non-existent.
    I have witnessed a judicial system order more time in jail for 
burglary than the rape of a young girl over a four year period. Because 
of these types of incidents trust in the system at large is minimal by 
community members in much of rural Alaska. The result of this lack of 
trust leads to frustration and to gross underreporting of incidents of 
domestic violence and sexual assault. In the community I work in I 
would estimate that ninety per-cent of the domestic violence and sexual 
assault goes unreported to law enforcement.
    Although this information only touches the surface of the problem 
of sexual assault in rural Alaska it is my hope that it provides at 
least some incentive for governmental, law enforcement and health 
officials to act in a responsible manner to guarantee the safety and 
welfare of Native women and children throughout this state.
    Name withheld by request due to the confidential nature of some of 
the above information.
                                 ______
                                 

                   Artist sues police over rape case

    silook: woman says not even token attempt' made to find rapist.

           Anchorage Daily News (Published: November 8, 2001)

BY SHEILA TOOMEY AND LISA DEMER

    A well-known local artist says police officers who took her into 
protective custody while she was in an alcoholic blackout failed to 
notice she had been raped because they are prejudiced against 
intoxicated Alaska Native women.
    In a lawsuit filed two years after the September 1999 incident, 
Susie Silook says once the assault on her was medically confirmed, the 
Anchorage Police Department failed to seriously investigate it.
    Silook is asking for monetary damages and an order directing the 
city to train its personnel to deal with such situations.
    Police spokesman Ron McGee said Wednesday that the department never 
comments on pending litigation. In court papers, the city's legal staff 
has asked that the suit be dismissed on a number of grounds, but has 
not given its version of events. Municipal Attorney Bill Greene said 
the case is in early stages and comment on the facts would be 
inappropriate.
    According to Silook's complaint, and police reports she provided to 
reporters, she had been drinking at a number of downtown bars and a 
restaurant on September 19, 1999, and doesn't remember how she ended up 
at Chilkoot Charlie's in Spenard.
    Sometime that night, she was raped, the suit says. But Silook had 
no memory of it and did not report it to anyone that night.
    At some point, Chilkoot's called the police to remove her, 
apparently because she was being disruptive. Silook was taken to jail, 
not under arrest, just to sober up. When she arrived, she had bruises 
on her arms and blood in the crotch area of her pants.
    It is unclear if she told police and corrections officers that she 
had her period, or if they assumed that. Either way, it was 
``deliberately indifferent'' and ``reckless'' of city officials not to 
seek a medical evaluation of possible injuries, the suit says.
    Two days later, after she had bathed and thrown away the bloody 
clothes, a doctor determined that Silook had been raped with an object. 
The bleeding was caused by a tear in her vagina, the suit says.
    At that point, police initiated a rape investigation, but failed to 
do all they could to identify her assailant, the suit says.
    Police reports indicate an investigator subpoenaed security tapes 
from Chilkoot's and interviewed several people, including Silook's 
boyfriend, about events that night.
    The attitude of police toward Native women who become crime victims 
while drunk has been publicly questioned by activist groups over the 
past year, following a series of unsolved homicides of minority women 
and the capture of a serial rapist whose victims were mostly Native.
    Police have responded that criminals seek out vulnerable victims 
and that rape cases where a victim does not remember the attack or 
attacker, or where there is no physical evidence, are very difficult to 
solve and prosecute. Investigators do the best they can, police have 
said.
    In an interview earlier this week, Silook said police, jail 
officials and staff at Chilkoot Charlie's all should have noticed and 
investigated the source of blood visible on her blue jeans that night. 
Police should have immediately interviewed everyone they could find 
from Chilkoot's as soon as they knew they were dealing with a rape.
    ``I understand these cases are difficult,'' Silook said. ``But I 
don't think they are impossible. There wasn't even a token attempt, I 
feel, to find out what happened to me.''
    In May, Silook gathered her anger and images documenting her rape 
experience into a multimedia art exhibition, called ``Protective 
Custody.''
    ``I did that show hoping to get more police involvement in the 
cases of rapes and murders of Native women,'' she said. This week she 
is in Indianapolis at an exhibition of her work and that of other 
Native American artists, part of a fellowship that also includes a 
$20,000 award.
    Silook said the rape and its aftermath occurred while she was still 
drinking. She has been sober for more than a year, she said.
                                 ______
                                 

                         Rapist dealt 30 years

deal jury trial for man who raped five native women would have been too 
                           risky, judge says.

           Anchorage Daily News (Published: February 9, 2002)

BY SHEILA TOOMEY

    Serial rapist Gregory Poindexter was sentenced Friday to 30 years 
in prison after a Superior Court judge decided a deal with the state 
was in the best interests of his victims and the community.
    In a packed, silent courtroom filled with supporters of the five 
Native victims, Judge Elaine Andrews took nearly an hour to explain why 
she was accepting a deal that many in the audience were opposed to.
    If jurors had convicted Poindexter of all 18 original charges, 
Andrews said she might have been able to give him 40 years without 
risking reversal on appeal. But guilty verdicts are not a sure thing, 
she said, and the state isn't sure the victims or the evidence could 
withstand the pressure of multiple trials with aggressive cross-
examination.
    Accepting Poindexter's plea in return for a 30-year cap on his 
sentence ends the risk that he might be back on the street in a few 
years.
    ``I have the perhaps unfortunate job to weigh evil,'' Andrews said.
    Poindexter, 31, is a tall, beefy man, his physique suggesting a 
football player going soft. In court Friday he wore jailhouse ``reds,'' 
which are reserved for troublemakers, instead of the usual blue 
uniform. He sat unmoving in his chair for most of the hearing, shackled 
hand and foot, eyes forward and mostly shut, not looking as two of his 
victims took turns at a podium and told Andrews about the rapes and 
beatings.
    The only word he spoke was ``no,'' when Andrews asked if he wanted 
to say anything.
    The five women were raped between August 2000 and January 2001 in a 
series of attacks that escalated in violence. Poindexter began by 
offering victims rides, then began ``scooping them'' into his car and 
beating as well as raping them, Andrews said. One woman said her face 
was so damaged she still has double vision and needs more surgery.
    ``I felt every negative emotion a person can feel,'' she told the 
judge. ``I wanted this so much to be a bad dream I wake up from.''
    ``This man tortured me for three hours,'' said another victim. ``I 
have terrible nightmares and flashbacks. . . . This evil man hurt us 
all.'' She asked Andrews to sentence Poindexter to ``a hundred years 
and one day.''
    Originally indicted on 18 charges, Poindexter pleaded no contest in 
September to one count of sexual assault of five women, and one count 
of kidnapping three of the women.
    Assistant district attorney Rachel Gernat and defense attorney 
Craig Howard both urged Andrews to accept the 30-year deal.
    The prosecution has problems with some of the cases, Gernat said. 
There is some evidence to support each charge, but perhaps not enough 
to convince a jury beyond a reasonable doubt, she said.
    If the state could try the cases all at once, jurors could probably 
``put the puzzle together,'' Gernat said. But the defense would fight 
to have at least two trials, one for cases that include a kidnapping 
charge and one for cases that don't.
    The rapes are ``a horrifying event that still haunts'' the victims, 
Gernat said. They told their stories to a grand jury, and the state 
doesn't want to make them testify again to another room full of 
strangers.
    Howard pointed out that most of the victims were drunk and had 
trouble identifying their attacker. If the cases go to trial, it 
``would be a battle royale . . . these women would have to be subject 
to vigorous cross-examination'' on issues like identity and consent. 
Given their intoxication at the time, they probably wouldn't be very 
good witnesses, Howard said.
    ``I'm not inexperienced in court. If I have to, I will use whatever 
abilities I have to acquit Mr. Poindexter.''
    Howard also challenged anyone who suggested 30 years was a light 
sentence. Gesturing to the spectators, he said, ``I know the people 
behind me think he's getting some kind of sweetheart deal. He's not.''
    In addition to 30 years to serve, Andrews sentenced Poindexter to 
an additional 35 years of suspended time and 10 years' probation after 
he gets out of prison. He can be forced to serve the suspended time if 
he violates probation.
    Unlike most criminals who come before her, Andrews said, nothing in 
Poindexter's past suggested he would turn out to be a serial rapist. He 
has a domestic violence conviction and committed a burglary that 
involved taking a can of coins from a friend's house.
    She ordered him to complete sex offender treatment while in prison 
and warned he could lose his ``good time'' of about 10 years if he 
doesn't.
    After Poindexter was taken away, many spectators gathered 
downstairs in the foyer of the courthouse for a drumming and chanting 
circle, dedicated to Poindexter's victims and to a group of Anchorage 
Native women whose murders remain unsolved, said Denise Morris, head of 
the Alaska Native Justice Center, who helped organize the turnout.
    Ida Nelson, one of the drummers and a friend of some victims, laced 
into Howard's remarks, calling them racist. ``I think Poindexter 
targeted Native women because he knew no one would stand up for them,'' 
Nelson said.
    Despite the wish that Poindexter would be sentenced more harshly, 
the victims and their friends seemed relieved the case was finished and 
the culprit punished. Morris commended Andrews for taking the time to 
explain ``the reasons and rationale for the sentence. I felt it was 
probably reasonable based on the information she gave,'' Morris said.
                                 ______
                                 

    Indian Health Service Doctors Disciplined For Sexual Misconduct

                        ap, the associated press

BY MATT KELLEY, ASSOCIATED PRESS WRITER

    Washington (AP)-- Dr. Thomas W. Michaelis spent two months in an 
Ohio prison in 1991 for trying to molest four teen-age girls.
    He then worked for eight years as an obstetrician-gynecologist in 
an Indian Health Service hospital in Arizona, paid $101,000 a year by 
the government despite a law barring the hiring of sex offenders in 
agencies serving American Indians.
    IHS officials fired Michaelis last year. By then, he had examined 
hundreds of women at the Phoenix Indian Medical Center after 
registering with local authorities as a sex offender.
    Michaelis said he told IHS officials about his convictions for 
attempted molestation, but the agency hired him in 1993 anyway.
    ``They knew about it up front,'' Michaelis said. ``I guess they 
needed a doctor eight years ago.''
    At least 21 doctors who worked for the IHS between 1996 and 2001 
have been punished or denied licenses by state medical boards for 
offenses ranging from abusing drugs to neglecting patients who later 
died, an Associated Press review of disciplinary records found.
    Dr. Richard Chilian, a surgeon, had his North Dakota license 
suspended in 1997 and then reinstated with restrictions after he took 
20 tablets of the anti-depressant Wellbutrin and became so disoriented 
he couldn't complete a surgery, according to North Dakota medical board 
records.
    Chilian now makes $90,549 at the Phoenix Indian Medical Center. He 
said the North Dakota incident resulted from depression and IHS 
officials knew that.
    ``They knew all about it, 100 percent,'' Chilian said. ``There was 
never any attempt to cover things up.''
    Officials at IHS, the federal agency charged with providing care to 
1.5 million American Indians, acknowledge that background checks on 
their doctors are often inadequate. It's just one of many problems they 
blame on a lack of money.
    ``In general, there is no secretarial staff to support the medical 
staff activities,'' said Dr. Craig Vanderwagen, the agency's chief 
medical officer.
    ``Many of our people are seeing 40 patients a day or so. Then, your 
attention to take care of that (background check) paperwork goes right 
out the window,'' he said.
    Several sanctioned doctors told AP that IHS officials knew about 
their backgrounds before they were hired. Documents from the State 
Medical Board of Ohio show IHS requested, and Ohio sent, records 
detailing Michaelis' crimes.
    IHS officials rejected a Freedom of Information Act request from AP 
for records detailing what they knew before Michaelis was hired. 
Likewise, IHS officials declined to discuss any specific disciplined 
doctors, citing privacy concerns.
    IHS managers have the power to hire doctors despite past troubles 
as they try to fill vacancies that include more than 10 percent of 
their physician jobs.
    Vanderwagen said recruiting IHS doctors is often difficult, 
especially for relatively low-paying jobs on the most remote, poverty-
ravaged Indian reservations.
    Records show about 2.6 percent of IHS doctors have been punished by 
state boards--a rate more than four times the average for all 
government doctors and the highest of any federal agency.
    In contrast, just 0.5 percent of doctors who provide care to 
military veterans at Department of Veterans Affairs hospitals have ever 
been disciplined.
    The IHS discipline rate is about the same as the national average 
for all doctors. But critics say the federal agency has an obligation 
to do better--especially because Indians have suffered from substandard 
health care for more than a century and are vulnerable.
    ``There are perpetrators out there who tend to look for the state 
or county or federal systems that have loopholes,'' said Yvette Joseph-
Fox, executive director of the National Indian Health Board, which 
represents tribal health officials.
    ``We've been haunted by these problems for more than a hundred 
years . . . and for some strange reason, the perpetrators know that,'' 
she said.
    AP identified 21 disciplined IHS doctors through state medical 
board files and a database of punished doctors compiled by the consumer 
watchdog group Public Citizen.
    IHS doctors need only be licensed to practice medicine in one 
state, not the one where they work.
    For instance, Michaelis relied on his Ohio medical license even 
though Arizona rejected his application. That means the only place 
Michaelis could practice in Arizona was a federal facility like an IHS 
hospital.
    Dr. Michael D. Cerny's medical licenses have been revoked, denied 
or suspended in Pennsylvania, Ohio, Iowa and Illinois for drug problems 
and for tearing a woman's bladder during a hysterectomy, according to 
records from the states' medical boards.
    Cerny now practices at the IHS hospital in Pine Ridge, S.D., 
earning more than $103,000 a year. He holds a valid medical license in 
Georgia.
    Cerny did not return repeated calls to his office and home seeking 
comment. Neither did Pine Ridge hospital administrator Vern Donnell.
    Dr. Paula J. Colescott surrendered her Colorado medical license in 
1995 after she admitted having sex with a 19-year-old patient, 
according to Colorado State Board of Medical Examiners records. She 
also was reprimanded in 1991 for a similar sexual relationship with 
another patient, medical board records show.
    Colescott, who now makes $98,310 a year at the Alaska Native 
Medical Center in Anchorage, said she was upset by news coverage of the 
1995 case.
    ``So you're going to publish again, and publicly humiliate me 
again?'' Colescott said when interviewed. ``You never let it die, do 
you guys? No, I am not willing to comment.''
    In a written statement, Paul Sherry, chief executive of the tribal 
consortium that runs the Alaska hospital, said Colescott ``meets all of 
the requirements of the Medical Bylaws and Rules and Regulations to 
practice as a licensed physician.''
                                 ______
                                 
    Several other submitted articles have been retained in Committee 
files and can be found at:

    http://www.tribalnews.com/

    http://www.adn.com/alaska/story/1702898p-1819699c.html

    http://IndianCountry.com/?1054649768

    http://www.adn.com/front/story/4325477p-4335352c.html

    http://www.uaa.alaska.edu/just/rlinks/natives/index.html

    http://www.adn.com/alaska/v-printer/story/4341644p-4350579c.html

    http://www.adn.com/alaska/v-printer/story/4346810p-4355897c.html

    http://www.adn.com/front/v-printer/story/4416837p-4409063c.html

    http://www.adn.com/alaska/v-printer/story/4715310p-4665337c.html

    http://www.indianz.com/News/archives/003731.asp

    http://www.adn.com/alaska_ap/story/4820606p-4760255c.html

    http://nativetimes.com/
index.asp?action=displayarticle&article_id=4016

    http://www.adn.com/alaska/story/4982516p-4910648c.html

    http://www.adn.com/alaska_ap/story/5081646p-5009291c.html

    http://justice.uaa.alaska.edu/forum/f204wi04/a_rapes.html

    http://www.adn.com/front/v-printer/story/5791918p-5725475c.html

    http://www.adn.com/alaska/v-printer/story/6038774p-5928127c.html

    http://www.adn.com/news/alaska/v-printer/story/6203267p-
6077492c.html

    http://www.adn.com/news/alaska/v-printer/story/6222713p-
6097351c.html

    http://www.adn.com/news/alaska/story/6335640p-6212250c.html

    http://www.adn.com/news/alaska/story/6563826p-6446635c.html

    http://www.sitnews.us/0805news/082405/082405_sentenced.html

    http://www.sitnews.us/0805news/082405/082405_sentenced.html

    http://www.adn.com/news/alaska/story/7130591p-7039083c.html

    http://www.adn.com/front/story/7176631p-7086347c.html

    http://www.adn.com/news/alaska/story/7202199p-7113837c.html

    http://www.latimes.com/news/local/la-me-
alaskaside19nov19,1,7797805.story?coll=la-headlines-
california&ctrack=1&cset=true

    http://www.adn.com/news/alaska/ap_alaska/story/7617975p-
7529778c.html

    http://www.adn.com/news/alaska/crime/story/7638373p-7549948c.html

    http://www.indianz.com/News/2006/014829.asp

    http://www.ncjrs.gov/pdffiles1/nij/grants/215350.pdf

    http://www.adn.com/news/alaska/crime/story/8218160p-8115089c.html

    http://www.homernews.com/stories/012307/news_1001.shtml

    http://www.adn.com/news/alaska/ap_alaska/story/8686257p-
8583319c.html

    Submitted copies of the Alaska Justice Forum (Vol. 24, No. 1) and 
the Alaska Rural Justice and Law Enforcement Commission 2006 Initial 
Report and Recommendations are printed in the appendix.

    The Chairman. Ms. Young, thank you very much for being with 
us today.
    Next we will hear from Ms. Karen Artichoker, who comes to 
us from Rapid City, South Dakota, Director of the Sacred 
Circle, Inc. Ms. Artichoker, thank you very much. You may 
proceed.

STATEMENT OF KAREN ARTICHOKER, DIRECTOR, SACRED CIRCLE NATIONAL 
      RESOURCE CENTER TO END VIOLENCE AGAINST NATIVE WOMEN

    Ms. Artichoker. Good morning. I would like to extend a 
heartfelt handshake to each of you, and especially to Senator 
Johnson. Many prayers were said for you and it is good to see 
you looking so well.
    I am the Director of Sacred Circle, which is a national 
resource center to end violence against Native women, funded 
through the Violence Against Women Act. But I also am a 
Management Team Director for Cangleska, Inc. on the Pine Ridge 
Indian Reservation, home of the Oglala Sioux Tribe, and we are 
a private, non-profit organization.
    I am so pleased that obviously you all are becoming more 
and more educated about this issue and I agree that it is the 
rare Indian woman who has escaped some form of sexual violence 
in her life. We believe the statistics are low, very low, and 
do not reflect the reality of the average Native woman.
    I want to talk some about our local program and what we 
have encountered, and in the way of our people, say it is not 
our intention to offend anyone. I think we are aware that there 
are some big problems here. And when we look at the processes, 
and I am so pleased that we are looking at the processes, 
because some of these things I am wondering could possibly be 
changed quite simply, with some simple, simple adjustments. And 
one of those I believe needs to be attitude and priority.
    In working with Federal officials, we have encountered an 
attitude that often alcohol is involved and so that seems to 
diminish and negate the seriousness of the crime and the 
potential for prosecution. So when we look at sexual violence, 
then, for us as local women, we are looking at how do we work 
with the Federal system and create reforms in that system, look 
at law enforcement response throughout the woman's experience 
dealing with local, tribal, police officer, BIA criminal 
investigator at the Federal Bureau of Investigation, and of 
course the U.S. Attorney's Office. It brings to my mind 
Victoria Eagleman, on the Lower Brule Reservation, who was 
murdered. And the family reported her missing, while the 
Federal officials did not get involved because she was not 
officially, there was no crime that had been committed.
    So no Federal people were involved, the local police were 
looking for her, the family started talking to the Bureau, 
criminal investigators. They said, oh, you know, here's 
alcohol, she drinks, she probably just took off with some guy. 
She probably just headed out and she will be back. The FBI kept 
saying, there is no evidence of a crime.
    Well, finally, the community rallied and they searched, 
horseback, ATVs, boats, because they are water people, the 
community found her, 28 days later, her nude body stuffed in a 
culvert a few miles out of town. The family of course 
devastated, known all along that something bad had happened, 
and her body, this is the particularly egregious part for me, 
her body was sent to Sturgis for autopsy, the FBI accompanied 
her because she was evidence. But once the autopsy was 
performed, and the evidence was obtained, then they were out of 
it. And the family was responsible, and they were unable to 
bring her body back. So they agreed to cremation and she was 
sent home via U.S. Postal Service, which was very, very counter 
to our culture and respect for our family members who have 
passed on.
    So for us, we are looking at, we would like to build the 
capacity of our local communities and our local response. We 
don't believe our tribal criminal justice system is broken, it 
never worked in the first place. It has never had the 
opportunity to work. We are interested in talking about Federal 
reforms and how we can build the capacity of our local 
communities and develop community-based solutions, so that 
maybe we can prevent State and Federal interventions.
    Thank you.
    [The prepared statement of Ms. Artichoker follows:]

    Prepared Statement of Karen Artichoker, Director, Sacred Circle 
     National Resource Center to End Violence Against Native Women
I. Sacred Circle, National Resource Center to End Violence Against 
        Native Women, provides training, consultation and technical 
        assistance to Indian Nations, tribal organizations, law 
        enforcement agencies, prosecutors and courts to address the 
        safety needs of Native women who are battered, raped and 
        stalked.
    For over a decade, Sacred Circle has advocated for the safety of 
American Indian and Alaska Native women, by providing training, 
consultation and technical assistance on how to better respond to 
crimes of violence against Indian women, particularly domestic 
violence, sexual assault and stalking. Sacred Circle submits this 
testimony to provide written documentation to the U.S. Senate Committee 
on Indian Affairs' Oversight Hearing on the prevalence of violence 
against Indian women, and to provide recommendations on how to better 
safeguard the lives of Indian women.
    Our experience and national work with Indian women gives us the 
necessary expertise to provide an accurate overview of some of the 
successes and problem areas in addressing violence against American 
Indian and Alaska Native women throughout the United States. Sacred 
Circle is a member of numerous Federal inter-governmental committees 
and various national task forces established to address violence 
against women. \1\ On a tribal level, Cangleska, Inc., the mother 
agency of Sacred Circle, provides advocacy to approximately 3,000 women 
and children each year and approximately 2,400 men who are on domestic 
violence probation as ordered by the Oglala Sioux tribal courts.
---------------------------------------------------------------------------
    \1\ National Task Force to End Sexual and Domestic Violence Against 
Women; National Congress of American Indians Task Force to End Violence 
Against Native Women; U.S. Department Of Justice Global Advisory 
Committee; U.S. Department Of Justice Working Group on Federal Tribal 
Sexual Assault Response; Full Faith and Credit Project; Federal Law 
Enforcement Training Center Curriculum Working Group; American 
Probation and Parole Association Model Protocol Working Group; 
International Forensic Nurse Examiner's DNA Curriculum Development 
Working Group.
---------------------------------------------------------------------------
    Our testimony today offers concrete recommendations to strengthen 
the response of the Federal and tribal systems to increase safety for 
Indian women in the context of the Violence Against Women Act of 2005. 
Given the prevalence of violence against Indian women, immediate action 
by the Federal Government in coordination and consultation with Indian 
tribes is required to enhance the safety of Indian women and save 
lives.
II. American Indian and Alaska Native women are disproportionately 
        victimized by violence in America due to jurisdictional gaps in 
        Federal law.
    Over the past 10 years, Sacred Circe has learned many things about 
the state of peril confronting Indian women. Indian women are battered, 
raped and stalked at far greater rates than any other group of women in 
the United States. This means that from the oldest to the youngest, 
Indian women are being disrespected in life, and sadly many are dying 
without justice or the knowledge that their granddaughters may 1 day 
live free of the violence they experienced. Because Indian women are 
the backbone of our societies, this violence not only destroys the 
quality of life of Indian women, but it also threatens the safety and 
stability of their families, communities and tribal governments.
    The Department of Justice estimates that:

  <bullet> more than 1 out of 3 American Indian and Alaska Native women 
        (34.1 percent) will be raped in her lifetime and 3 out of 4 
        will be physically assaulted; \2\
---------------------------------------------------------------------------
    \2\ Patricia Tjaden & Nancy Thoennes, U.S. Dep't. of Justice, Full 
Report on the Prevalence, Incidence, and Consequences of Violence 
Against Women (2000).

  <bullet> about 9 in 10 American Indian victims of rape or sexual 
        assault were estimated to have assailants who were white or 
        black; \3\ and
---------------------------------------------------------------------------
    \3\ Lawrence A. Greenfeld & Steven K. Smith, U.S. Dep't. of 
Justice, American Indians and Crime (1999).

  <bullet> 17 percent of American Indian women, at least twice that of 
        other populations are stalked each year. \4\
---------------------------------------------------------------------------
    \4\ Stalking and Domestic Violence, May 2001 Report to Congress, 
U.S. Dep't of Justice, Office of Justice Programs, NCJ 186157.

    These statistics reflect the horrific levels of violence committed 
on a daily basis against Indian women. During a single weekend at one 
Indian Health Service emergency room, located at Pine Ridge, seventy 
women were treated for rape trauma. It is important to note that many 
victims often do not seek medical treatment, so the instances of 
violence may in fact be higher than what the statistics show. It is 
also important to note that violence against Indian women occurs on a 
continuum of violence from simple assault to murder.
    In fact, murder is the third cause of death for America Indian 
women. \5\ Further, the increased number of Indian women reported 
missing raises the concern that such cases should be investigated as 
homicide cases until the woman is located. The systemic response to a 
``missing person report'' is frequently a ``cold case file''.
---------------------------------------------------------------------------
    \5\ I.j.d. Wallace, A.D. Calhoun, K.E. Powell, J. O'Neill, & S.P. 
James, Homicide and Suicide Among Native Americans, 1979-1992, Violence 
Surveillance Summary Series, No. 2, Atlanta, GA; Centers for Disease 
Control and Prevention, National Center for Injury Prevention and 
Control, 1996.
---------------------------------------------------------------------------
    Our experiences providing services to women show that the high 
levels of violence against Indian women is linked to the particular 
vulnerabilities of Indian women as a population and is compounded by 
the social realties facing most Indian communities in the United 
States. The gaps in Federal law and inadequate resources to support 
tribal justice systems allow perpetrators to commit acts of violence 
again and again with little or no accountability for their crimes. 
People often say that the justice system is broken. Indian women 
seeking safety understand this reality. Today it is more dangerous to 
report incidents of domestic violence and rape because of the 
retaliatory violence that often results due to the lack of an 
appropriate justice system response.
    The lack of jurisdiction of Indian nations over non-Indian 
perpetrators and the sentencing limitations placed upon Indian tribes 
by Congress enhances the vulnerability of Indian women and the ability 
of predators to target Indian women as a population. The Department of 
Justice estimation that 75 percent of sexual assaults committed against 
Indian women are by perpetrators of a different race \6\ indicates that 
perpetrators of such violence are aware of this jurisdictional void. To 
make matters worse, this jurisdictional void furthers the public 
perception that Indian women are not entitled to the same protections 
as non-Indian women. The prevalence and severity of violence would be 
treated as an emergency if committed against any other population of 
women.
---------------------------------------------------------------------------
    \6\ Id. at 3.
---------------------------------------------------------------------------
    We appreciate this Committee's decision to hold oversight hearings 
on this important matter. We hope that this is merely a first step and 
that the Federal Government's interest and concern will not end with 
the end of this hearing. The staggering statistics of violence against 
Indian women requires that the highest levels of government--Federal, 
state and tribal--act in coordination to address the escalating crisis 
in the lives of Indian women.
III. VAWA 2006 law enforcement provisions can enhance the ability of 
        Indian tribes to respond to crimes of violence against Indian 
        women.
    The unique legal relationship of the United States to Indian tribes 
creates a Federal responsibility to assist tribal governments in 
safeguarding the lives of Indian women. On January 5, 2006, President 
Bush signed and reauthorized the Violence Against Women Act of 2005 
(``VAWA 2005''). VAWA 2005 represents landmark legislation that aims to 
protect victims of domestic violence, dating violence, sexual assault, 
and stalking. Contained in VAWA 2005 is the historic Title IX, Safety 
for Indian Women Act. Unfortunately, 1 year and 8 months after the 
reauthorization, many of the life-saving law enforcement provisions 
enacted by Congress have not been acted upon.
    Section 903 of Title IX provides the opportunity for consistent 
consultation on a government-to-government basis between the Department 
of Justice and Indian Nations. The first consultation was held at 
Mystic Lake, Minnesota on September 19, 2006. The second annual 
consultation was held 1 year later, this past week, on September 19, 
2007 at Sandia Pueblo, New Mexico. At this most recent consultation, 
Indian tribes in their comments consistently raised the concern that 
little, if no, action had been taken on the questions and 
recommendations from the previous year's consultation. Further, a 
consistent concern raised by tribal leadership, including the Great 
Plains Tribal Chairman's Association, was that the law enforcement 
reform sections of VAWA 2006 have not been implemented. Attached is a 
list of tribal recommendations made during the 2007 consultation. 
(Attachment A). We concur with these recommendations, and we would like 
to highlight the following issues:
a) Title IX, Sec. 905 (a). Tracking of Violence Against Indian Women.
    Section 905(a) amends the Federal code \7\ to require the Attorney 
General to permit Indian law enforcement agencies, in cases of domestic 
violence, dating violence, sexual assault, and stalking, to enter 
information into, and obtain information from, Federal criminal 
information databases.
---------------------------------------------------------------------------
    \7\ Section 905(a) amends 28 U.S.C. Sec. 534, Access to Federal 
Criminal Information Data bases.
---------------------------------------------------------------------------
    This amendment addresses a tremendous gap that has up to now acted 
to reduce the ability of tribal law enforcement to adequately respond 
to domestic violence and sexual assault. Prior to the amendment, tribal 
law enforcement access to the Federal criminal databases was dependent 
upon access granted or denied by the state agency. The ability of 
Indian tribes to enter information regarding order of protections and 
convicted sex offenders, and the resulting accessibility of that 
information to tribal, state and Federal law enforcement agencies, is a 
matter of life and death. This is particularly true for Indian women 
who have obtained an order of protection or cooperated with prosecuting 
their rapist. Access to the Federal databases is also an officer safety 
issue and essential to the day-to-day services provided to tribal 
communities.
    Although we applaud this amendment, we are concerned that it has 
not been properly implemented yet. Proper implementation of this 
provision requires the Department of Justice to issue guidelines and a 
directive to the personnel to allow tribal law enforcement to access 
the Federal criminal justice databases.
    Sec. 905(a) Tracking of Violence Against Indian Women 
Recommendations:

  <bullet> Identify which component of DOJ is responsible for 
        implementation of Section 905(a) and provide Indian tribes 
        contact information for the component;

  <bullet> Develop DOJ guidelines for the implementation of Section 
        905(a), in consultation with Indian tribes, and provide the 
        guidelines to Indian tribes;

  <bullet> Issue a statement to Indian tribes that the system is now 
        available for tribal law enforcement to access and enter 
        information into the Federal databases under Section 905(b).

b) Title IX. Sec. 908. Enhanced Criminal Law Resources.
    Section 908(a) amends the Federal criminal code \8\ to expand the 
Firearms Possession Prohibition to include convictions in tribal court. 
It amends the Federal criminal code to include under the term 
``misdemeanor crime of domestic violence'' any offense that is a 
misdemeanor under tribal law.
---------------------------------------------------------------------------
    \8\ Section 908(a) amends 18 U.S.C. Sec. 921(33)(a0(1), Firearms 
Possession Prohibition, and 25 U.S.C. Sec. 2803(3), Law Enforcement 
Authority.
---------------------------------------------------------------------------
    Prior to passage of this amendment, perpetrators of domestic 
violence convicted in tribal court could continue to possess firearms. 
This important amendment by Congress recognized the danger that Indian 
women faced because of this legal loophole. Unfortunately, no training 
or guidelines have been issued by the Department of Justice for 
implementation of this life-saving provision.
    Sec. 908(a) Enhanced Criminal Law Resources Recommendations:

  <bullet> Identify which component of DOJ is responsible for 
        developing implementation prosecutorial guidelines for Section 
        908(a) and provide Indian tribes contact information for the 
        component;

  <bullet> Develop implementation guidelines on Section 908(a) in 
        consultation with Indian tribes;

  <bullet> Develop and provide training on the guidelines for the 
        implementation of Section 908(a) to Indian tribes;

  <bullet> Issue a press release at the time of the first prosecution 
        of Section 908(a).

c) Title IX. Sec. 909. Domestic Assault by an Habitual Offender.
    Section 909 amends the Federal criminal code \9\ to create a new 
Federal felony for habitual offenders of domestic violence and sexual 
assault. It imposes criminal penalties upon any person who: (1) commits 
a domestic assault within the special maritime and territorial 
jurisdiction of the United States or Indian country; and (2) has a 
final conviction on at least two separate prior occasions in Federal, 
state, or tribal court for offenses that would be, if subject to 
Federal jurisdiction, an assault, sexual abuse, or serious violent 
felony against a spouse or intimate partner, or a domestic violence 
offense.
---------------------------------------------------------------------------
    \9\ Section 909 amends Title 18, Chapter 17.
---------------------------------------------------------------------------
    Section 909 was enacted by Congress to address the reality that 
domestic violence is a pattern of violence that is repeated over time. 
Domestic violence increases in frequency and also in the severity of 
the violence committed. The pattern of domestic violence might begin at 
a misdemeanor level and escalate to a felony level of violence. Tribal 
law enforcement agencies report that domestic violence is one of the 
largest categories of crime within tribal jurisdiction. Domestic 
violence, however, is rarely prosecuted by the United States Attorneys' 
Offices. One reason for the lack of prosecution is that a single 
incident of domestic violence often does not rise to the requirements 
of a Federal felony, and the Major Crimes Act does not include the 
crime of domestic violence. The amendment at Section 909 addresses this 
gap between tribal and Federal law. This new law will allow United 
States Attorneys to prosecute perpetrators of misdemeanor domestic 
violence that are repeat offenders and have two prior convictions in 
tribal court. It addresses an outstanding concern of tribal law 
enforcement, prosecutors and courts that domestic violence perpetrators 
are not being held accountable for violence committed against Indian 
women.
    Coordination of investigation efforts between tribal and Federal 
law enforcement will be essential to the successful prosecution of 
cases under this Section. Unfortunately, no training or guidelines have 
been issued by the Department of Justice on implementation of this very 
important Section that directly impacts the safety of Indian women.
    Sec. 909 Domestic Assault by an Habitual Offender Recommendations:

  <bullet> Develop in consultation with Indian tribes guidelines for 
        the implementation of Section 909 Domestic Assault by an 
        Habitual Offender;

  <bullet> Conduct cross training for Assistant United States Attorneys 
        and tribal prosecutors for the investigation, charging and 
        prosecution of cases under Section 909;

  <bullet> Inform Indian tribes of the progress and steps made toward 
        implementation of Section 909.

IV. Research is necessary to understand the prevalence, unique 
        particularities and estimated cost of crimes of domestic 
        violence, sexual assault, dating violence and stalking 
        occurring against Indian women.
    The Department of Justice has issued several reports on violence 
against women mandated by the Acts of 1994 and 2000. Within these 
reports, crimes of violence against American Indian and Alaska Native 
women are given limited attention. Previous research mandated under 
VAWA did not require in depth research on violence against Indian 
women.
    Section 904 mandates for the first time in United States history a 
national baseline study reviewing the crimes of domestic violence, 
dating violence, sexual assault, stalking, and murder committed against 
Indian women. Such a study is essential to analyzing and creating 
safety in the lives of Indian women.
    Of critical importance is the establishment of a task force, as 
provided by Section 903(A), to include representatives from national 
domestic violence and sexual assault tribal organizations that have 
decades of experience in assisting Indian women. Such a task force must 
also include Indian Nations, as the governments primarily responsible 
for providing emergency responses to such crimes, for providing daily 
assistance to Indian women, and for monitoring offenders. Indian tribes 
after tens of thousands of years maintain their inherent sovereignty 
with the authority and responsibility to protect the safety of their 
Indian women and the stability of their citizenry. The presence of 
these representatives on such a task force will ensure the expertise 
necessary to properly implement the baseline study required by Section 
904.
    The following recommendations are offered to maximize the 
opportunity provided by Section 904:

  <bullet> Immediately establish, as provided by Section 904(a)(3), the 
        tribal task force to develop and guide implementation of the 
        study;

  <bullet> Recognize that American Indian and Alaska Native women 
        experience multiple incidents of violence over a lifetime and 
        addressing such violence requires an array of services beyond 
        crisis intervention;

  <bullet> Recognize that the failure of Federal justice systems, and 
        state systems where state jurisdiction has been established, to 
        adequately respond to violence against Native women is 
        demonstrated in the distinction between the number of hospital 
        emergency trauma center visits and the number of cases 
        reported, charged and ultimately convicted.

V. The new position of Deputy Director for Tribal Affairs within the 
        Office on Violence Against Women is a first step toward 
        increasing the ability of the Department of Justice to 
        effectively coordinate on a governmental basis with Indian 
        Nations and improve the response of tribal law enforcement 
        agencies to crimes of domestic violence and sexual assault.
    The unique governmental relationship between Indian tribes and the 
United States is long established by the inherent sovereignty of Indian 
nations as governments that pre-existed the United States, and is 
recognized in the U.S. Constitution, Supreme Court cases, acts of 
Congress and Executives Orders of the President. Congress again 
recognized this unique governmental relationship within the Violence 
Against Women Act by statutorily including Indian tribes within various 
provisions and defining Indian Tribes as eligible applicants for 
certain programs under the Act from the Violence Against Women Office 
within the Department of Justice. The administration of Federal 
programs to tribal governments must comply with this legal context. As 
such, the development of policies and grant program guidelines 
according to state-based models is not only inappropriate, but also 
ineffective in the creation and implementation of an effective response 
to domestic violence, sexual assault and stalking against Native women. 
Furthermore, in order to properly administer tribal set-aside funds, it 
is necessary to keep in mind the special relationship between Indian 
tribes and the Federal Government, and the confusing jurisdictional 
realities in Indian country. This is also essential in the development 
of appropriate model codes, protocols, public education awareness 
materials, research, and training.
    Increasing the response of Indian tribes and tribal law enforcement 
to domestic violence and sexual assault requires understanding the 
complexity of the jurisdictional maze created by Federal Indian law, 
the appropriate protocol for implementing government-to-government 
programmatic and administrative matters, and the management of funds 
set aside for Indian Nations. The new statutorily created Deputy 
Director for Tribal Affairs must be involved with any initiatives to 
address and enhance the response of tribal law enforcement to domestic 
violence and sexual assault. The authorities, responsibilities and 
expertise of the Deputy Director will be essential to the success of 
any initiative to increase the safety of Indian women and respond to 
such crimes. However, we want to stress that the Department of 
Justice's responsibilities should not end with the creation of this 
office. This is merely an important first step among many that need to 
be taken to adequately address the horrific levels of violence 
perpetrated against Indian women.
VI. Conclusion.
    In 1994, Congress enacted the Violence Against Women Act 
recognizing the extent and severity of violence against women. Over the 
last eleven years, the Act has significantly increased the ability of 
Indian Nations, tribal law enforcement agencies, and advocacy 
organizations to assist Indian women and hold perpetrators of domestic 
violence, sexual assault, and stalking accountable for their crimes.
    VAWA 2005, specifically Title IX, represents a historic turning 
point in United States history in the recognition by the United States 
of its unique legal responsibility to assist Indian tribes in 
safeguarding the lives of Indian women. Addressing the needs and 
challenges confronting Indian tribes and tribal law enforcement in 
adequately responding to crimes of violence against Indian women under 
VAWA 2005 requires the full involvement of all agencies in the 
coordinated governmental implementation of the Act.
    Given the crisis in the lives of Indian women and the present lack 
of adequate resources to properly safeguard Indian women, \10\ it is 
clear that more must be done at every level, from increasing funding 
through the Office on Violence Against Women, to better coordinating 
the handling of cases by the FBI and United States Attorneys, to 
addressing the problematic release of perpetrators by the Bureau of 
Prisons. If action is taken at every level, we can improve efforts to 
create a more responsive Federal criminal justice system, and we can 
enhance tribes' ability to safeguard their citizens and communities. In 
conclusion, Federal agencies must work on a government-to-government 
basis with Indian Nations, specifically tribal law enforcement, 
prosecutors and courts to hold perpetrators of such crimes accountable.
---------------------------------------------------------------------------
    \10\ See A Quiet Crisis: Federal Funding and Unmet Needs in Indian 
Country, U.S. Comm. On Civ. Rights, available at http://www.usccr.gov/
pubs/na0703/na0204.pdf.
---------------------------------------------------------------------------
    The advances made under VAWA 2005 have the potential to further the 
progress made toward a time when the honored status of Indian women is 
restored and all women will live free of violence.

    The Chairman. Ms. Artichoker, thank you very much. We 
appreciate your testimony.
    Finally, Mr. Riyaz Kanji, from Ann Arbor, Michigan. Mr. 
Kanji, you may proceed.

         STATEMENT OF RIYAZ A. KANJI, KANJI AND KATZEN

    Mr. Kanji. Thank you, Chairman Dorgan. I very much 
appreciate the invitation to appear before the Committee this 
morning. By way of a very brief background, I clerked for 
Justice David Souter on the U.S. Supreme Court in the October 
Term, 1994. And I have practiced and taught in the field of 
Federal Indian law ever since. Much of my work focuses on the 
Supreme Court's Indian law jurisprudence.
    The other witnesses before this Committee this morning have 
testified I think in very eloquent terms about the tremendous 
problems that arise from the fact that tribes presently do not 
enjoy criminal jurisdiction over non-Indians. I am here to 
address the question whether this Congress has the 
constitutional authority to take meaningful action in the face 
of those problems by restoring to tribes the sovereign power to 
exercise criminal jurisdiction over non-Indians. I think the 
answer to that question, as the Supreme Court made clear in its 
recent decision in the United States v. Lara case is an 
emphatic yes. Lara reaffirmed several fundamental tenets of 
Federal Indian law. First, that Congress has very broad powers 
to legislate with respect to Indian affairs. Those powers are 
grounded in what is known as the Indian Commerce Clause, which 
is found in Article I, Section 8 of the Constitution. And the 
Court has long described those powers as being plenary and 
exclusive. Second, the Court observed that Congress has 
historically exercised those powers both to restrict and in 
turn to relax those restrictions on the tribe's sovereign 
authority. Neither Congress nor the Court has viewed Congress' 
plenary powers as being a one-way ratchet. Those powers may be 
used both to expand and to contract tribal sovereignty. And 
indeed, there exist no textual limitations in the Constitution 
on Congress' power to restore sovereign powers to the tribes.
    Third, the Court held that the ability of tribes to control 
events taking place in their own territories, including through 
the maintenance of the criminal justice system, is an inherent 
attribute of tribal sovereignty, such that there is nothing 
unconstitutional or remarkable about Congressional action 
designed to restore to tribes the ability to do just that.
    I think the history behind the Lara decision is 
instructive. The limitations in the modern era on the tribes' 
criminal powers have stemmed in significant part from two 
Supreme Court decisions that predated Lara. The first of these 
was the 1978 decision in Oliphant v. Suquamish Tribe, where the 
Court examined an array of statutes, treaties and other legal 
materials and concluded that, taken together, those legislative 
and executive branch actions had operated to divest tribes of 
their criminal jurisdiction over non-Indians.
    In the 1990 case of Duro v. Reina, the Court likewise 
concluded that the tribes had been divested of jurisdiction to 
prosecute Indians who are not members of the prosecuting tribe. 
The Duro decision prompted an immediate response from Congress, 
which within a year enacted legislation that came to be known 
as the Duro fix. That legislation provided that the tribes' 
powers of self-government include the inherent power to 
exercise criminal jurisdiction over all Indians. That 
legislation in turn was challenged by criminal defendants who 
argued that both Oliphant and Duro were constitutional 
decisions that were not subject to modification by Congress.
    In its 2004 decision in Lara, the Court emphatically 
rejected that argument. After reaffirming the plenary powers of 
Congress, the Court stated in no uncertain terms that both 
Oliphant and Duro are in the Court's words, Federal common law 
decisions that are subject to Congressional modification. As 
the Court said, those decisions simply ``reflect the Court's 
view of the tribes' retained sovereign status at the time the 
Court made them. They did not set forth constitutional limits 
that prohibit Congress from taking actions that modify or 
adjust the tribe's status.'' I think it bears mention that the 
Lara majority was joined by then Chief Justice Rehnquist, who 
had authored the Oliphant decision.
    Lara is subject to one very important caveat. The Court 
reserved the question whether Congress can authorize tribes to 
prosecute either non-Indians or non-member Indians absent the 
full panoply of due process protections that apply in Federal 
and State courts. Most of those protections already apply in 
tribal court as well by virtue of the Indian Civil Rights Act. 
But there are exceptions, most notably the right of indigent 
defendants to counsel.
    It is my strong view that any Congressional legislation 
restoring to the tribes criminal jurisdiction over non-Indians 
should include the full panoply of due process protections. 
Otherwise, I think there is a strong chance that the present 
Court would strike down the legislation.
    Lara is an extremely important decision. A Court that is 
widely viewed as being highly jealous of its own prerogatives 
reaffirmed the notion that Congress has the ultimate authority 
over Indian affairs, and Lara, I think, is the right decision. 
The field of Federal, State, tribal relations is far too 
complicated and nuanced to be ultimately controlled by the 
inevitable constraints that exist on judicial decisionmaking. 
The Oliphant decision, as we have heard, has contributed to 
disastrous results in Indian Country. But in Lara, at least the 
Court made it clear that Congress has the power to act to 
improve the situation.
    Thank you again for the opportunity to appear here this 
morning.
    [The prepared statement of Mr. Kanji follows:]

         Prepared Statement of Riyaz A. Kanji, Kanji and Katzen

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mr. Kanji, thank you very much.
    Let me ask a couple of questions and then I will call on my 
colleagues. My understanding is that when on an Indian 
reservation, a non-Indian commits a crime, in this case let's 
describe it as violence against women, rape or sexual assault, 
that that then has to be dealt with by the U.S. Attorney, 
right, or law enforcement off the reservation, is that correct?
    Mr. Kanji. That is largely correct, Mr. Chairman, except in 
the Public Law 280 States where the States would have criminal 
jurisdiction.
    The Chairman. And there have been complaints to our 
Committee and there have been references in research that has 
been done, articles written, that often those cases are not 
pursued with great vigor, those cases are not given priority. 
You refer to that, Ms. Young and Ms. Artichoker, in your 
testimony. Describe that and your concern about that again.
    Ms. Artichoker. Well, I think there is interplay and 
dynamic there. One, we have a community now that believes 
nothing will be done. So there is the, we have a no reporting 
problem. People are not reporting. Nothing is going to happen 
anyway. And then, if you do have situations where it is 
reported and I can share a personal situation where a young 
woman came to me, she had been raped in her own home, in her 
own bed. And she had reported it, she said the criminal 
investigator told her, sounds to me like you need to change 
your lifestyle.
    So she came to me and she said, can you advocate for me, I 
want this to go to court, I want to testify, I want to tell my 
story. And so I called the FBI, and I was told that she was so 
drunk she didn't know whether she gave consent or not. So this 
interplay also with alcohol use and where most often we are 
going to see alcohol involved in these situations. So there is 
an attitude issue around alcohol use, especially on the part of 
women. And then you have again how that moves down into the 
community to what is the point in reporting. So we have a 
domino effect.
    And so we don't see them prioritizing these cases then, 
because everyone is related, nobody is going to testify. In the 
end, the addiction issue is going to be too great, it might 
prohibit a family's really being able to support someone. So it 
just goes on and on and on.
    The Chairman. Ms. Young?
    Ms. Young. In small communities, when women attempt to make 
reports, they are oftentimes forced to give their story over 
the telephone. That in and of itself creates a lot of barriers. 
We have a young woman in a small village, about 150 people, 
called not just once, but three different times, feeling as 
though may be they didn't understand what she was explaining to 
them, what had actually happened. An entire year went by and no 
response other than the interview on the phone. No other person 
was contacted.
    When you are in a small community like that, you know who 
your perpetrator is. To give some context to that, if you do 
find your way to a court situation and to the sentencing piece, 
I have sat in court while mothers and aunties and grandmothers 
are asked for their input before the sentencing happens. And 
these women are standing up and saying to the judge, please, 
don't allow them to come back to our community, please when 
they get out of jail, which generally is a short amount of 
time.
    But probation, they generally end up back in our same 
communities. The perpetrator of my own daughter lives about 
four blocks away from me. And on an ongoing basis, if I am in 
my yard, he is sitting across the street at his aunt and 
uncle's house, watching me. So not only do they have the 
opportunity to stalk and prey on young women int eh community, 
but afterwards they terrorize family members.
    The Chairman. It seems to me that the three areas that have 
been discussed here include one, the lack of adequate medical 
treatment and perhaps the gathering and development of evidence 
in the medical treatment shortly after a sexual assault, rape 
kits and so on, the availability of all of that. Second, the 
concern about the lack of aggression by investigators or the 
investigation itself in some cases not taken seriously. In 
other cases it is tied up over the labyrinth of issues about 
who has jurisdiction and so on. And third, the concern about 
the lack of aggressiveness in the prosecution or even 
determining whether it will be prosecuted. Are those accurately 
pretty much the three ares that are of great concern?
    And then as you think about that and answer that, Ms. 
Arriaga, it has been very difficult to get data or statistics 
about what has happened, and Amnesty International did gather 
data and statistics. Tell us how you did that? And how 
confident are you in the information that you have developed?
    Ms. Arriaga. Well, the data that we gathered was a 
combination. Part of it was looking at what does exist and 
trying to find out what exists. As I sated, some of this was 
statistics that the Department of Justice does have, general 
statistics that they have.
    But the specifics are still severely lacking. We believe 
that it is important that for data collection, that there be 
much more done. As I said, there are no statistics right now on 
specifically sexual violence in Indian Country or Alaska Native 
villages. Federal, State and tribal authorities should be 
collecting this information. The U.S. Attorney's Office should 
be looking to see which cases are reported and referred, which 
ones are declined and for what reasons, what the specifics are 
about the case, whether the perpetrator or the victim is non-
Indian. None of that is currently taking place as far as we can 
tell. Amnesty did request that kind of information from the 
U.S. Attorney's Office and it was not provided to us. Perhaps 
the Congress would have more success in that area to determine 
whether or not this is happening in a systematic way.
    In addition, there should be information that is collected 
about the severity of the issue. And for this I would really 
look to my colleagues here, because we relied heavily with 
advocates to get a sense from their communities and from their 
experience about what in fact is the reality. So much of the 
research we did was based on interviews. And I know that in the 
case of the Violence Against Women Act there are some specific 
areas there that may speak to this. So I would really defer to 
my colleagues on that as well.
    The Chairman. Thank you very much.
    I am going to defer to my colleagues for questions. But Mr. 
Kanji, your testimony is going to be very helpful to us. And I 
hope that you will remain available to us as we reach out 
following this hearing to try to think through and work through 
some of these issues. So I thank you very much for your 
testimony.
    Senator Murkowski?
    Senator Murkowski. Thank you, Mr. Chairman. And to followup 
with your line there in terms of the three areas that we are 
breaking down, when you think about the law enforcement aspect 
and the tangled mess that we have, the maze, as Amnesty calls 
it, we recognize that today, this month, this year, we are 
probably not going to unravel that. We desperately need to 
address it.
    But there are some things that I think that we can do now 
that can make a difference. For instance, the collection of the 
forensic evidence. If this is causing a problem or not allowing 
prosecutions to go forward, and it is because we don't have the 
sexual assault nurse examiner available or trained, we can do 
that. If it is an issue where we don't have the professionals 
that are out there, we don't have access to them, we can work 
on aspects of that.
    I understand, though, that part of the problem, and Ms. 
Young, maybe you can address this, is that IHS nurses can get 
the same training to be a sexual assault nurse examiners. But 
they have to take time off from their regular duties for the 
training, they have to pay their own transportation to the 
training locations. So if you are coming from a small community 
in southeast or out in western Alaska, and you have to fly into 
Anchorage for the training and you have to pay for that out of 
pocket, you and I know that you are talking $500, $600, $700 
just for that, and that they then also receive no overtime pay 
for what they are doing as a SANE examiner.
    To me, these are barriers that keep individuals from moving 
forward and saying, okay, I will help out. We need to remove 
those barriers. We need to help with that.
    I want to ask a question, because it has been mentioned, 
Ms. Rozell, in your testimony and both Ms. Artichoker and Ms. 
Young, you have spoken to it. The fact that in so many of the 
communities, the villages in Alaska or on the reservations, you 
are talking about close-knit communities. Everybody knows 
everybody. You are related to half the people in the village. 
and when violence occurs, there oftentimes is well, don't go 
after him, he is Uncle So and So, or everybody knows him. And 
there is a hesitancy because of that closeness.
    There is also nowhere to go. In too many of our villages, 
there is no road out of town. The only way out is an airplane 
that is cost prohibitive. So we have geographical barriers that 
are inhibiting. Do you have any suggestions for us? How do we 
deal with these close-knit communities in providing for a level 
of protection? When you go into the clinic for an exam, where 
is your perpetrator? Are there any suggestions that you can 
give us as we deal with these kinds of problems?
    Ms. Young. This has been something that we have talked 
about at great length. When we have the opportunity for women 
to be provided an exam, a rape exam, many times they have to 
leave the community. It is the only way.
    Senator Murkowski. I know that in some areas we are trying 
to provide transportation funding to get the woman to a hub 
community so there is a safe house.
    Ms. Young. Yes. In some communities there are safe homes, 
and more used for the domestic violence piece than for the 
sexual assault piece. One of the conversations that we have 
been having is around the issue of protection orders for 
victims of sexual violence, especially in small communities. Of 
course, this is after the exam is happening.
    One of the largest pieces for us is that in small 
communities, community health aides are the only form of 
medical provider. At this point in time, they have no training 
to provide this. This next coming month, we will be meeting 
with the trainers for the community health aides to have this 
very conversation: how can we get them trained and also at what 
level of liability are we talking about.
    Generally speaking, when you start talking about medical, 
that is the very first issue that folks want to address. Even 
in the community that I live in, in Sitka, we had the 
opportunity to develop a SART team, a sexual assault response 
team. And it took us three and a half years of dialogue to 
figure out at which hospital, because there was a non-Native 
and a Native hospital. And even after all of that conversation, 
the program only stayed in place for a little less than 2 
years.
    Senator Murkowski. Ms. Artichoker?
    Ms. Artichoker. On the Pine Ridge, we just built a 
beautiful new shelter. And of course, we serve victims of 
domestic violence and sexual assault. And through then the 
shelter, we are coordinating to get, for instance, recently a 
young woman was gang raped as part of a gang initiation. Her 
choices were to be assaulted physically with fists or to be 
sexually assaulted. She chose to be sexually assaulted, after 
which she became psychotic.
    So using the shelter then, and shelter advocates, we have 
become sort of the hub to refer out and would like to be able 
to expand our resource base so that we could really provide 
substantive services to both victims of domestic violence and 
sexual assault, knowing that most women who are battered are 
also victimized by sexual violence.
    So we are thinking that we don't really, our communities 
are small, we don't need to go the route of having a separate 
domestic violence movement, a separate sexual assault movement. 
We need to be able to do both. We would really like to see some 
community-based pilot projects where we could have a women's 
advocacy center that would provide a forensic exam, an 
advocate, a mental health professional. Because quite honestly, 
we do see a lot of women becoming psychotic following sexual 
assault.
    Senator Murkowski. You mentioned that you have a nice, new 
shelter in Pine Ridge.
    Ms. Artichoker. Yes.
    Senator Murkowski. What is the condition of shelters in the 
other areas in your state?
    Ms. Artichoker. Well, in the State of South Dakota, 
actually, it is quite good. We have been working as private 
non-profits in our communities for many, many years.
    However, the rest of Indian nations, we have only been able 
to identify about 30 shelters. So that is one of the reasons 
why we are constantly saying we need construction dollars, we 
need to be able to build in our communities, because the 
infrastructure is not there. And it is only with the help of 
the Shakopee Mdewakanton Sioux community that we were able to 
build our shelter.
    So prior to that, we had people sleeping on the floor like 
cordwood. We say like cordwood, because we had a two-bedroom 
shelter. Now we can accommodate 36 people, and I think for us, 
we are looking at a continuum of services, so that you can 
remain in your community but in some sheltered space. We want 
transitional housing. We want the capacity to shelter women for 
long term so they can get the support that they need. Because 
otherwise you are out there and people are nattering at you 
that, how dare you, you need to not testify and there is the 
family feuds that occur when these crimes are committed.
    So we would really like to see a continuum of services. 
Many times women will be homeless as a result of sexual assault 
or domestic violence. This past summer, we had a tipi up for a 
women's mental health program. We put up this tipi. We had one 
woman come and ask if she and her children could live in the 
tipi for the summer. We had another woman who was living down 
by the creek in a tent with her children. We had one woman 
living in an abandoned trailer house with her teenage son.
    So the housing issue is really problematic, and it doesn't 
lend to families being able to support each other in these 
really stressful situations.
    Senator Murkowski. Thank you, Mr. Chairman. My time is up.
    The Chairman. Thank you, Senator Murkowski.
    Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I appreciate 
everybody who has testified here today on an issue that is more 
than just a little bit distressing. I have several questions, 
and I want to say, before I get into questions that Ms. Rozell, 
I particularly appreciate your testimony and the fact that you 
were able to even do it. And I think it is--I can't imagine how 
difficult. But I really appreciate your being able to come here 
today.
    I guess I will start with Mr. Kanji. And it deals with, as 
I am sitting here listening to testimony, you have actions 
against Indian women that could be by an Indian, by a non-
Indian, it could be on tribal land, it could be off tribal 
land. Is the jurisdiction clear, or do we need to clarify that, 
and can we clarify it, if it is not clear?
    Mr. Kanji. Thank you, Senator.
    First off, the jurisdictional problems are certainly very, 
I think there is nothing clear about the jurisdiction when it 
comes to criminal actions in Indian Country, partly because of 
the maze of Congressional statutes and partly because of the 
court decisions that I described. I think that Congress 
certainly can do a great deal to help clarify the 
jurisdictional situation. Because of time constraints, I 
limited my remarks to one aspect of that, expanding the tribes' 
criminal jurisdiction to include non-Indians.
    But there are several other very important steps that 
Congress could take, I think, that would help greatly in this 
situation. First and foremost, as you noted, certainly a good 
deal of these crimes are committed by tribal members against 
other tribal members. I think the statistics suggest that the 
majority are committed by non-Indians. But we certainly have an 
important quota of crimes that are committed by Indian 
defendants. And there the problem is that the Indian Civil 
Rights Act limits tribal sentences to 1 year in jail and a 
$5,000 fine. So even when a tribe is prosecuting one of its own 
members for a violent crime, it is severely constrained in the 
punishment that it can mete out.
    And many of the terrible stories that one hears are about 
tribal members in their own communities wreaking havoc and 
being sentenced to jail for a year and then coming right back 
out and doing it again and again and again. That is a terrible 
situation and that is certainly something where Congress could 
act to increase that ceiling and increase that limit.
    I think Congress can also act to provide incentives for the 
sort of Federal-State-tribal cooperation that has also been 
discussed and that I think can be very helpful in situations 
where there is inevitably going to be jurisdictional overlap. I 
think there has been a great deal of success in recent years in 
tribes and States forging cooperative agreements in certain 
parts of the Country to work together on criminal 
investigations, criminal prosecutions, the cross-deputization 
of police officers being a prime example. Chairman Dorgan 
referred to U.S. Attorney Troy Eid and his program in Colorado, 
where Federal commissions have been provided to State and 
tribal officers.
    Those are all very good things. But by and large they are 
happening in a very local way in certain pockets of the country 
and not in others. I think if Congress were to provide 
incentives for that form of agreement, cooperation, that could 
be very helpful. In the State of Wisconsin, there has been a 
State program where the State has provided additional funding 
to those counties that enter into cooperative agreements with 
tribes. And what we have seen there is that the number of those 
cooperative agreements has grown exponentially. And from what I 
have heard, the experience has been a very positive one. So 
that is the second thing that Congress can do.
    A third thing I think would be to--we haven't talked very 
much about the Public Law 280 States, but the States where by 
virtue of Public Law 280 the States have primary criminal 
jurisdiction, even with respect to Indian territories. There 
again, as with the Federal situation, the situation has been 
very mixed, but we have a lot of States, counties where the 
State authorities are not terribly interested in prosecuting 
these kinds of crimes. And if Congress were to act to make 
clear that the tribes have concurrent jurisdiction in those 
situations, so the tribes can act, whether or not the States 
are acting, that would again eliminate a jurisdictional problem 
and provide for increased enforcement and prosecution.
    Senator Tester. Thank you. I appreciate that.
    I want to go to the other end of the panel. Ms. Arriaga, at 
the end of your testimony you said that crimes against Indian 
women were human rights abuses. Then you said that the United 
States had, the way I interpreted it, signed up with other 
nationalities, so to speak, but had not done anything with 
Native Americans. Could you expand on that a little bit, to 
give me a little better understanding of what exactly you are 
talking about?
    Ms. Arriaga. What I was referring to was basically 
international law, which treaties we have ratified and which we 
have not that are international treaties. And what 
international human rights law is with regard to issues of 
sexual violence. So in that category, there are several 
categories that the United States has entered into that are 
generally United Nations treaties that are the standard that, 
the standard-setter for human rights worldwide and the guiding 
post that Amnesty uses.
    Amnesty International holds any government accountable to 
certain standards. That is what the treaties lay out. So in 
accordance with international law, these are in fact human 
rights abuses. In some cases, some parts of the world, when you 
talk about violence against women, it is considered cultural. 
It is not cultural, it is a crime. It is an abuse.
    So that is why these standards exist, so that you can 
actually cut through and say, no, there are minimal standards 
and we have to recognize them. So some of the treaties that the 
United States has in fact ratified that apply would be, for 
example, the International Covenant on Civil and Political 
Rights. There may be some aspects of some other treaties that 
apply, too.
    One that we have not ratified is the Convention on the 
Elimination of All Forms of Discrimination Against Women. One 
hundred eighty-five countries have, but the United States has 
not. The United States is one of eight countries that has not, 
even though we were instrumental in drafting that treaty. So 
that is one that looks at issues of discrimination and Amnesty 
believes that discrimination is a root cause of violence. Once 
you establish relationships that are unequal it becomes a lot 
easier to conduct violence. So that is one of our 
recommendations.
    The other thing that I will mention very quickly is that 
the United Nations did pass just recently, of course there is 
the U.N. Declaration on the Rights of Indigenous Peoples. But 
specifically in September of this year, the U.N. General 
Assembly adopted the Declaration and that calls on all State 
governments to, and then in quotations, ``consult and cooperate 
in good faith with the indigenous peoples' concerns through 
their own representative institutions in order to obtain their 
free, prior and informed consent before adopting and 
implementing legislative or administrative measures that may 
affect them.''
    So that is why Amnesty believes that the first step is to 
have a genuine consultation in good faith in order to determine 
with the tribal governments how to go forward.
    Senator Tester. Okay. Thank you very much. I appreciate 
that.
    I just have--well, I have many more questions, but I am 
going to limit it to one more. It was something that Tammy 
Young said about the clergy being part of the problem, if that 
is what I heard. I am curious to know if you can expand on that 
a little bit because oftentimes that is the first place you 
turn.
    Ms. Young. Yes. As part of our packet that we submitted, 
there was about 105 pages of news articles that have been in 
the Anchorage, Fairbanks and other newspapers in Alaska. 
Several of them talk about a progression of years of abuse that 
both men and women as adults are coming forward.
    When we talk about the effect of sexual violence and the 
reality that it is a multi-generational situation for many of 
our families, it is important for us to know where it is coming 
from.
    Senator Tester. Very good. Thank you. Once again, thank 
you, Mr. Chairman. I appreciate your putting this hearing 
together and the staff helping on that.
    In a short close, I hope this isn't the last conversation, 
I hope it is the first of many, and I hope that we come forth 
with some policy initiatives that will really help, take some 
serious inroads to give hope back to Indian Country in this 
particular area. So thank you all for testifying.
    [The prepared statement of Senator Tester follows:]

    Prepared Statement of Hon. Jon Tester, U.S. Senator from Montana
    Thank you for holding this important markup and hearing today, Mr. 
Chairman. We address several critical issues in Indian Country; 
housing, violence against Indian women and others.
    I first want to recognize and thank all the folks in this room who 
have been working on these bills. I know that some of you have been 
working for years on them and want to thank your for dedication and 
hard work. I think all of us in this room have similar goals for our 
work on this Committee. And that, Mr. Chairman, is to improve 
conditions in Indian Country. We don't always agree on exactly how to 
accomplish those goals but, it's comforting to know that we're moving 
in the right direction.
    Mr. Chairman, some folks, including Montanans, do have some 
concerns remaining with the NAHASDA bill. But, rather than slow down 
the momentum of this critical bill, I'll vote to pass it and hope that 
our staffs can work together on some report language or something to 
make sure that this bill translates into better housing in Indian 
Country for as many people as possible. I want to make sure that we 
improve conditions for everybody; not just \2/3\ of the people, or \1/
3\ of the people, but for everybody.
    Regarding the hearing this morning, Mr. Chairman, I can't thank you 
enough for shedding Congressional light on this critical issue. As you 
know, Indian women suffer from much greater rates of violence than non-
Indians. This is outrageous. Mr. Chairman, Indians face too many 
challenges already. Indian women should not have to live in pain and 
fear.
    I stand committed to doing everything possible to remove this 
damaging element of Indian life. I encourage everybody in this room to 
continue working together closely to solve problems and improve 
conditions in Indian Country. We can't afford to wait. While we 
deliberate, Indians suffer. Mr. Chairman, I'm going to vote to pass 
these bills today because they represent another step forward in 
improving Indian Country and look forward to future work.

    The Chairman. Senator Tester, thank you.
    Let me just say you have, as a first term Senator, just 
arrived, you have been a great addition to our Committee. We 
appreciate your participation. You come from a State that has 
reservations, I visited one with you and I know you care about 
those issues deeply. So Senator Murkowski and I are really 
appreciative of your participation.
    And let me echo your comments to Ms. Rozell. It is, I am 
sure, very difficult to be public about these issues. And yet I 
suspect that you know that doing so is really advocating on 
behalf of others who perhaps can't or won't or feel that they 
are not able to do what you are able to do. So the Committee 
really appreciates your being here.
    The work that Amnesty International has done, I think, is 
very important work. And I hope you will continue to do that, 
because I think it will be very instructive for us. To Ms. 
Young and Ms. Artichoker, your work at the local level is also, 
I am sure, work that gives hope to some people who have 
desperately needed that hope.
    Mr. Kanji, we are going to call on you, we are trying to 
work through this maze of contradiction and conflict to see 
what could we do that could address some of these 
jurisdictional issues in a way that recognizes, continues 
always to recognize the sovereignty issue. But in a way that 
reaches out and helps tribal governments with respect to their 
law enforcement and helps victims understand that if they are 
victimized, perpetrators will be brought to justice. That is 
very important.
    So this is another of a series of hearings that we have 
held on these issues, law enforcement, violence, in this case 
violence against women. And Senator Murkowski and I were just 
talking about several other steps that we are hoping to take to 
both gather data and develop the basis on which to consult with 
tribes, which is very important to us. But second, then, reach 
consensus about what those consultations could allow all of us 
to do in concert that will address these issues in a meaningful 
way.
    Senator Murkowski, do you have any final comments?
    Senator Murkowski. I do, Mr. Chairman. I think we are all 
troubled, troubled is a mild word. The violence that we see 
against women in this Country we know is simply not acceptable. 
And I applaud those that dedicate their lief as advocates to 
help end domestic violence.
    But I am so troubled, Mr. Chairman, that within that sector 
of violence against women that our stories, because I don't 
want to even go to the statistics, we know our statistics are 
what drives it, we have to have the data. But it is really the 
stories of the violence directed toward American Indian and 
Alaska Native women. This subset of women, where we see the 
statistics doubled and tripled, to know that in my State, if 
you are a Native woman, the statistics, the chances of you 
being raped are two and a half times more than if you are a 
non-Native woman. Same place, same people around you, but if 
you are a Native, then the chances that you are going to be a 
victim are that much greater.
    And it hurts to hear some of the stereotypes. But we have 
to figure out how we can provide for a level of protection, a 
level of safety for all women. But to know that within our 
American Indian and our Alaska Native communities that women 
are simply not safe is just not acceptable, Mr. Chairman. I 
appreciate the efforts of so many. But we have to get beyond 
just saying, thank you for the good work that you do. We really 
have to turn this around for the people in Alaska and the 
people all over Indian Country.
    The Chairman. Senator Murkowski, thank you very much.
    Let me make one additional comment. I was thinking about a 
hearing I held in this area, not just about women, but the area 
of sexual abuse. And I held that hearing in North Dakota some 
long while ago. And a young woman testified who was in charge, 
on one of our reservations, of social services and various 
issues related to that. And she was a woman in her mid-20's, 
had just taken that job. And she began testifying and she 
described a stack of folders in her office on the floor that 
represented complaints, in some cases sexual violence against 
children. She said the complaints have not even been 
investigated, there is nobody to investigate them. And then she 
said, if there is a young child who needs to go to a clinic for 
some tests or some medical treatment, she said, I have to go 
beg to borrow somebody's car to take them.
    Then all of a sudden she stopped testifying, she broke down 
sobbing and couldn't continue, just couldn't continue. She was 
so struck with grief about her situation. And a month or two 
later, she quit her job. But it describes why we are here and 
why there is an urgency and a need for us not to ignore this, 
but rather to address it. I am committed, I know Senator 
Murkowski and Senator Tester are as well, to make this hearing 
count and attempt to make some real progress.
    I thank you very much for testifying. This hearing is 
adjourned.
    [Whereupon, at 10:39 a.m., the Committee was adjourned.]

                            A P P E N D I X

    Prepared Statement of Charon Asetoyer, M.A. (Comanche Nation); 
 Executive Director, Native American Women's Health Education Resource 
                                 Center
    I would like to submit this testimony for the record to the Senate 
Indian Affairs Committee: Oversight Hearing to Examine Violence Against 
Native American Women that was held on September 27, 2007. Violence 
against women is against the law and that include crimes of sexual 
violence. Our history has illustrated that patterns of sexual violence 
against Native American and Alaska Native women occurs against a 
backdrop of systemic discrimination against Indigenous Peoples. When a 
Native woman suffers abuse, this abuse is not just an attack on her 
identity as a woman, but on her identity as Native.
    The Fourteenth Amendment of the U.S. Constitution guarantees all 
Americans equal protection under the law. This means that the 
government has a legal obligation to intervene in sexual assault crimes 
against Native American and Alaska Native women just as it responds to 
sexual violence against other Americans. Failure to do so would be 
unconstitutional racial discrimination.
    More than 1 in 3--Native American and Alaska Native women will be 
raped during their lifetime. Sexual assault against Native American and 
Alaska Native women is not met with uniform response and the challenges 
faced by survivors at every level increases the likelihood of impunity 
for perpetrators.
    In January 2005 the Native American Women's Health Education 
Resource Center released a report entitled A Survey of Sexual Assault 
Policy and Protocols Within Indian Health Service Emergency Rooms. The 
Resource Center has put together this briefing paper on emergency room 
services and policies for Native American and Alaska Native women who 
go to an Indian Health Service facility for assistance after a rape or 
sexual assault. The findings of this survey are alarming and document a 
substantial gap in services.

  <bullet> 30 percent of Service Units surveyed reported that they do 
        not have policies in place for emergency services in case of 
        sexual assault.

  <bullet> 70 percent of the respondents indicated they have policies.

  <bullet> 56 percent of Service Units have their policies posted and 
        accessible to staff members. The statistics reflect a 
        discrepancy between policy and practice.

  <bullet> 44 percent of the facilities lacked trained personnel to 
        perform emergency services such as the collection of evidence 
        done in a police rape kit. For those facilities in the lower 48 
        states that do not provide emergency services for sexual 
        assault, victims must travel long distance some over 150 miles 
        to receive services. This figure does not include the extreme 
        travel distances and challenges faced by Alaska Native women.

    Indian Health Services could greatly reduce the number of sexual 
assaults within our communities if they would have trained Sexual 
Assault Nurse Examiners (SANE) and Sexual Assault Response Team (SART) 
programs within each Service Unit. A Sexual Assault Nurse Examiner is a 
registered nurse who has been specifically trained to provide care to 
victims of sexual assault and is capable of conducting forensic exams. 
In addition, a SANE collects the forensic evidence that is needed in 
court to get a conviction that would remove these perpetrators from our 
communities. Many of these perpetrators are repeat offenders and they 
know that nothing is being done to remove them from the streets so they 
are free to rape again and they do.
    To strengthen the services provided to victims of sexual assault 
Indian Health Services must adopt a set of standardized Sexual Assault 
Policies and Protocols within Indian Health Service Emergency Rooms and 
all clinical facilities with SANE in place. This would dramatically 
reduce the number of perpetrators that on our streets.
    Over the past 5 years Native American and Alaska Native women and a 
coalition of national organizations have been working to develop a set 
of Sexual Assault Policies and Protocols for Indian Health Service 
Emergency Rooms.
    In 2005 this coalition took these policies and protocols to the 
National Congress of American Indians and NCAI passed Resolution #TUL-
05-101 in support of adoption and implementation of these standardized 
sexual assault policies and protocols.
    When Indian Health Service is asked about standardized sexual 
assault policies and protocols their repeated response is that they 
respect the sovereignty of Tribes and IHS does not impose standardized 
policies. With the passage of this resolution, which is a collective 
decision of sovereign Tribes, IHS stills does not implement 
standardized sexual assault policies and protocols. This is not 
respecting the decision or the sovereignty of Tribes, it is undermining 
the sovereignty of Tribes to work together.
    IHS does not have standardized sexual assault policies and 
protocols in place; in addition the current process for approving a 
witness to testify in court, which is essential in order to get a 
conviction of a rapist, is so complicated that it does not occur. The 
request for an IHS staff to testify in court has to go through so many 
levels of approval that by the time it gets to Head Quarters it gets 
lost into some kind of a ``black hole'' never to be responded to or 
that it is so timely that the prosecution has no one to testify on the 
evidence and the case is lost, leaving the perpetrator to rape again.
    To reduce the number of rapes that occur within Native American and 
Alaska Native communities the follow must happen:

        1. Indian Health Service must adopt and implement Standardized 
        Sexual Assault Policies and Protocols.

        2. Train and place existing staff to become Sexual Assault 
        Nurse Examiners (SANE) in all Indian Health Service Clinic 
        Facilities.

        3. Ensure that police rape kits are available all Indian Health 
        Service clinics and facilities.

        4. Simplify the witness testimony approval process, which 
        currently prohibits needed court testimony from the appropriate 
        medical personnel.

        5. Modify the method of service unit collection data by giving 
        sexual assault it's own category number so there are accurate 
        statistics on the number of sexual assaults committed.
                                 ______
                                 
 Prepared Statement of Dorma L. Sahneyah, Chief Prosecutor, Hopi Tribe
    Good morning, Honorable Byron L. Dorgan, Chairman, Honorable Lisa 
Murkowski, Vice Chairman, and members of the U.S. Senate Committee on 
Indian Affairs, I am honored to present testimony today before the 
Committee.
    I bring greetings to all from the Hopi and Tewa people and Chairman 
Benjamin H. Nuvamsa.
    My name is Dorma L. Sahneyah. I am an enrolled member of the Hopi 
Tribe and belong to the Tewa Tobacco Clan on my mother's side. I serve 
the Hopi Tribe as Chief Prosecutor, a position I have held for almost 
11 years after having completed my legal education at the Arizona State 
University School of Law. I currently also serve as President of the 
Arizona Tribal Prosecutors' Association.
    The Hopi Tribe is a federally recognized tribe located in the State 
of Arizona. The Hopi Reservation, which consists of 1.5 million acres 
of land that extends into two counties, is located in the arid deserts 
of northeastern Arizona. As with other American Indian tribes that are 
located in remote areas, the Hopi Tribe faces many challenges and 
obstacles in keeping our community, particularly our women and 
children, safe from perpetrators of crime.
    The Hopi Tribe is a non-gaming tribe that has over the past years 
relied primarily on revenue from coal mining operations to support 
government-based programs and services. The Tribe is however 
anticipating a shortfall of almost $8 million in Fiscal Year 2008 due 
to decreased revenue from the sale of coal from our lands. The Tribe is 
therefore reluctant to contract under Public Law 93-638 (The Indian 
Self-Determination Act) law enforcement programs from the Bureau of 
Indian Affairs (BIA) because it does not have adequate tribal funding 
to supplement what it anticipates will be an inadequate law enforcement 
budget. The BIA therefore continues to directly administer corrections, 
criminal investigations, and police services on Hopi. Today, ten BIA 
police officers patrol the entire reservation, and working three shifts 
means that often only one police officer is working an entire shift 
alone. One criminal investigator handles all cases involving major 
crime violations that are referred for Federal prosecution. Many times 
Federal prosecution is declined because the cases have not been 
adequately investigated.
    Programs to address domestic violence and sexual assault related 
issues for many tribes started after 1997 as a result of funding under 
the Office on Violence Against Women. Tribal prosecution offices 
benefit greatly from training opportunities from these programs and 
work very hard to address the cases that police officers bring on a 
regular basis. It is not unusual for my office to receive 5-7 domestic 
violence cases per week. A majority does not involve serious bodily 
injury and will not be referred for Federal prosecution. On the other 
hand, cases that involve offenses under the Major Crimes Act many times 
are not accepted for Federal prosecution.
    Tribal prosecutors are facing the following types of problems in 
prosecuting domestic violence and sexual assault cases in Indian 
Country.

  <bullet> Investigations typically are based and/or centered on the 
        victim. The victim more often than not will recant; ask for 
        charges to be dismissed; write new statements blaming 
        themselves and/or that provide a self-defense claim for the 
        defendant. This unfortunately is part of the untreated victim 
        mentality. It is evident that more specific and extensive 
        training is needed for all law enforcement officers. This 
        should include training officers to build the case around the 
        victim, not on the victim. This has been referred to as 
        ``victimless'' prosecution or ``evidence based'' prosecution. 
        Both require the officer to respond to domestic violence calls 
        through a completely different process and procedure from the 
        traditional police response that officers are trained to use. 
        Officers must approach the investigation assuming from the 
        outset that the victim may, for whatever reason, not be 
        reliable, which requires the officer to gather collateral or 
        circumstantial evidence in abundance.

  <bullet> A lack of cooperation between tribal prosecutors and Federal 
        agencies. This is a problem that could be solved by memorandum 
        from the Attorney General's office to U.S. Attorneys and the 
        Field Solicitor that represent and advise Federal agencies that 
        operate on Indian lands. They generally are reluctant to allow 
        Federal employees to be subjected to tribal court subpoenas. 
        This includes, but is not limited to, Bureau of Indian Affairs 
        Law Enforcement officers; Detention Officers; Dispatchers, 
        Indian Health Service employees, such as doctors, nurses and 
        other health care providers who treated the victim's injuries. 
        On Hopi, the local IHS administrators will not allow medical 
        staff to conduct sexual assault examinations, which requires 
        then sexual assault victims to be transported hundreds of miles 
        to be examined. IHS medical staff often is crucial witnesses. 
        These individuals work within the territorial boundaries of the 
        Reservation and pursuant to tribal law are under the 
        jurisdiction of the tribal court; however legal 
        representatives, generally, field solicitors, will refuse to 
        allow Federal employees to cooperate in the tribal court 
        process claiming they are exempt because they are Federal 
        employees. This is a ridiculous and counter-productive policy, 
        as well as disrespectful of tribal sovereignty and tribes' 
        ability to self-govern. These are archaic positions whose time 
        has passed. It is time for a cooperative and collective 
        approach to all Tribal Issues by both the U.S. and the Tribes 
        themselves. A practical solution is to change the Attorney 
        General's position and policy on these issues. Foster an 
        attitude of cooperation with Indian Tribes especially in cases 
        where the Tribes are simply attempting to solve the problems of 
        their communities, while the Federal Government seemingly is 
        attempting to thwart those efforts.

  <bullet> There is a substantial and seemingly intentional problem of 
        communication and cooperation between the U.S. Attorney's 
        office, Criminal Prosecution Department, Federal Law 
        Enforcement; and Tribal Prosecutors especially on cases where 
        the U.S. Supreme Court has found that both sovereigns possess 
        ``concurrent'' jurisdiction over criminal violations that occur 
        on Indian lands when the suspect is Indian. When such a case is 
        being federally investigated, tribal prosecutors are not 
        privileged to any information obtained or on the progress being 
        made. The result of this practice is tribal prosecutors often 
        are not aware that there is an ongoing investigation until a 
        family member of the victim or the victims themselves contact 
        the tribal prosecutor's office inquiring on the status of the 
        case. This places the tribal prosecutor in a very difficult 
        position on several levels. First, we cannot provide any 
        information much less comfort our own tribal members that are 
        going through very difficult times. Second, our jurisdictions 
        generally have one to 2-year statute of limitations for filing 
        criminal charges in the tribal court even in rape, assault, 
        sexual assault, and homicide cases. Therefore, the time that 
        the feds have the case runs against the Tribes' time to file 
        charges. Third, the Indian Civil Rights Act limits Indian 
        tribes to can only sentence offenders to a 1-year maximum 
        incarceration and/or a $5,000.00 fine (maximum). Many times 
        after the Federal investigation has been ongoing for 6 to 8 
        months, the Federal investigator will forward the case to the 
        tribal prosecutor with the announcement that the U.S. 
        Attorney's office has declined to prosecute without explanation 
        as to the reason for declining. Tribal prosecutors then are 
        forced within a relatively short timeframe to build a case, 
        file the charges, and try to figure out where the U.S. Attorney 
        felt the case was so weak that they had to decline. In spite of 
        this, Tribal Prosecutor's have still been able to gain 
        convictions in these declined cases (which should raise its own 
        inquires). However, as stated earlier, we can only ask for a 
        maximum sentence of 1 year in jail and a $5,000.00 fine for 
        what are sometimes egregious, violent crimes. Some of the 
        issues identified could be remedied by simple policy changes by 
        U.S. law enforcement agencies that provide services to Indian 
        tribes. Other issues identified concerning sentencing abilities 
        and jurisdiction over non-Indian offenders would require 
        legislative action on the part of the U.S. Congress. Surely, 
        the day has come for redefining and strengthening ``dependent 
        sovereign'' in favor of the Tribes, just as it is with the 
        States.

    Nevertheless, the movement to end domestic violence in Indian 
Country has been initiated and we must not lose the momentum of change 
that is happening in our villages and communities. It is therefore more 
important than ever that the dialogue between Indian Nations and with 
you, as representatives of the Federal Government, continue in a 
respectful and meaningful way.
    The intersect between economically depressed populations, high 
rates of alcoholism and drug abuse, domestic violence, sexual assault, 
and other similar problems and conditions present on a majority, if not 
all, of our reservations is complex and will continue to require a 
tremendous amount of Federal dollars to enhance our capacity to respond 
to these issues. We are aware that OVW has supported demonstration 
initiatives for Indian country, such as the Safety for Indian Women 
from Sexual Assault Offenders Demonstration Initiative. The Hopi Tribe 
patiently awaits results from this initiative and subsequent funding 
opportunities to address issues we now have, including refusal of the 
reservation based Indian Health Care Service Unit to provide forensic 
sexual assault examination services, which has placed further demands 
on already limited resources by requiring transport of victims hundreds 
of miles away from the reservation and timely response to court 
subpoenas for medical staff to testify in tribal court in criminal 
proceedings.
    The pestilence of domestic violence, sexual assault, and stalking 
cannot be eliminated overnight. It is a persistent problem that needs 
to be addressed on the Hopi reservation year after year through 
services designed to work in a stark environment that lacks a stable 
economic base and that already is plagued with other social ills. The 
Federal Government must understand that it takes time and tremendous 
financial resources to develop the necessary infrastructure that will 
insure successful programs. The strides that have been made on Hopi are 
amazing considering the challenges and obstacles that the Tribe has 
faced, and continues to face, in implementing these programs.
    And, just when we have managed to get our heads above water, here 
comes the Adam Walsh Act with its mandates and election and 
implementation timelines. Again, without adequate resources, we are 
challenged with building from ground up a functioning sex offender 
registration and notification system or face the risk of placing tribal 
sovereignty in jeopardy. Do not assume that tribes fail to understand 
the importance of having a sex offender registry system. The Hopi Tribe 
elected to opted-in to the registry program as we desire our children 
and people to live in protected, safe, and healthy environments; 
however the Hopi Tribe unfortunately is one of the economically poorest 
populations in the United States, and because of its remote location in 
Arizona, its population is far removed from resources generally 
available to other tribes. It is therefore not surprising that the lack 
of available resources--experienced personnel, technology 
infrastructure, and financial support--is the biggest obstacle the 
Tribe will face in implementing requirements of the Sex Offender 
Registration and Notification Act (SORNA). The challenges the Hopi 
Tribe faces in complying with the Adam Walsh Act requirements include, 
but are not limited to: (1) remoteness and size of the reservation; (2) 
lack of tribal expertise to develop and maintain a website; (3) lack of 
trained staff to deal with collection, storage and disposal of DNA 
evidence; (4) use of traditional Hopi names for registration purposes; 
(5) lack of a tribal sex offender registry ordinance; and (6) 
collaboration with state, county, and other tribal governments on 
jurisdictional-related implementation issues.
    The Federal Government can play a key role by supporting and 
facilitating government-to-government dialogue between the tribes and 
with state agencies that will result in cooperative agreements to aid 
the tribes in implementing SORNA requirements.
    Lastly, it has become increasingly difficult to continue to ignore 
a glaring gap in the tribal criminal justice system's ability to hold 
all criminal offenders accountable. The fact that tribes are limited to 
misdemeanor level authority over serious crimes committed by American 
Indians only is a matter that must be discussed. The tribal courts are 
restricted to imposing criminal punishments of no more than a $5,000 
fine and/or incarceration for 1 year, or both. We must begin the 
difficult, but necessary, discussion of enhancing the criminal 
penalties and the ability of the tribes to hold non-Indian offenders 
criminally accountable in tribal courts. Although, on the other hand, 
many tribes are currently facing serious detention issues, including 
inmate overcrowding, lack of jail facilities, dilapidating buildings 
and lack of trained staff. We have been told that there is no funding 
to support construction of adult and juvenile detention facilities for 
offenders. The Hopi Agency Bureau of Indian Affairs correction staff 
today transports inmates back and forth nearly 300 miles from the Hopi 
Reservation to Flagstaff on a daily basis. Juvenile offenders are 
transported for detainment to Gallup, New Mexico and Towaoc, Colorado, 
300-500 round-trip miles away, and many times are turned away because 
there is no available bed space. We must together find a better 
solution and more efficiently utilize the funding that is supporting 
the way in which this problem is being addressed.
    We must admit that these are persistent problems that the tribes 
need to address year after year with adequate Federal financial support 
and in collaboration with state agencies We look forward to working the 
U.S. Senate Committee on Indian Affairs to address crimes of violence 
that are being committed against Indian women in Indian Country by both 
Indian and non-Indian perpetrators alike and would be pleased to offer 
knowledgeable and dedicated leadership and staff from the Hopi Tribe to 
sit on a national advisory work group to address these important and 
complex issues.
    Thank you.
                                 ______
                                 
Prepared Statement of Helen Parisien, Shelter Manager, Bridges Against 
                           Domestic Violence
    I have been Bridges Against Domestic Violence Shelter Manager for 
about eighteen months. During this period, I have worked with numerous 
women, mostly Native American, from several areas including but not 
limited to Minnesota, Montana, North Dakota, and primarily from 
Standing Rock and Cheyenne River Reservations in South Dakota.
    Although the situations vary, they have several things in common. 
These include fear, emotional turmoil, transportation problems, and a 
general lack of financial resources.
    One of the other things that the women have in common, is their 
refusal to contact law enforcement when an incident occurs. Rather, 
they wait until they have an opportunity to escape many times with only 
the clothes they and their children are wearing.
    I have found it is not uncommon on the reservations for the 
perpetrators of violence continue with their lives without fear of law 
enforcement. Many times, they are living in the same house where the 
violence occurred despite laws which state a woman and her children do 
not need to leave a home due to domestic violence.
    Due to jurisdictional issues, I have experience a disturbing 
failure of law enforcement to serve protection orders on abusers. If 
the protection order has not been served, the victim must resubmit the 
request to the court and repeat the entire process. This results in an 
unnecessary delay in helping to insure the safety of the woman and her 
children and takes up an unnecessary amount of court administrative 
time.
    If after the second time an order is not served, the victim has a 
choice of either giving up, once again receiving limited protection 
under the law which is there to protect her and her family, or, begin 
the process again. To say it could easily take 8 weeks or more is not 
by any means an exaggeration.
    One of the issues, which repeatedly arises and is a major 
contributing factor in the lack of reporting, is the length of response 
time or lack of response time when law enforcement is called. The 
following are some of my experience since beginning work at Bridges:

  <bullet> I was called by the Standing Rock Police Department 
        concerning a woman who had been severely beaten. The officer 
        stated to me that if she did not enter our shelter, she would 
        be killed. She had numerous bruised in various stages of 
        healing, cuts, blackened eyes, and was wearing a cast. I asked 
        her if the cast was the result of this beating. She replied no. 
        She had received the broken arm in a beating she had gotten 2 
        weeks before.

         I spoke to her several times a day about her situation during 
        her stay. In the course of those discussions, I learned that 
        her abuser had told her if she tried to contact the police, he 
        would kill her family. He also told her that since the police 
        were so slow, he could have her family dead before the ``cops'' 
        would even show up.

         She told me she would like to have him prosecuted on this and 
        we began the process. I had to make several telephone calls to 
        the BIA Law Enforcement in Fort Yates, ND, and was sent through 
        several offices before I could get through to an investigator. 
        By the time the investigator and a FBI Agent came to interview 
        the woman 6 weeks had passed. She said it was too late and, 
        ``See, I told you.''

  <bullet> I received a call concerning a young woman whom reported 
        being physically beaten and raped. I again contacted the BIA 
        Law Enforcement and requested than officers come down to 
        investigate.

         Once again, I had to make numerous calls in an attempt to get 
        cooperation from law enforcement and was again sent from office 
        to office. When I finally reached the investigator, I was told 
        he would be down that same afternoon to interview the victim. 
        He did not come down.

         Another telephone call the following day said he would be down 
        before noon. He again did not show up. This continued until the 
        victim left the shelter a couple of weeks later. The police 
        never did do an investigation.

         In continuing conversations with this woman, she told me that 
        she lived in daily fear of being found by her abuser.

  <bullet> I worked with a woman who had been severely beaten and raped 
        on Standing Rock Reservation just across the river from 
        Mobridge. After this assault, she was left along the road with 
        little clothing on and was told by the abusers that if she told 
        anyone they would kill her.

         She hid in the ditches for several hours while they repeatedly 
        drove by looking for her. They left and she began to walk along 
        the highway when a passerby picked her up and brought her to 
        the Mobridge Police Department. She was brought to the Mobridge 
        Regional Hospital for care and a rape exam.

         While there, the Mobridge Chief of Police repeatedly called 
        the Standing Rock BIA Law Enforcement requesting an officer to 
        come and interview her. After 4 hours, he was finally able to 
        speak to a BIA officer--on the telephone--and assured the Chief 
        of Police he would be down later.

         The woman came to our shelter expecting to be interviewed. I 
        called the Standing Rock BIA as an officer had not come and was 
        told an investigator would be down the next morning. He did not 
        come. After yet another call later in the day, I was told the 
        investigator would be down that same afternoon. He did not 
        come.

         Consequently, the woman left shelter saying that if law 
        enforcement was not going to do anything, she needed to leave 
        the area fearing that the abusers would find her and carry out 
        their threats.

  <bullet> I received a call from a woman who said her partner had 
        beaten her. She told me that he was in the area and that she 
        had already call the Standing Rock police to report it.

         I received another call from her a few weeks later saying that 
        her partner had returned home. He had heard that she reported 
        him and again beat her. I asked it he had been arrested for the 
        first beating and she said, ``no'' and that no officer had come 
        to interview her either.

         This last beating was more severe and resulted she be in the 
        hospital for life threatening injuries. Her life was saved, 
        however, it took almost sixteen months before he was tried in 
        Federal court.

    While it may seem to you that these incidents are extreme, I am 
sorry to say they are the norm. I could list numerous other examples in 
which the same time periods and inability to contact or receive 
cooperation from law enforcement have occurred. Or, in which the 
victims have state they are afraid to call the police, even if they 
have been severely beaten, due to the slow or complete lack of response 
time. Women have a very realistic fear they may be killed while waiting 
for law enforcement.
    I understand that there are several reasons for the responses we 
have received when working with BIA Law Enforcement, which include but 
are not limited to:

        1. Mobridge's location borders on the Standing Rock 
        Reservation. The examples listed above all occurred on the 
        reservation but women come to Mobridge to shelter because there 
        is no shelter on Standing Rock. This also places them in a 
        different jurisdiction whereby local law enforcement cannot 
        help them with the crime committed on the reservation.

         In addition, it is worthy of note that if an assault occurs 
        here in Mobridge, many times the perpetrator will go onto the 
        reservation to escape prosecution and service of court papers-
        another jurisdictional issue.

        2. Standing Rock is a large reservation covering area in two 
        states, North and South Dakota. The communities within average 
        25-30 miles apart.

         For the past few years, Standing Rock has experienced a sever 
        shortage of law enforcement officer. There have been numerous 
        times we have been told that there was only one officer on 
        duty. Officers may be either in the very northern part of the 
        reservation or out on another call. We have been told by 
        Standing Rock dispatch that the officer would get to a woman's 
        call when they have time no matter how life threatening the 
        situation may be.

        3. Thus, it is imperative that Standing Rock BIA Law 
        Enforcement not only fill the present vacancies but also 
        consider a program review to establish more positions. Response 
        time by officers must be cut especially when Standing Rock 
        women are beaten and raped. This can only happen when there is 
        an adequate number of officers on duty at any given time.

        4. Adequate training on the response of law enforcement to 
        domestic violence and sexual assault/rape needs to be a 
        priority for all Standing Rock law enforcement staff. Over the 
        past year, two trainings have been sponsored by Bridges Against 
        Domestic Violence for law enforcement in Mobridge and in Fort 
        Yates on Standing Rock Reservation. Both events were 
        facilitated by certified trainers and were of no cost to the 
        departments. Standing Rock law enforcement failed to send even 
        one person from their department to either of these.

    Domestic violence and sexual assault/rape are an unpleasant fact on 
the reservations lived out by the Native American women who live there. 
In fact, when posed with the question ``Do you know of any woman in 
this community who has not been beaten or raped?'' women in a small 
reservation community responded they did not know of anyone.
    Please do everything possible to help the women of Standing Rock 
reservation be safe in their homes and hold the abusers and rapes 
accountable for their crimes.
                                 ______
                                 
  Prepared Statement of the Salt River Pima-Maricopa Indian Community 
                                (SRPMIC)
Background
    The Salt River Pima-Maricopa Indian Community (SRPMIC) is located 
in Maricopa County, aside the boundaries of Mesa, Tempe, Scottsdale, 
Fountain Hills and metropolitan Phoenix, Arizona. The enrolled 
population exceeds 8,000 and the total land base is 53,600 acres and 
maintains 19,000 acres as a natural preserve.
    We estimate that 200,000 vehicles and 100,000 non tribal people 
enter the Salt River Pima-Maricopa Indian Community on a daily basis. 
Some of these individuals are here asemployees passing through to get 
to and from work, for business, to utilize the retail businesses 
located within the Community boundary, and we anticipate that the 
majority of the vehicle and non tribal people are just passing through. 
We are concerned about the potential for violent attacks against our 
women and Community members in general.
Violence Against Women Act (VAWA)
    In 2005, Congress reauthorized the Violence Against Women Act 
(VAWA), which for the first time includes a Tribal Title (Title IX) 
that seeks to improve safety and justice for Native American and Alaska 
Native women, including by; carrying out a study that provides a 
comprehensive understanding of the scope and nature of sexual violence 
against Indigenous women and the barriers to justice Indigenous women 
survivors face; and establishing a Tribal Registry to track sex 
offenders and protection orders. VAWA would also provide critical 
resources to tribal authorities for criminal justice and victim 
services to respond to violent assaults against women. Full funding for 
the Violence Against Women Act is a vital and necessary step that the 
U.S. Government must take to ensure the effectiveness of these 
measures. The SRPMIC has developed several programs and has approved 
supplemental funding to protect our Community members.
SRPMIC Domestic Violence Program
    With respect to the SRPMIC, funding ended in the year 2000. We 
received funding under the STOP Violence Against Women grant program 
and the Grants to Encourage Arrests program. When funding ended, the 
SRPMIC absorbed the cost for funding a:

  <bullet> judge position dedicated to domestic violence cases.

  <bullet> prosecutor dedicated to domestic violence cases.

  <bullet> police officer dedicated to domestic violence cases.

  <bullet> victim's advocate to assist victims through the 
        administrative and judicial system.

  <bullet> intergovernmental task force continues to address needs of 
        community.

  <bullet> grass roots women's advocate group continues to assist and 
        raise awareness.

  <bullet> counseling is available in the school system.

  <bullet> mandatory domestic violence training was conducted for all 
        employees.

    The Community sponsors awareness events, assists in obtaining 
immediate shelter care, prosecutes offenders regularly, and is 
supportive in the movement to end domestic violence.
1. Funding Issues
    Any new funding should focus on teen violence and even reach down 
to the grade school level to start awareness and promote self-esteem at 
an earlier age.

    A. There are specific needs related to SRPMIC Domestic Violence 
Services, which are:

  <bullet> funding to hire personnel to provide the ongoing support 
        services such as the Intensive Outreach Services needed to just 
        begin the building of trust between the Victim and the Domestic 
        Violence Service Worker. That process entails numerous meetings 
        with the victims.

  <bullet> SRPMIC Male Victims who are in need of information and 
        assessments are now coming forward asking for assistance. Their 
        needs are different in numerous areas than the female victims.

  <bullet> There is a need for expanded services for children involved 
        in the domestic violence situations. Intensive services for 
        children can help with prevention in the repetitive cycle of 
        children either becoming perpetrators or victims.

    B. With regards to funding under the Adam Walsh Act, the timeframe 
to prepare and submit a proposal prevented some tribes from being able 
to apply for funds. This short timeframe was contrary to the intent of 
distributing such funding to tribes with the highest needs.

2. Enhancing the Safety of Indian Women From Domestic Violence, Dating 
        Violence, Sexual Assault and Stalking
    A. Alternative Housing. In Indian Country the victim is remaining 
in the home throughout the incidents that occur. With each additional 
incident the intensity of the abuse increases leading to fatalities. 
There is a need for alternative housing for either the victim or 
perpetrator while services are being provided and during the 
transitioning of an individual once released from a counseling program 
where domestic violence was a contributing factor to substance abuse.

    B. Shelter. Salt River is in desperate need of a shelter(s) that 
understands the needs of the Native Community. Outside shelters create 
too large of a learning curve for a Native client to be able to survive 
there for a long enough period of time. Oftentimes, shelters will not 
let males stay with their families, so that older sons are separated 
from their families.

    C. Program for Perpetrators. A Perpetrators Program needs to be 
developed. We send the victim and their children to counseling but they 
return to the same home without the perpetrators' behavior changing to 
support the family in a healthy environment. A Perpetrators Program 
would require a male and a female counselor to conduct group sessions 
together, when appropriate, as well as a case manager.

3. Federal Legislation Efforts Regarding Consultation
    Subsequent legislation such as the current VAWA Act continues to 
keep a light shined on the need to address domestic violence. But one 
consultation a year may not be adequate. Further, there may be issues 
that are occur more in one region than another, so there should be 
consultations that address the needs more specifically.
4. Federal Efforts Regarding Prosecution
    The Department of Justice should make the prosecution of offenders 
a high priority. This should be a nationwide policy with all U.S. 
Attorney's Offices.
5. Re-Assumption of Criminal Jurisdiction Over Non-Indian Offenders
    The Violence Against Women Act, like the Adam Walsh Act, has 
extensive reach into Indian Country. Both acts deal with the safety of 
women and children and the need to prosecute offenders. Both Acts put a 
tremendous burden on tribes. Tribal communities are very concerned for 
the safety of its members and residents. The harm being done in Indian 
Country was highlighted in the recent report by Amnesty International. 
The report stated that Department of Justice statistics found that:

  <bullet> Native American and Alaska Native women are 2.5 times more 
        likely to be raped or sexually assaulted than women in the USA 
        in general.

  <bullet> More than one-in-three Native women will be raped in their 
        lifetimes.

  <bullet> At least 86 per cent of perpetrators are non-Indian.

    Currently, there is no tribal criminal jurisdiction over non-
Indians who commit crimes within the jurisdiction of the Indian 
Community, but a tremendous burden to keep everyone safe. Travel 
through and between jurisdictions heightens the problem. Arrests and 
prosecution by city and Federal jurisdictions is minimal. Relationships 
between the tribal governments and the U.S. Government are on a 
government-to-government basis. In order to truly work toward making 
communities safe, jurisdiction over offenders in domestic violence and 
sex-offender registration must be returned to Indian Communities, even 
if on a limited basis. A pilot project should be developed. Eligibility 
should be determined on a government-to government basis, depending on 
the level of services the tribal government provided.
6. Advisory Board
    The U.S. Department of Justice should appoint a Native American 
Advisory Board for issues that would directly impact Indian Country. 
This recommendation was raised to former U.S. Attorney Alberto Gonzales 
and his staff on August 27, 2007.
7. Support for Reauthorization of American Indian Health Care 
        Improvement Act (AIHCIA)
    The reauthorization of the AIHCIA must be a priority and also 
supported by the Department of Justice. Violence Against Women and 
Health Care go hand in hand.
    Thank you for your time and consideration of these very important 
issues.
                                 ______
                                 
          Prepared Statement of the U.S. Department of Justice

Introduction
    The Department of Justice (``the Department'' or ``DOJ'') is 
committed to helping combat violence against women in Indian Country. 
While we focus on investigation and prosecution of Federal crimes, we 
have a comprehensive range of efforts that include crime prevention and 
the provision of services to victims and at-risk individuals.
    The Department's efforts in Indian Country are led by the Federal 
law enforcement agencies and the United States Attorneys. The United 
States Attorneys play the central role in seeking justice in Indian 
Country, and they are committed to prosecuting Federal offenses on 
Indian lands to the fullest extent of the law. The investigation and 
prosecution of these cases is challenging, but the United States 
Attorneys continue to dedicate resources to Indian Country and to work 
with tribal governments and law enforcement agencies to increase 
cooperation and to find solutions. The Office of Tribal Justice, the 
Office on Violence Against Women, the Civil Rights Division, the Office 
of Justice Programs, the Office of Community Relations Services, and 
the Environment and Natural Resources Division, among others, provide 
support for these efforts. The Department also works closely with our 
partners in other Federal departments and agencies and among state and 
tribal authorities.
    The following sections of this statement address the jurisdictional 
context of the Department's efforts, describe some of the 
accomplishments of the Department with regard to crime in Indian 
Country generally and domestic violence specifically, and respond to 
recent criticisms of these efforts.
Background
    Indian Country criminal justice issues are complex because of the 
unique relationship of the Federal Government to the hundreds of 
tribes, whose sovereign authority we are obligated to respect. In most 
areas of Indian Country, the Federal Government, Indian tribes, and 
states share responsibility for prosecuting crimes, depending on the 
nature of the offense and whether the victim or perpetrator of the 
crime is Indian or non-Indian. \1\ Jurisdictional issues, therefore, 
play a substantial role in determining the path a criminal case in 
Indian Country takes. For example, first responders to violent crime 
incidents in Indian Country are most often tribal or the Department of 
the Interior's Bureau of Indian Affairs (BIA) police. In the case of 
Public Law 280 jurisdictions, state or local police are often the first 
responders to a call for assistance. Subsequent investigation of 
violent crimes can be initiated by tribal investigators, state or local 
detectives, BIA Criminal Investigators, or Special Agents from the 
Federal Bureau of Investigation (FBI), among others, depending on the 
jurisdiction. Finally, violent crimes occurring in Indian Country may 
be addressed in tribal, state, or Federal court, depending on the 
severity of the matter and the jurisdiction in which the crime 
occurred.
---------------------------------------------------------------------------
    \1\ A person is considered an ``Indian'' for purposes of Federal 
criminal statutes if they have Indian heritage and are recognized as an 
Indian by a tribe or the Federal Government. In nearly all cases, this 
is established by a person's membership in a federally recognized 
Indian tribe.
---------------------------------------------------------------------------
    The following paragraphs provide some background on this complex 
subject.
    Federal criminal jurisdiction. There are two main Federal statutes 
governing Federal criminal jurisdiction in Indian Country: 18 U.S.C. 
Sec. 1152 and Sec. 1153. Section 1153, known as the Major Crimes Act, 
gives the Federal Government jurisdiction to prosecute certain 
enumerated serious offenses, such as murder, manslaughter, rape, 
aggravated assault, and child sexual abuse, when they are committed by 
Indians in Indian Country. Among other things, Section 1152, known as 
the Indian Country or Inter-racial Crimes Act, gives the Federal 
Government exclusive jurisdiction to prosecute all crimes committed by 
non-Indians against Indian victims. The Federal Government also has 
jurisdiction to prosecute Federal crimes of general application, 
meaning those that do not require Federal territorial jurisdiction as 
an element such as drug and financial crimes, when they occur in Indian 
Country. Finally, the Federal Government prosecutes certain specific 
offenses designed to protect tribal communities, such as bootlegging in 
Indian Country, theft from a tribal organization or casino, unlawful 
hunting on tribal lands, and entering or leaving Indian Country with 
the intent to stalk or commit domestic abuse. The FBI, the BIA, and 
tribal law enforcement share responsibility for investigating Federal 
Indian Country offenses. In most cases, tribal law enforcement acts as 
first responders to Federal Indian Country offenses in their 
communities.
    Tribal criminal jurisdiction. As part of their inherent 
sovereignty, Indian tribes have jurisdiction to prosecute all crimes by 
Indians in Indian Country. Tribes have exclusive jurisdiction to 
prosecute minor crimes between Indians, and, under section 1152, the 
option to prosecute minor crimes by Indians against non-Indians and 
thereby preclude a Federal prosecution for the same offense. Tribes 
also have concurrent jurisdiction to prosecute Major Crimes, although 
tribes are limited by statute to imposing 1-year prison sentences and 
$5,000 fines. Most tribal offenses are investigated by tribal law 
enforcement or the BIA, although the FBI may investigate crimes by 
Indians against non-Indians, which are often subsequently prosecuted by 
tribes if the local United States Attorney's Office refers the case.
    State criminal jurisdiction. States have jurisdiction to prosecute 
offenses in Indian Country where both the victim and perpetrator are 
non-Indian, as well as ``victimless'' crimes by non-Indians. It should 
also be noted that Congress has authority to adjust criminal 
jurisdiction in Indian Country, and, in some cases, has delegated 
Federal responsibility for prosecuting Indian Country crimes to 
particular states or with respect to specific areas of Indian Country. 
As a result, under Public Law 280 and other related statutes, some 
states have jurisdiction to prosecute crimes by Indians in Indian 
Country, including Major Crimes and Inter-racial Crimes and even crimes 
between Indians. \2\ Depending on the particular statutory scheme, that 
jurisdiction may be exclusive of or concurrent with Federal 
jurisdiction. State offenses are investigated by state and local 
authorities, although, again, it is common for tribal law enforcement 
to act as first responders to crimes in their communities, even when 
they involve only non-Indians. Many tribes and local law enforcement 
agencies have arranged cross-deputization or other cooperative schemes 
to accommodate their shared responsibilities for and interests in law 
enforcement in Indian communities.
---------------------------------------------------------------------------
    \2\ The jurisdictional framework applicable in Indian Country is 
subject to adjustment by Congress, and Congress has done so in a number 
of cases. Most notably, Public Law 83-280, 18 U.S.C. sec. 1162, 
required six states--Alaska, California, Minnesota, Nebraska, Oregon 
and Wisconsin--to assume jurisdiction over Indian Country crimes and 
divested the Federal Government of jurisdiction to prosecute under the 
Major and Indian Country Crimes Acts in those areas, while giving other 
states the option to assume that jurisdiction under 25 U.S.C. sec. 
1321.
---------------------------------------------------------------------------
    These jurisdictional issues form the background and context for DOJ 
efforts in Indian Country, which we will now describe.
DOJ Efforts to Combat Crime Generally in Indian Country
    Of the ninety-three Federal judicial districts, twenty-nine have 
some Indian lands within their jurisdiction. Each of these districts 
has at least one tribal liaison, an Assistant United States Attorney 
who is responsible for coordinating Indian Country relations and 
prosecutions. There are currently forty-four Assistant United States 
Attorneys serving as tribal liaisons. The tribal liaisons work 
diligently to identify and respond to the needs of the tribes within 
their districts. Because each tribe is a sovereign, and the challenges 
they face are diverse, solutions and strategies are best developed at 
the local level, in close consultation with the tribal government and, 
where possible, the state and local governments and the BIA.
    The cases the Department prosecutes in Indian Country represent 
some of our most important and challenging work. Seldom do Federal 
prosecutors have the opportunity to work as closely with victims and 
communities as we do in Indian Country. That said, prosecuting violent 
crime, particularly sexual assault or domestic violence cases, poses 
unique challenges. These cases are some of the most difficult crimes to 
prosecute in any jurisdiction. By their very nature, these crimes 
involve the most intimate subjects and relationships, creating unique 
testimonial issues. In predominantly rural Indian Country, the vast 
distances police must travel often make it difficult for officers to 
timely secure crimes scenes, and thus also more difficult to collect 
and preserve evidence for use at trial. These difficulties are not 
reasons to forego prosecutions, only complicating factors that must be 
addressed in any prosecution.
    Even with these challenges, the Department's dedicated public 
servants are successfully prosecuting cases in Indian Country. For 
example, in FY 2006, the last complete year for which statistics are 
available, the Department filed 606 cases against 688 defendants in 
Indian Country. That is nearly 5 percent higher than the average since 
1994 of 580 cases against 643 defendants per year. In the same year, 82 
cases went to trial, 13.8 percent more than the average of 72 cases 
each year since 1994. Finally, the conviction rate for Indian Country 
prosecutions in FY 2006 was 89.4 percent, slightly higher than the 86.2 
percent average since 1994. Approximately 25 percent of all violent 
crimes investigated by United States Attorneys nationally occur in 
Indian Country.
    The FBI also plays a significant role in Indian Country. Even in 
this time of heightened awareness of and demands on the FBI from 
terrorism investigations, Indian Country law enforcement remains 
important to the FBI. Notably, since 2001, the FBI has increased the 
number of agents working Indian Country cases by 7 percent.
    The FBI investigates serious crimes in Indian Country, including 
murder, manslaughter, kidnapping, maiming, incest, assault with intent 
to commit murder, assault with a dangerous weapon, assault resulting in 
serious bodily injury, assault against person under age 16, arson, 
burglary, robbery, felony theft, and narcotics trafficking. Currently, 
two-thirds of the FBI's investigations fall into three top priority 
areas: homicide, child sexual and physical abuse, and felony assaults 
(including adult rape).
    The FBI also utilizes the Joint Indian Country Training Initiative 
with the BIA to sponsor and promote training activities pertaining to 
drug trafficking. In FY 2007, the FBI will have provided more than 30 
training conferences for local, tribal, and Federal investigators 
regarding gang assessment, crime scene processing, child abuse 
investigations, forensic interviewing of children, homicide 
investigations, interviewing and interrogation, officer safety and 
survival, crisis negotiation, and Indian gaming. Furthermore, the FBI's 
Office for Victim Assistance dedicates 31 Victim Specialists to Indian 
Country, serving 38 Indian tribes. The Victim Specialists dedicated to 
Indian Country represent approximately one third of the entire Victim 
Specialist work force.
Improving State, Local, and Tribal Capabilities to Fight Crime in 
        Indian Country
    In an effort to further strengthen the criminal justice response to 
crimes in Indian Country, the Department has joined with the BIA to 
train and commission state, local, and tribal law-enforcement officers 
so that they can properly exercise Federal jurisdiction over non-
Indians who commit Federal crimes in Indian Country. This cross 
deputization, or cross commissioning, of state, local, and tribal law 
enforcement increases the number of law-enforcement officials on the 
ground in Indian Country--all at little or no cost to the state, local, 
or tribal governments.
    Although the BIA is responsible for law enforcement in Indian 
Country, state, local, and tribal governments regularly assist the BIA 
in responding to emergencies in Indian Country; however, the assisting 
agencies often do so without the ability to fully investigate and 
enforce Federal laws because the agencies lack Federal law enforcement 
training and credentials. To resolve this problem, the BIA for many 
years has trained tribal, state and local officers, giving them an 
opportunity to take an examination and if successful, receive Federal 
law enforcement commissions through the BIA. Unfortunately, many state, 
local, and tribal officers were not taking advantage of this training 
program, in part because of a lack of regional and local access to the 
training.
    Recognizing that the training program was not being fully utilized, 
the Department and the BIA in February 2007 initiated a pilot program 
in the District of Colorado to allow the United States Attorney's 
Offices to offer local and regional training sessions. The program, 
hosted by the Southern Ute Indian Tribe, consisted of a 2-day training 
session ending with an optional Special Law Enforcement Commission 
examination administered by the BIA to cross-commission officers. This 
2-day pilot program resulted in the cross-commissioning of 40 officers, 
making the program a resounding success.
    In the months since the pilot program, more than 100 tribal, state, 
and local law enforcement officers have been successfully trained under 
this pilot program in the District of Colorado and have passed the 
required BIA test for cross-deputization. Moreover, based on the 
success of the pilot program, the Department initiated a ``train the 
trainer'' program in August of 2007 to train Assistant United States 
Attorneys serving as tribal liaisons throughout the country to offer 
the cross-deputization training and test in and around their respective 
districts. Also, in November of 2007, the Department and the National 
Congress of American Indians (NCAI) will be sponsoring a special cross-
deputization training and testing course to be held in conjunction with 
NCAI's national convention in Denver, Colorado. This course is expected 
to be attended by law enforcement officers from Indian tribes across 
the United States.
    The Department is committed to the success of the training program, 
which allows officers to cross jurisdictional lines with the ability to 
fully enforce Federal statutes against those who would commit crimes in 
Indian Country. With the full participation of tribal, local, and state 
agencies, this program will maximize resources, thereby offering 
greater protection to those living in Indian Country.
The Strategic Federal Response to Violence Against Women in Indian 
        Country
    The Department's efforts to combat crime in Indian Country, as 
described above, include the issue of domestic violence. In fact, in 
November 2002, the Native American Issues Subcommittee (NAIS) of the 
Attorney General's Advisory Committee of U.S. Attorneys made family 
violence in Indian Country, including sexual assault against women, a 
priority. In February 2003, NAIS adopted the recommendations of a 
working group tasked with developing a strategic Federal response to 
violence against women in Indian Country.
    In response to these recommendations, members of NAIS worked with 
staff at DOJ's National Advocacy Center training facility to develop 
training opportunities for Federal and tribal participants focused on 
domestic violence in Indian Country. The training events were held in 
June 2003 in Seattle, Washington, and May 2004 in Phoenix, Arizona. 
Both trainings convened tribal and Federal advocates, law enforcement, 
prosecutors, and national subject matter experts to learn in a 
collaborative model how to better assist domestic violence victims and 
to hold offenders accountable. In January 2006, a new course was 
offered for Federal prosecutors and investigators at the NAC. The 
course title was ``Prosecuting Federal Sexual Assault Cases Seminar.'' 
This training focused on issues specific to sexual assault cases, 
including medical evidence, DNA, special interview techniques, pretrial 
motions, the use of expert witnesses, and crime scene investigation. 
The last half-day of the training was dedicated to the investigation 
and prosecution of sexual assault in Indian Country.
    In addition, the majority of the NAIS legislative recommendations 
were incorporated into the Violence Against Women and Department of 
Justice Reauthorization Act of 2005 (P.L. 109-162), enacted on January 
5, 2006. The NAIS proposals, now a part of the Act, include the 
addition of tribal court convictions for misdemeanor domestic violence 
under 18 U.S.C. Sec. 922(g)(9), warrantless arrest authority for BIA 
officers in certain cases of domestic violence, and increased penalties 
for repeat domestic violence offenders. We believe that these laws will 
prove to be powerful tools in addressing domestic violence in Indian 
Country.
DOJ Funding Support for Domestic Violence Prevention and Victim 
        Services
    The Department not only prosecutes crime in Indian Country, but 
also funds efforts to reduce crime in Indian Country, including Indian 
Country over which the states, not the Federal Government, have primary 
jurisdiction. Over the past 6 years, the Department has provided more 
than $642 million to tribal governments and law enforcement agencies 
through the Office of Justice Programs, the Office of Community 
Oriented Policing Services, and, especially, the Office on Violence 
Against Women (OVW).
    At the heart of OVW's mission is the charge to help communities 
across the country to develop a coordinated community response to 
crimes of violence committed against women by using the force and 
effect of the criminal justice system to promote victim safety and 
offender accountability. Resource issues result in many tribes 
struggling to provide critical criminal justice infrastructure, such as 
law enforcement officers, courts, and prosecutors. Many tribes that do 
operate their own criminal justice systems struggle to fully fund such 
agencies. These infrastructure gaps can jeopardize the safety of all 
Native Americans, including Indian women. OVW grant programs have 
provided Indian tribal governments the opportunity to obtain funding to 
hire dedicated criminal justice professionals who can focus their 
efforts exclusively on responding to violence against Indian women.
    Since its creation in 1995 following the enactment of the Violence 
Against Women Act (VAWA), OVW has awarded more than $100 million to 
Indian tribal governments, tribal nonprofit organizations, and tribal 
coalitions to combat domestic violence, sexual assault, stalking, and 
teen dating violence. In Fiscal Year 2007 alone, OVW awarded 
approximately $47 million in grant funding to Indian tribes and other 
non-profit organizations to address violence committed against Indian 
women. OVW currently funds more than 110 tribal governments and 
nonprofit organizations that serve more than 200 tribal communities. 
While much remains to be done to effectively address the high rate of 
sexual assault and domestic violence committed against Indian women, 
OVW, since its inception, has provided an array of resources to assist 
in this effort.
    For example, through its Technical Assistance Initiative, OVW has 
sought to provide a broad range of very practical solutions to help 
tribal governments become more engaged in preventing domestic violence 
and sexual assault among their members. Over the past few years, OVW 
has supported several training and technical assistance events for its 
tribal grantees that have focused on sexual assault. The Southwest 
Center for Law and Policy, for example, has used OVW funding to support 
its highly successful National Tribal Trial Training College (NTTC). 
The goal of the NTTC is to provide Indian Country victim advocates, 
civil legal assistance attorneys, and criminal justice, social 
services, and health care professionals with the skills necessary to 
improve the adjudication of violence against Indian women cases in 
Federal, state and tribal courts. Previous NTTC training topics have 
covered forensic and special investigation issues in sexual assault, 
domestic violence, and stalking cases for tribal prosecutors and tribal 
law enforcement officers; developing effective responses to the 
intersection of stalking and sexual assault in Indian Country; and the 
development of trial skills for Indian Country sexual assault nurse 
examiners, health care practitioners, social services providers, and 
victim advocates in cases of sexual assault against Indian women. The 
most recent NTTC training was held in Seattle, Washington, this past 
July and focused on developing the capacity of tribal court judges and 
tribal court personnel to adjudicate sexual assault cases. An Assistant 
United States Attorney, specializing in the prosecution of violent 
crime in Indian Country, participated as faculty at this training.
    In addition to tribal governments, through the Tribal Domestic 
Violence and Sexual Assault Coalitions Program (Tribal Coalitions 
Program), OVW funds broad anti-violence coalitions of grassroots 
community organizations, often composed of affected women who assume a 
leadership role in advocating for systemic change. Funding from the 
Tribal Coalitions Program currently supports the operation of twenty-
two tribal domestic violence and sexual assault coalition programs 
across Indian Country. The tribal coalitions funded by OVW provide 
training to both Native and non-Native organizations and agencies that 
serve Indian victims of domestic violence, sexual assault, and dating 
violence. They also conduct public awareness and community education 
campaigns in tribal communities to increase the public's understanding 
of violence committed against Indian women, and provide technical 
assistance to the tribal government victim services programs and tribal 
nonprofit programs that make up their membership. The work that these 
coalitions have done with Indian tribal government leaders and 
community members, as well as Federal, state, and local leaders, to 
raise awareness about violence committed against Indian women has had a 
tremendous impact on national policy.
    The Department also believes that access to forensic medical 
examinations is critical to both the successful prosecution of sex 
offenders and the recovery of victims. Ideally, all persons who report 
or disclose a recent sexual assault--including Native American women--
should have access to specially educated and clinically prepared sexual 
assault forensic examiners (SAFEs) who can validate and address their 
health concerns, minimize their trauma, promote their healing, and 
maximize the detection, collection, preservation, and documentation of 
physical evidence related to the assault for potential use in the legal 
system.
    To advance the goal of increased access to SAFE professionals, the 
Department has funded two technical assistance projects. First, OVW 
entered into a cooperative agreement with the International Association 
of Forensic Nurses to disseminate the Attorney General's National 
Protocol for Sexual Assault Forensic Examinations (the Safe Protocol) 
and to assist jurisdictions with implementation of such protocols. 
Second, OVW and the National Institute of Justice jointly made an award 
to the Interactive Media Laboratory at Dartmouth Medical School to 
develop an advanced distance learning program, known as the SAFE 
Virtual Practicum, for health care practitioners who perform or may 
perform sexual assault forensic medical examinations. The SAFE 
Practicum walks students through the steps of a forensic medical exam, 
guided by the process outlined in the SAFE protocol. It also includes a 
virtual clinic with clients and mentors, lectures, and interviews with 
experts and victims. The Department anticipates that the completed 
Practicum will be available to practitioners this fall.
    Finally, three of the Department's Violence Against Women Act 
(VAWA) grant programs fund or encourage improved access to forensic 
medical exams. First, since its enactment in 1994, VAWA has mandated 
that, in order to receive STOP Violence Against Women Formula Grant 
Program (STOP Program) funds, states must certify that victims will not 
incur the full out-of-pocket costs of forensic medical exams. 42 U.S.C. 
Sec. 3796gg-4(a)(1). The Violence Against Women and Department of 
Justice Reauthorization Act of 2005 amended this requirement to permit 
states to use STOP funding to pay for those forensic medical exams. 
This amendment took effect in Fiscal Year 2007. In addition, since the 
inception of the STOP Program, states may use STOP funds for expenses 
related to the forensic exams, such as purchasing rape kits and 
forensic equipment, training medical professionals to perform the 
exams, and witness fees for those medical professionals. Tribes are 
eligible to receive STOP funds as sub-grantees of states. Second, under 
the Grants to Indian Tribal Governments Program, tribes may choose to 
fund forensic medical exams, including personnel, training and 
equipment costs. Third, under the Rural Domestic Violence, Dating 
Violence, Sexual Assault, Stalking, and Child Abuse Enforcement 
Assistance Program, grantees--including Indian tribal governments and 
tribal nonprofit organizations--may use program funds to improve access 
to forensic medical exams.
Responses to Recent Critiques of DOJ Efforts
    As discussed earlier in this testimony, the Department continues to 
work with tribal governments and tribal entities to prevent and respond 
to domestic violence and sexual assault in Indian Country in a variety 
of ways. Recently, statistics have been cited for the proposition that 
high levels of violent crime in Indian Country are not being addressed 
by Federal law enforcement. These accusations are largely based on 
misreadings of statistical studies that deal with a subject that is 
inherently difficult to quantify. It is unfortunate that this 
misunderstanding has detracted from the successful work being done by 
tribal, Federal, and state prosecutors to eradicate sexual violence in 
Indian Country.
    One of the Department's studies that has been misunderstood in 
relation to Indian Country is American Indians and Crime, A BJS 
Statistical Profile, 1992-2002, which relies on the National Crime 
Victimization Survey (NCVS) to provide data on the level and nature of 
victimization among American Indians in the general population. \3\ 
Although American Indians and Crime is a significant publication, the 
data in the report primarily reflect the experience of Native Americans 
living outside of Indian Country. Less than one-third of 1 percent of 
households in the NCVS sample are occupied by Indians residing in 
Indian Country. This sample size is insufficient to produce a reliable 
estimate. Thus, the statistics in that report cannot, and do not, speak 
to crime occurring in Indian Country. Instead, the report is reflective 
of those crimes occurring outside of Indian Country, an area in which 
Federal jurisdiction is limited by the Constitution and the Congress.
---------------------------------------------------------------------------
    \3\ American Indians and Crime, A BJS Statistical Profile, 1992-
2002 is available at: http://www.ojp.usdoj.gov/bjs/abstract/aic02.htm.
---------------------------------------------------------------------------
    In addition, even considering the unreliable sample size of 
households in Indian Country, the NCVS cannot generate estimates of 
violence on reservations, in tribal communities, or on trust lands 
because the sampled households in NCVS are derived from geographic 
units that include reservations, but do not uniquely identify them. 
Moreover, during NCVS interviews, Native Americans self-identify 
themselves, but do not provide details of tribal affiliation. As a 
result, the NCVS sample is not reflective of Indian Country and can 
only provide estimates of victimization rates among American Indians 
residing off the reservation, where the states, not the Federal 
Government, are responsible for general crimes of violence.
    That said, the Department recognizes the need for better data on 
crime occurring in Indian Country and, consequently, has increased its 
efforts in this field. The Bureau of Justice Statistics (BJS) is 
working with State Statistical Analysis Centers (SACs) to generate 
State Based Tribal Crime Reports. BJS has actively sought to generate 
estimates that compare tribal (reservation or tribal community) crime 
to jurisdictions adjacent to the reservations. This localized 
comparison provides a truer picture of criminal activity on tribal 
lands than does an aggregated national average that is possibly skewed 
for a variety of factors. BJS is currently working with BIA to obtain 
such data from six states (including data from 40 tribes) in the West.
    In addition, the Department is currently in the process of 
establishing a task force to assist the Department in conducting a 
National Baseline Study to Examine Violence Against Women in Indian 
Country under VAWA 2005. The members of the task force will possess a 
broad and varied knowledge of the complexities of Federal Indian law, 
the nature of domestic violence, dating violence, sexual assault, and 
stalking committed against American Indian and Alaskan Native women, 
and the cultural considerations that must be observed when conducting 
research in tribal communities. OVW is working to ensure that the 
proposed nominees will maintain a geographic balance representative of 
many of the challenges unique to Indian Country. In creating the task 
force, the Department is taking steps to ensure that the task force is 
established as a Federal advisory committee under the provisions 
established by the Federal Advisory Committee Act.
    This task force will assist the National Institute of Justice (NIJ) 
in the development and implementation of a national baseline study to 
examine violence against Indian women in Indian Country. In particular, 
the NIJ study will examine the types and magnitude of violence against 
women in Indian Country; will evaluate the effectiveness of Federal, 
state, and local responses to violence against native women; and will 
propose recommendations to increase the effectiveness of these 
responses. Within the study, the crimes that will be reviewed include 
domestic violence, sexual assault, dating violence, stalking, and 
murder.
    Finally, statistics alone do not convey the on-the-ground reality 
of DOJ's efforts. For example, many districts with Indian Country 
responsibilities have dedicated specific task forces, government-to-
government meetings, or multidisciplinary teams organized to work 
cooperatively with the tribes on issues related to sexual assault. 
Moreover, significant liaison work performed by Assistant United States 
Attorneys and victim's advocates with the tribes is not susceptible to 
statistical description.
Conclusion
    The Department of Justice recognizes and is committed to helping 
meet the law enforcement challenges in Indian Country, including in the 
area of domestic violence and sexual assault. The Department believes 
that each tribe, as a sovereign government, is best positioned to craft 
sustainable, culturally appropriate, and effective solutions to the 
diverse problems they face. However, the Federal Government is a vital 
partner in these efforts, and the Department will continue to work with 
tribes, state and local law enforcement, and the Department of Interior 
to meet these challenges.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 
                                  <all>

</pre></body></html>
